<html>
<title> - ON THE BORDER AND IN THE LINE OF FIRE: U.S. LAW ENFORCEMENT, HOMELAND SECURITY, AND DRUG CARTEL VIOLENCE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 ON THE BORDER AND IN THE LINE OF FIRE: U.S. LAW ENFORCEMENT, HOMELAND 
                   SECURITY, AND DRUG CARTEL VIOLENCE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 11, 2011

                               __________

                           Serial No. 112-24

                               __________

       Printed for the use of the Committee on Homeland Security


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-234 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001





                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management......     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     7

                               WITNESSES
                                Panel I

Mr. Grayling G. Williams, Director, Office of Counternarcotics 
  Enforcement, Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Amy E. Pope, Deputy Chief of Staff and Counselor, Office of 
  Assistant Attorney General, Department of Justice:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Panel II

Mr. Steven C. McCraw, Director, Texas Department of Public 
  Safety:
  Oral Statement.................................................    40
  Prepared Statement.............................................    42
Mr. Thomas C. Horne, Attorney General, State of Arizona:
  Oral Statement.................................................    45
  Prepared Statement.............................................    47
Mr. Sigifredo Gonzalez, Jr., Sheriff, Zapata County, Texas:
  Oral Statement.................................................    59
  Prepared Statement.............................................    62
Mr. Victor Rodriguez, McAllen Police Department, McAllen, Texas:
  Oral Statement.................................................    75
  Prepared Statement.............................................    78

 
 ON THE BORDER AND IN THE LINE OF FIRE: U.S. LAW ENFORCEMENT, HOMELAND 
                   SECURITY, AND DRUG CARTEL VIOLENCE

                              ----------                              


                        Wednesday, May 11, 2011

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Long, Duncan, Keating, 
Clarke, Davis, and Thompson.
    Also present: Cuellar, Green, Canseco, and Jackson Lee.
    Mr. McCaul. Good morning. The committee will come to order.
    The subcommittee is meeting today to hear testimony from 
our witnesses in order to examine the validity of the assertion 
that the border is better now than it has ever been.
    Before I begin my opening statement, there are several 
Members that have asked to join our hearing today. I ask 
unanimous consent that Mr. Cuellar, a Member of the full 
committee, Mr. Canseco of Texas, Mr. Green of Texas, also be 
allowed to sit on the dais for the hearing today.
    Hearing no objection, it is so ordered.
    I now recognize myself for an opening statement.
    I would like to welcome everyone here to the hearing today. 
The hearing is titled, ``On the Border and in the Line of Fire: 
U.S. Law Enforcement, Homeland Security, and Drug Cartel 
Violence.'' It is the second of two hearings to raise awareness 
of the dangers we face along our southern border with Mexico, 
to determine what we are doing to confront this growing 
National security threat to both countries.
    Our first hearing examined the U.S. strategy, assisting 
Mexico to win the war against the drug cartels. Testimony 
revealed drug cartels are taking huge amounts of territory, and 
the violence in Mexico is escalating at an alarming rate.
    We concluded there is no comprehensive U.S. strategy, and 
recommended they use lessons learned from Plan Colombia as our 
framework.
    Additionally, Federal law defines terrorism as activity 
that is intended to intimidate a civilian population or to 
influence the policy of a government by intimidation, or to 
affect the conduct of a government by assassination or 
kidnapping.
    In my judgment, the drug cartels fall squarely within this 
definition. That is why Chairman King and I introduced H.R. 
1270 designating the Mexican drug cartels as foreign terrorist 
organizations to provide us more authority to go after them and 
those who provide them with assistance.
    We communicated all these findings to Secretary Clinton, 
Attorney General Holder, and Assistant to the President for 
National Security Affairs, Mr. Donilon.
    I would first like to take this moment to commend President 
Calderon for taking on these drug cartels and the political 
courage he has demonstrated. But in my view, Mexico is losing 
this war, and so are we. It is my intention that through these 
hearings we can help Mexico win it.
    Today, we examine the U.S. side of the border. It is 
necessary to provide a realistic security assessment as 
determined by local and State law enforcement, and accurately 
measure the level of crime in our border communities related to 
cartel activities.
    In March, our Secretary of Homeland Security said that the 
border is better now than it has ever been. Many officials who 
are directly in the line of fire, such as Captain Bob Bullock 
of the Texas Rangers, disagree with the Secretary. We heard 
last week from Sheriff Dever in Arizona, stating he disagreed.
    Of course there is violence along the border. There is a 
spillover of crime and intimidation.
    Since January 2010, the Texas Department of Public Safety 
has identified at least 22 murders, 24 assaults, 15 shootings, 
five kidnappings directly related to this spillover. This past 
Sunday, there was a gun battle between Mexican marines and drug 
smugglers on Falcon Lake, which straddles the border, killing 
13 people.
    We have in our presence today Ms. Tiffany Hartley. This is 
the same lake where Tiffany Hartley of Colorado watched the 
cartels murder her husband in cold blood while they were riding 
jet skis together last year.
    Thank you for being here.
    Arizona sheriffs said that Mexican drug gangs literally do 
control parts of Arizona, noting that gang members are armed 
with radio, optics, and night vision goggles. Texas' Zapata 
County Sheriff Sigi Gonzalez, who is here today, as well, said 
that ``The feds say our side of the border is safe, but we have 
bullet holes in our schools and businesses that say 
otherwise.''
    The cartels do not fear U.S. law enforcement. In February 
we saw evidence of that as the Los Zetas gangs ambushed and 
killed U.S. ICE Agent Jaime Zapata and wounded his partner, 
Agent Avila, in broad daylight on a Mexican highway. They 
commonly threaten law enforcement on American soil, most 
recently threatening to shoot at State police or Federal agents 
from across the river in Mexico.
    Make no mistake. The drug cartels are here inside the 
United States. The Department of Homeland Security reports that 
Mexican drug cartels have infiltrated 276 U.S. cities. After 
Agent Zapata was killed, more than 450 cartel members were 
arrested across this country.
    The greatest impact on the U.S. side of the border is not 
well publicized. The Mexican drug cartels continue to threaten 
and intimidate. They offer their victims ``plato o plumo,'' 
silver or lead, meaning the bribe or the bullet.
    This is exactly how these cartels operate. For example, in 
the border town of Reynosa, Mexico, across the Rio Grande from 
McAllen, body parts were found this past December, which were 
no longer recognizable. A blood-stained poster board had a 
message of intimidation written on it. ``See, hear, shut up, if 
you want to stay alive.''
    It has been reported by the FBI, which issued a bulletin as 
early as 2008, warning drug gangs stockpiling weapons in safe 
houses in the United States in response to crackdowns against 
drug traffickers. The bulletin also said a drug kingpin ordered 
gang members to ``regain control and engage law enforcement 
officers if confronted.'' Gang members were armed with 
``assault rifles, bullet-proof vests, and hand grenades.''
    Late that same year, the Mexican federal police and Mexican 
army discovered what was then the largest weapons seizure in 
Mexico's history just a few miles from our border--540 rifles 
including 288 assault rifles, .50-caliber sniper rifles, 287 
hand grenades, anti-tank weapons, 500,000 rounds of ammunition, 
ballistic vests, and 14 sticks of dynamite.
    While we know that spillover violence occurs, the 
Congressional Research Service recently found that no one set 
of data exists that can definitively answer whether there has 
been significant spillover violence. The Federal definition of 
spillover violence is based on the Uniform Crime Report. 
Significantly, this report does not include key data such as 
kidnappings, extortions, home invasions, smuggling, and cartel-
on-cartel violence.
    In contrast, the Texas Department of Public Safety's 
definition of spillover violence includes aggravated assault, 
extortion, kidnapping, torture, rape, and murder. The director 
of the Texas DPS, Colonel Steve McCraw, who is here today, 
says, ``There is no question spillover violence is growing in 
Texas.''
    I have urged the President to visit the border, but to do 
more than to deliver a political speech. While I am pleased 
that we have added more resources to the border, it is not 
secure.
    It has never been more violent or dangerous than it is 
today. Anybody who lives down there will tell you that.
    There is a disagreement about the definition of spillover 
violence and the extent of that violence. But there should be 
no disagreement about the threat we face and what will happen 
if this administration continues to downplay the threat.
    So, what should we do?
    For starters, I think we should get out of our foxholes and 
lean forward against this growing threat. If we do not take the 
cartels, they will eventually take over our cities.
    We need to extend the use of the National Guard troops on 
the border and increase their numbers until we have a 
sufficient number of Border Patrol agents.
    We need to incorporate DOD surveillance technology along 
the border.
    We need to add at least two more unmanned aerial vehicles 
to the Texas-Mexico border.
    We need to increase southbound checkpoints or our best 
teams to confiscate weapons and cash, and then use the cash to 
help pay for border security operations.
    Finally, we need to increase funding to State and local law 
enforcement along the border through increased funding of 
operations like Operation Stonegarden.
    [The statement of Chairman McCaul follows:]
              Opening Statement of Chairman Michael McCaul
                              May 11, 2011
    Welcome to this Subcommittee on Oversight, Investigations, and 
Management hearing titled ``On the Border and in the Line of Fire: U.S. 
Law Enforcement, Homeland Security, and Drug Cartel Violence.''
    It is the second of two hearings to raise awareness of the danger 
we face along our Southern border with Mexico to determine what we are 
doing to confront this growing National security threat to both 
countries.
    Our first hearing examined the U.S. strategy assisting Mexico to 
win its war against the drug cartels. Testimony revealed drug cartels 
are taking huge amounts of territory and the violence in Mexico is 
escalating at an alarming rate.
    We concluded there is no comprehensive U.S. strategy and 
recommended they use lessons learned from Plan Colombia as our 
framework.
    Additionally, Federal law defines ``terrorism'' as activity that is 
``intended to intimidate or coerce a civilian population; to influence 
the policy of a government by intimidation or coercion, or to affect 
the conduct of a government by assassination or kidnapping.''
    That is why I, along with Chairman King, introduced H.R. 1270, 
designating the Mexican drug cartels as Foreign Terrorist Organizations 
to provide us more authority to go after them and those who provide 
them assistance.
    We communicated all these findings to Secretary Clinton, Attorney 
General Holder, and Assistant to the President for National Security 
Affairs Mr. Donilon.
    I would like to commend President Calderon for taking on the drug 
cartels that are overtaking his country. Mexico is losing this war. It 
is my intention through these hearings to help Mexico win it.
    Today we examine the U.S. side of the border. It is necessary to 
provide a realistic security assessment as determined by local and 
State law enforcement and accurately measure the level of crime in our 
border communities related to cartel activities.
    In March our Secretary of Homeland Security said, ``The border is 
better now than it ever has been.'' Many officials who are directly in 
the line of fire, such as Captain Bob Bullock of the Texas Rangers, 
disagree with the Secretary. Of course there is violence along the 
border--spillover of criminal organizations and spillover crime and 
intimidation.
    Since January 2010, the Texas Department of Public Safety has 
identified at least 22 murders, 24 assaults, 15 shootings, and 5 
kidnappings directly related to spillover violence.
    This past Sunday there was a gun battle between Mexican Marines and 
drug smugglers on Falcon Lake, which straddles the border, killing 13 
people. This is the same lake where Tiffany Hartley of Colorado watched 
the cartels murder her husband when they were riding jetskis together 
last year.
    Arizona Pinal County Sheriff Paul Babeu said Mexican drug gangs 
``literally do control parts of Arizona,'' noting that gang members are 
armed with radios, optics, and night-vision goggles.
    Texas Zapata County Sheriff Sigifredo Gonzalez said, ``The feds say 
our side of the border is safe, but we have bullet holes in our schools 
and businesses that say otherwise.''
    The cartels do not fear U.S. law enforcement. In February members 
of Los Zetas ambushed and killed U.S. ICE Agent Jaime Zapata and 
wounded his partner, Agent Avila in broad daylight on a Mexican 
highway.
    They commonly threaten law enforcement on American soil--most 
recently threatening to shoot at State police or Federal agents from 
across the river in Mexico.
    Make no mistake: The drug cartels are here inside the United 
States. The Department of Homeland Security reports that Mexican drug 
cartels have infiltrated 276 U.S. cities. After Agent Zapata was killed 
more than 450 cartel members were arrested across this country.
    The greatest impact on the U.S. side of the border is not well 
publicized. The Mexican drug cartels threaten and intimidate. They 
offer their victims ``plata o plumo,'' silver or lead, meaning the 
bribe or the bullet.
    This is exactly how these cartels operate. For example, in the 
border town of Reynosa, Mexico, across the Rio Grande River from 
McAllen, Texas, body parts were found this past December which were no 
longer recognizable. A blood-stained poster board had a message of 
intimidation written on it; ``See. Hear. Shut up, if you want to stay 
alive.''
    It has been reported the FBI issued a bulletin, as early as 2008, 
warning drug gangs stockpiled weapons in safe houses in the United 
States in response to crackdowns against drug traffickers. The bulletin 
also said a drug gang kingpin ordered gang members to ``regain control 
and engage law enforcement officers if confronted.'' Gang members were 
armed with ``assault rifles, bullet-proof vests, and grenades.''
    Late that same year Mexican Federal Police and the Mexican Army 
discovered what was then the largest weapon seizure in Mexico's history 
just a few miles from our border--540 rifles including 288 assault 
rifles and .50-caliber sniper rifles, 287 hand grenades, 2 M-72 anti-
tank weapons, 500,000 rounds of ammunition, 67 ballistic vests, and 14 
sticks of dynamite.
    While we know that spillover violence occurs, the Congressional 
Research Service recently found that no one set of data exists that can 
definitively answer whether there has been significant spillover 
violence.
    The Federal definition of spillover violence is based on the 
Uniform Crime Report. Significantly, this report does not include key 
data such as kidnappings, extortions, home invasions, and smuggling 
that are directly related to cartel violence.
    In contrast, the Texas Department of Public Safety's definition of 
spillover violence includes aggravated assault, extortion, kidnapping, 
torture, rape, and murder. The Director of Texas DPS, Colonel Steven 
McCraw, says there is ``no question spillover violence is growing in 
Texas.''
    I have urged the President to visit the border--but to do more than 
deliver a speech.
    While I am pleased that we have added more resources, the border is 
not secure and it has never been more violent or dangerous. Anyone who 
lives down there will tell you that.
    There is a disagreement about the definition of spillover violence 
and the extent of such violence. But there should be no disagreement 
about the threat we face and what will happen if this administration 
continues to downplay the threat.
    So what should we do? For starters we should:
  <bullet> Get out of our foxholes and lean forward against this 
        growing threat. If we don't the cartels will eventually attempt 
        to take over our cities.
  <bullet> Extend the use of National Guard troops on the border, and 
        increase their numbers, until we have a sufficient number of 
        Border Patrol Agents.
  <bullet> Incorporate DOD surveillance technology.
  <bullet> Add at least two more Unmanned Aerial Vehicles to the Texas-
        Mexico border.
  <bullet> Increase southbound checkpoints to confiscate weapons and 
        cash then use the cash to help pay for border security 
        operations;
  <bullet> Increase funding to State and local law enforcement along 
        the border through increased funding of Operation Stonegarden.
    We look forward to hearing the testimony from our witnesses.

    Mr. McCaul. So, with that, let me say I look forward to the 
testimony here today. I want to thank the witnesses for being 
here.
    Now, the Chairman recognizes the Ranking Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    I will defer to the Ranking Member first, if that is all 
right.
    Mr. McCaul. I will now recognize the Ranking Member of the 
subcommittee, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. It is great to have 
our ranks all defined.
    [Laughter.]
    Mr. Keating. If only this issue could be dealt with as 
easily as that, but thank you.
    I would like to thank you, Mr. Chairman, for conducting the 
hearing and for providing the subcommittee with the opportunity 
to hear first-hand accounts in terms of what the occurrences 
are in our southwest border.
    I would like to thank Ranking Member Thompson for being 
here and joining us, as well, and lending his experience to 
this morning's hearing.
    I look forward to receiving an update on the strategy 
utilized by the Federal Government to secure our border, and to 
the extent to which the State and local enforcement agencies 
are incorporated in this effort.
    We are obviously all here, because we are troubled with 
drug-related violence that occurs in the Mexican border and in 
Mexico. To that end, I am particularly interested in hearing 
from witnesses regarding the measures that are being deployed 
on the Federal, State, and local levels to prevent this 
violence from spilling over into the United States.
    I believe that we are fully able to continue the valuable 
assistance we can partner with in the Government of Mexico in 
their fight against daily acts of violence in their country, 
and to take actions to keep our border secure from this threat, 
and to face head-on domestic challenges that we have here at 
home.
    Any suggestion that we are not capable of doing these 
things simultaneously, I think discredits the admirable job 
performed by the Customs and Border Protection, Immigration, 
Customs Enforcement and the myriad of Federal, State, and local 
partners that really have worked tirelessly to keep our border 
secure and to implement immigration strategies.
    President Obama and Secretary Napolitano's visit to El Paso 
and Austin, Texas, yesterday, to discuss both border security 
and comprehensive immigration reform, show a commitment to both 
of these concepts.
    As we move forward in our discussion on the best way to 
address drug-related violence in Mexico, I am fully open to new 
ideas and concepts with the ultimate goal of ensuring that our 
homeland security is not threatened by the actions occurring in 
our neighboring country.
    Our Government has successfully used the Foreign Narcotics 
Kingpin Designation Act to sanction Mexican drug trafficking 
organizations. I am assured that this act provides the United 
States with one of the best available tools from posing 
economic sanctions against Mexican DTOs.
    It is my hope that moving forward we can work toward 
initiatives that provide bilateral efforts with Mexico, one of 
our closest allies, and maintain needed humanitarian aid 
provided to Mexicans by the United States Government.
    Finally, we cannot have a full discussion on a Southwest 
border counternarcotics strategy and how best to protect our 
border security personnel without also having a discussion on 
the demand for drugs in the United States and the use of U.S. 
firearms in the violence occurring in Mexico.
    As a member of the Addiction Treatment and Recovery Caucus, 
I am supportive of efforts here to reduce demand on drugs. I 
look forward to working with colleagues on both sides of the 
aisle to address this aspect of the issue.
    As I have stated before, as long as the demand exists here, 
the violence will continue there.
    I look forward to hearing from our Federal witnesses on how 
demand reduction factors factor into our overall strategy.
    Moreover, I am greatly concerned that so many of the guns 
seized in Mexico, including the firearms allegedly used in the 
recent killings and wounding of two immigration officials come 
from the United States.
    As the President noted yesterday at the border, for the 
first time, we are now screening 100 percent of the southbound 
rail cargo to reduce the threat of gun trafficking into Mexico.
    With that said, once again, to my disappointment here this 
morning, we do not have witnesses from the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives on the panel despite two 
requests in our last two hearings to have them included.
    I would encourage the Department of Justice witness, to the 
extent that she is able to do, to address the interplay of guns 
from the United States and Mexico, and how that interplays with 
the violence that is occurring in Mexico.
    So, I look forward to today's testimony and thank everyone 
for participating.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, for 
holding today's hearing.
    I would also like to thank our witnesses for their 
presence, and I look forward to their testimony.
    The purpose of this hearing is to determine whether the 
United States has a substantive strategy to control the 
Southwestern border, and whether that strategy is producing 
results.
    I would first like to express my concern about a recent 
statement made by House Speaker John Boehner regarding 
immigration reform. I understand that he plans to oppose any 
effort to reform the Nation's immigration laws before the 
violence at the border declines. As the committee's hearings 
have established, the violence is centered in Mexico.
    I am troubled by this violence in our backyard. That is why 
I support the Merida and other Federal initiatives to help our 
neighbors to the south address the violence.
    However, I do not see any legitimate reason for the United 
States to let comprehensive immigration reform fall by the 
wayside, because Mexico is experiencing drug-related violence. 
The two should not represent a zero-sum equation.
    As I previously stated, a comprehensive border security 
strategy must create an appropriate mix of personnel, 
technology, and infrastructure. In recent weeks, U.S. efforts 
along the Southwestern border have received a great deal of 
attention.
    In fact, just yesterday, both President Obama and Secretary 
Napolitano visited El Paso, Texas, to discuss the unprecedented 
resources that have been dedicated to the Southwestern border 
over the past 2 years.
    The United States has deployed more resources, personnel, 
technology, and infrastructure to secure the Southwestern 
border than ever before. There are more than 17,500 Border 
Patrol agents on the border. Authority to place up to 1,200 
National Guardsmen has also been granted.
    More than 250 Customs Immigration special agent 
investigators and intelligence analysts are working around the 
clock to secure our border and to keep illegal goods, 
narcotics, and dangerous individuals from entering the United 
States. Their presence deters violent actors from crossing over 
our border communities, which are among the safest places to 
live in the United States.
    Legitimate travel and commerce occur between the United 
States and Mexico and within our border communities on a daily 
basis. Including services, we trade more than $1 billion a day 
with Mexico.
    To put this in perspective, we do as much business in goods 
and services with Mexico in just over a month as Mexico does 
with all 27 countries of the European Union combined in a year.
    As we seek to define a solution to increasing violence in 
Mexico, we must remain mindful that Mexico is our third-largest 
trading partner, which the United States ranks first among 
Mexico's trading partners.
    The source for much of the violence in Mexico has been 
Mexican drug trafficking organizations, called DTOs. The facts 
indicate that the violence occurring in Mexico is highly 
concentrated and, in many instances, limited to drug 
trafficking corridors, some of which are hundreds of miles away 
from the United States border.
    The facts also indicate that the bulk of this violence 
occurs between rival DTOs seeking to conquer new turfs or DTOs 
as lower-level drug dealers seek to rise up within their 
organizations.
    Moreover, the facts show that DTOs are motivated by one 
thing and one thing only--money. They are not ideologically 
based. They do not seek an effectual political change. They do 
not organize orchestrated attacks against the government.
    They only seek to make a profit by any means necessary.
    Fortunately, statistics and concrete evidence show that the 
violence does not spill over substantially into the United 
States. The combined efforts of our Federal Government working 
along with our State and local law enforcement have produced 
real results.
    In fiscal year 2010, ICE-led efforts along the Southwestern 
border resulted in 1,616 criminal arrests, 907 administrative 
arrests, 868 indictments, 697 convictions, the discovery of two 
tunnels and the seizure of tons of marijuana, cocaine, and 
methamphetamines.
    In the past 2 years, Customs and Border Protection seized 
$147 million in currency and between ports of entry along the 
Southwestern border, in addition to 4.1 million pounds of 
narcotics. These results do not negate the violence that is 
occurring in Mexico. However, they do indicate that current 
U.S. strategies are improving the safety and security of the 
United States.
    I would be remiss if I did not mention the significant 
budget cuts proposed by the Republican majority in this current 
budget proposal. In this Congress, the majority passed H.R. 1, 
which cut $350 million from the Department of Homeland Security 
budget for border security, fencing, and technology. If 
enacted, these cuts will also reduce the number of Border 
Patrol agents on the Southwestern border.
    I would encourage my Republican colleagues to show a real 
concern for border security by fully funding border security 
efforts. Moving us backwards by slashing funds and decreasing 
our human and financial resources will certainly result in less 
secure borders.
    Again, I look forward to hearing from our witnesses and 
having an honest discussion about the future of our border 
security efforts.
    I yield back, Mr. Chairman.
    Mr. McCaul. Thank you, Mr. Thompson.
    Let me also say in response to the resource issue, it is my 
commitment and my sincere hope we can work together in a 
bipartisan fashion. It is a tough budgetary time, but this is 
the one area we cannot afford to cut back. We need to add 
additional resources down to the border.
    Thank you for bringing that point up.
    Mr. Thompson. Thank you.
    Mr. McCaul. With that, other Members of the committee are 
reminded that opening statements may be submitted for the 
record.
    We are pleased to have two panels here today. The first 
panel, we have a witness from the Department of Homeland 
Security and Department of Justice, and the second panel more 
State and local witnesses.
    I encourage the members of the press and those in 
attendance at this hearing to stick around for both. I think 
you will find the opinions may vary. I would just encourage you 
to stay and hear both testimonies from both panels.
    First we have Mr. Grayling Williams, who has served as the 
director of the Office of Counternarcotics Enforcement since 
2009, coordinating policy and strategy to stop the entry of 
illegal drugs into the United States. Prior to his appointment, 
Director Williams served as a special agent with the DEA for 
almost 23 years where he taught undercover operations, 
surveillance techniques, and informant management to law 
enforcement officers in the United States and overseas.
    Mr. Williams, thank you for being here, and thank you for 
your service in the field.
    Ms. Amy Pope currently serves as deputy chief of staff and 
counselor to the assistant attorney general for the Criminal 
Division at my old alma mater, the Department of Justice. Prior 
to this position, Ms. Pope served on detail as senior counsel 
to the AAG. Ms. Pope has previously served as counsel to Senate 
Majority Leader Harry Reid and as the liaison between the 
Senate leadership and the Senate Judiciary Committee.
    With that, Mr. Williams, if you would give us your 
testimony.

    STATEMENT OF GRAYLING G. WILLIAMS, DIRECTOR, OFFICE OF 
 COUNTERNARCOTICS ENFORCEMENT, DEPARTMENT OF HOMELAND SECURITY

    Mr. Williams. Yes. Good morning, and thank you.
    Chairman McCaul, Ranking Member Keating, and distinguished 
Members of the subcommittee, I am honored to appear before you 
today to discuss the efforts of the Department of Homeland 
Security in securing the Southwest border.
    DHS is committed to protecting our Nation's borders from 
the illegal entry of people, weapons, drugs, and contraband, 
and is continuing to work with our Mexican counterparts to 
address the violence and criminal activities occurring in 
Mexico, and guard against spillover effects into the United 
States.
    We are in the midst of National Police Week. Before 
beginning my formal remarks, I would like to recognize the law 
enforcement officers serving the department, other Federal 
agencies, State, local, and Tribal governments, who put their 
lives on the line each day to protect our communities and our 
Nation.
    I particularly want to honor the service and recognize the 
sacrifice of U.S. Immigration and Customs Enforcement Special 
Agent Jaime Zapata, and Border Patrol Agent Brian Terry, who 
were recently killed in service to their country.
    As director of the Office of Counternarcotics Enforcement, 
I serve as the primary advisor to Secretary Napolitano on 
counterdrug issues. I work closely with the Department's 
components and the interagency to ensure that our counterdrug 
efforts are well-coordinated and support the Secretary's 
priorities.
    CNE works with components to identify and resolve issues 
impacting the DHS counternarcotics mission and the President's 
National Drug Control Strategy.
    I also serve as an executive agent for the development and 
implementation of the administration's National Southwest 
Border Counternarcotics Strategy. The strategy is a 
comprehensive plan that provides the resources and tools 
necessary to combat transnational crime.
    Over the past 2 years, DHS has deployed historic levels of 
personnel, technology, resources to the Southwest border. The 
Border Patrol more than doubled the number of agents to over 
20,700. Under the Southwest Border Initiative, launched in 
March 2009, DHS has doubled the number of personnel assigned to 
border enforcement security task forces under ICE's Homeland 
Security Investigations Office.
    With the aid of $600 million from the border security 
supplemental requested by the administration and passed by 
Congress in 2010, we have continued to add more technology, 
manpower, and infrastructure to the border. Further, President 
Obama authorized the temporary deployments of up to 1,200 
National Guard personnel to contribute additional capabilities 
and capacities to assist law enforcement agencies.
    Additionally, to support State and local law enforcement 
jurisdictions along the border, we directed more than $123 
million in Operation Stonegarden funds in 2009 and 2010, to 
Southwest border States to pay for overtime and other border 
security-related expenses.
    In partnership with the Drug Enforcement Administration and 
the Department of Justice, and the Department of Defense, we 
have also achieved initial operational capability for the new 
Border Intelligence Fusion Section within the El Paso 
Intelligence Center.
    This new section will provide a comprehensive Southwest 
border common intelligence picture as well as real-time 
operational intelligence to our law enforcement partners in the 
region.
    Taken as a whole, the additional manpower, technology and 
resources directed at securing the region represent the most 
serious and sustained effort to secure our border in our 
Nation's history. Every key metric shows that these border 
security efforts are producing significant results.
    Seizures of drugs, weapons, and currency have increased 
across the board, and violent crime in border communities has 
remained at a common level, or has fallen. At the same time, 
challenges do remain.
    We remain deeply concerned about the drug cartel violence 
taking place in Mexico. We know that these drug organizations 
are seeking to undermine the rule of law in Mexico, and we must 
continue to vigorously guard against potential spillover 
effects into the United States.
    Our partnership with Mexico has been critical to or efforts 
to secure the Southwest border, and we will continue to expand 
this collaboration.
    Mexico's president, Felipe Calderon, has demonstrated a 
tremendous level of commitment and resolve to breaking the 
power structure of the transnational criminal organizations 
operating in his country.
    I have visited Mexico and have met with officials from the 
government to discuss how DHS can further support them. Our 
progress in securing the Southwest border against illicit drug 
trafficking is unprecedented.
    Even with the current budget restraints, I am committed to 
continuing to work efficiently and effectively with DHS's 
components and the interagency to ensure that counternarcotics 
policies and operations are well coordinated, and that DHS 
commits the resources necessary to respond to the evolving 
threats posed by transnational criminal organizations.
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, thank you again for this great opportunity to 
testify. I am happy to respond to your questions.
    [The statement of Mr. Grayling follows:]
               Prepared Statement of Grayling G. Williams
                              May 11, 2011
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, I am honored to appear before you today to discuss 
the efforts of the Department of Homeland Security (DHS) in securing 
the Southwest border. DHS is committed to protecting our Nation's 
borders from the illegal entry of people, weapons, drugs, and 
contraband, and is continuing to work with our Mexican counterparts to 
address the violence and criminal activities occurring in Mexico and 
guard against spillover effects into the United States.
    As Director of the Office of Counternarcotics Enforcement (CNE), I 
serve as the primary advisor to the Secretary on counterdrug issues, 
working closely with the Department's components and the interagency to 
ensure that our counterdrug efforts are well coordinated and support 
the Secretary's priorities. CNE works with components to identify and 
resolve issues impacting the DHS counternarcotics mission, while also 
supporting the goals identified in the President's National Drug 
Control Strategy.
    On behalf of the Secretary, I also serve as an executive agent for 
the development and implementation of the administration's National 
Southwest Border Counternarcotics Strategy, which is produced by the 
White House Office of National Drug Control Policy. This strategy is a 
comprehensive plan that identifies concrete joint actions to improve 
intelligence and information sharing, enhances interdiction at and 
between U.S. ports of entry, and provides investigators and prosecutors 
with the resources and tools necessary to combat transnational criminal 
organizations.
    Over the past 2 years, DHS has deployed historic levels of 
personnel, technology, and resources to the Southwest border. Today, 
the Border Patrol is better staffed than at any time in its 87-year 
history, having more than doubled the number of agents from 
approximately 10,000 in 2004 to more than 20,700 today. Under the 
Southwest Border Initiative launched in March 2009, DHS has doubled the 
number of personnel assigned to Border Enforcement Security Task 
Forces; increased the number of intelligence analysts focused on cartel 
violence; quintupled deployments of Border Liaison Officers to work 
with their Mexican counterparts; begun screening 100 percent of 
southbound rail shipments for illegal weapons, drugs, and cash; and 
expanded unmanned aircraft system coverage to the entire Southwest 
border.
    With the aid of $600 million from the border security supplemental 
requested by the administration and passed by Congress in 2010, we have 
continued to add more technology, manpower, and infrastructure to the 
border. These resources include 1,000 additional Border Patrol Agents; 
250 new U.S. Customs and Border Protection (CBP) officers at our ports 
of entry; 250 new U.S. Immigration and Customs Enforcement (ICE) agents 
focused on transnational crime; improving our tactical communications 
systems; adding two new forward operating bases to improve coordination 
of border security activities; and additional CBP unmanned aircraft 
systems.
    Further, President Obama authorized the temporary deployment of up 
to 1,200 National Guard personnel to contribute additional capabilities 
and capacity to assist law enforcement agencies as a bridge to longer-
term enhancements in the efforts to target illicit networks' smuggling 
of people, drugs, illegal weapons, money, and the violence associated 
with these illegal activities. That support has allowed us to bridge an 
operational gap and hire additional agents to support the Southwest 
border, as well as field additional technology and communications 
capabilities that Congress so generously provided. The Departments of 
Defense and Homeland Security agreed to equally fund this support; 
however, Congress did not approve DHS' reprogramming requests. 
Consequently, the Department of Defense has been funding the full cost 
of this National Guard support.
    Additionally, to support State and local law enforcement 
jurisdictions along the border, we directed more than $123 million in 
Operation Stonegarden funds in 2009 and 2010 to Southwest border States 
to pay for overtime and other border-related expenses.
    In partnership with the Drug Enforcement Administration (DEA) and 
the Department of Defense, we also have achieved initial operational 
capability for the new Border Intelligence Fusion Section integrated 
into the DEA-led El Paso Intelligence Center (EPIC). This new section 
will provide a comprehensive Southwest Border Common Intelligence 
picture, as well as real-time operational intelligence, to our law 
enforcement partners in the region--further streamlining and enhancing 
our operations. And we are continuing to work with Mexico to develop an 
interoperable, cross-border communications network that will improve 
our ability to coordinate law enforcement and public safety issues.
    Taken as a whole, the additional manpower, technology, and 
resources directed at securing the region represent the most serious 
and sustained effort to secure our border in our Nation's history. Such 
efforts were undertaken with the support of Congress and were well 
coordinated within the interagency. While our work is not done, every 
key metric shows that these border security efforts are producing 
significant results. Border Patrol apprehensions--a key indicator of 
illegal immigration--have decreased 36 percent in the past 2 years, and 
are less than one-third of what they were at their peak. Seizures of 
drugs, weapons, and currency have increased across the board. And 
violent crime in border communities has remained flat or fallen in the 
past decade--in fact, studies and statistics have shown that some of 
the safest cities and communities in America are along the border.
    At the same time, challenges remain, and we must continue to build 
upon the progress we have made. We remain deeply concerned about the 
drug cartel violence taking place in Mexico. We know that these drug 
organizations are seeking to undermine the rule of law in Northern 
Mexico, and we must vigorously guard against potential spillover 
effects into the United States.
    Our men and women in uniform encounter danger every day, and they 
put their lives on the line for our country. The murder of a U.S. 
Immigration and Customs Enforcement special agent in Mexico in February 
2011 and of a Border Patrol agent in December 2010 underscore the risks 
our men and women on the frontlines face as they work to protect our 
borders and our country. As the Director of CNE, I take very seriously 
my position and responsibility to ensure our law enforcement officers 
have the resources necessary to carry out their duties in protecting 
America's borders. We owe them every tool and every resource in our 
arsenal so that they can safely and successfully do their jobs.
    Our partnership with Mexico has been critical to our efforts to 
secure the Southwest border, and we will continue to expand this 
collaboration. Mexico's President, Felipe Calderon, has demonstrated a 
tremendous level of commitment and resolve to breaking the power 
structure of the transnational criminal organizations operating in his 
country. Through our attaches in Mexico, the Merida Initiative and 
direct, operational cooperation and information sharing, DHS is working 
to support the Government of Mexico's continuing counternarcotics 
efforts. As part of a broader bilateral effort, the Department has 
increased joint training programs with Mexican law enforcement agencies 
and, for the first time in history, Border Patrol agents are 
coordinating joint operations along the Southwest border with their 
colleagues in the Mexican Federal Police to combat human trafficking 
and smuggling in our respective nations.
    I have visited Mexico and have worked with the Government of Mexico 
to develop the CNE sponsored U.S.-Mexico Bi-National Criminal Proceeds 
Study. The success of this study is the result of the collaborative 
efforts of CNE, ICE, other Federal agencies and the Government of 
Mexico. This study reveals the means by which criminal networks, 
particularly drug cartels, move criminal proceeds from the United 
States into Mexico and beyond. The study includes critical assessments 
of money collection sites, transportation routes, and chokepoints. It 
also enables the United States and Mexico to strategically target our 
law enforcement operations and resources. Its findings are being 
addressed and implemented by several bi-national planning and strategic 
working groups. These groups provide a forum for U.S. and Mexican law 
enforcement to coordinate, de-conflict, and enhance significant 
criminal investigations. I am encouraged that as our governments expand 
collaborative efforts, the level of cooperation and information sharing 
continues to improve.
    Our progress in securing the Southwest border against illicit drug 
trafficking over the past 2 years is unprecedented and our efforts 
greatly contributed to protecting the safety and security of 
individuals and communities along the Southwest border. I am committed 
to continuing to work with DHS' components and the interagency to 
ensure that counternarcotics policies and operations are well 
coordinated and that DHS commits the resources necessary to respond to 
the evolving threats posed by transnational criminal organizations.
    Chairman McCaul, Ranking Member Keating, and Members of the 
subcommittee, thank you again for this opportunity to testify. I am 
happy to respond to your questions.

    Mr. McCaul. Thank you, Mr. Williams.
    The Chairman now recognizes Ms. Pope to testify.

STATEMENT OF AMY E. POPE, DEPUTY CHIEF OF STAFF AND COUNSELOR, 
  OFFICE OF ASSISTANT ATTORNEY GENERAL, DEPARTMENT OF JUSTICE

    Ms. Pope. Good morning, Mr. Chairman, Mr. Keating and 
distinguished Members of this subcommittee. Thank you for the 
invitation to address the subcommittee about the Department of 
Justice's strategy to combat the violence on the Southwest 
border.
    Your commitment to this issue and these hearings come at a 
critical time for the United States and for Mexico. In a 
nutshell, the Department of Justice's strategy to eliminate the 
threat posed by the Mexican drug cartels is two-pronged.
    First, to intensify our investigative and prosecutorial 
efforts through coordinated, intelligence-driven operations 
here in the United States.
    Second, to strengthen the Mexican government's own capacity 
to dismantle the cartels.
    Both aspects of this strategy are essential to defeating 
the organized criminal groups operating in both countries.
    The first prong of the Department of Justice's strategy is 
to increase and intensify our own investigative and 
prosecutorial efforts here in the United States.
    We are investing unprecedented agent and prosecutorial 
resources in fighting the Mexican drug cartels. With these 
resources and with our partners at DHS and other agencies of 
the Federal Government, we are using intelligence to coordinate 
long-term investigations that identify all of the tentacles of 
a particular organization.
    Through the Special Operations Division, we are able to 
connect the dots between jurisdictions, arresting and 
prosecuting as many high-level members of the organization as 
possible, disrupting and dismantling the domestic 
transportation and distribution networks of the cartels and 
seizing as many of the organization's assets as we can 
identify.
    This comprehensive approach has led to a number of 
remarkable successes. Five of the most recent SOD-coordinated 
investigations combined resulted in more than 5,500 arrests and 
the seizure of more than $300 million in U.S. currency, 260,000 
pounds of marijuana, 36,000 kilos of cocaine, 1,400 pounds of 
heroin, 6,500 pounds of methamphetamines, and 1,500 weapons.
    We have also realized that the key to the vitality of the 
drug trafficking and other criminal organizations is their 
continued access to enormous sums of money. Thus, we are 
aggressively using our asset forfeiture and anti-money 
laundering laws to deprive the cartels of their illicit 
proceeds.
    The Criminal Division has created a new Money Laundering 
and Bank Integrity Unit and a Mexican drug cartel team within 
our Asset Forfeiture and Money Laundering Section, which is 
devoted exclusively to investigating and prosecuting complex 
criminal cases involving the financial institutions and the 
individual criminal facilitators who hide the money that fuel 
the cartels.
    Similarly, the Department is aggressively seeking the 
extradition of high-level traffickers to the United States to 
face criminal prosecution here. In the past 2 years, we have 
secured the extradition of more than 200 high-level drug 
traffickers and violent criminals--more than in any other 2-
year period.
    Just last month, Mexico extradited Benjamin Arellano-Felix, 
the former head of the Tijuana cartel, to face racketeering and 
drug conspiracy charges resulting from a long-running OCDETF 
investigation in San Diego. We hope to build and expand upon 
these successes in the coming year as we work more closely than 
ever with the Mexican government in this critical area of 
cooperation.
    The second piece of our strategy is to increase Mexico's 
own ability to investigate and prosecute the cartels--in 
Mexico. With funding from the State Department and USAID, our 
Federal prosecutors stationed in Mexico do work that runs the 
gamut from high-level advice on criminal code reform to 
practical training on investigations and prosecutions.
    Since July 2009, working with our U.S. Federal agency 
partners, the Department of Justice has trained more than 
10,600 different individuals at all levels and in the executive 
and judicial branches of the Mexican government.
    We are partnering with law enforcement agencies in 
Colombia. We are sending Mexican members of Congress, of the 
judiciary and of the Executive branch to train in tandem with 
our U.S.-trained Colombian counterparts.
    But our training and our mentoring extends beyond the 
classroom. We are partnering on investigations and 
prosecutions.
    Assistant U.S. attorneys and Criminal Division prosecutors 
are mentoring and partnering with their Mexican counterparts in 
the attorney general's office in Mexico, the PGR, who are in 
turn collaborating with the Mexican federal police, the SSP, 
and the DEA as never seen before.
    We are identifying cases to work on both sides of the 
border, and our Southwest border U.S. attorneys are forging 
relationships with their regional counterparts.
    Before I conclude, I am compelled to add that we cannot 
achieve success without the support and input from Members of 
Congress. Through the investment in our efforts along the 
Southwest border, as in last summer's emergency supplemental, 
the collaboration on legislation and a recognition that this is 
a sustained, long-term investment, Congress has already and can 
in the future play a meaningful role in this fight.
    I will be happy to answer any questions you may have.
    [The statement of Ms. Pope follows:]
                   Prepared Statement of Amy E. Pope
                              May 11, 2011
                              introduction
    Good morning, Mr. Chairman, Mr. Keating, and distinguished Members 
of the subcommittee. Thank you for your invitation to address the 
subcommittee and for the opportunity to discuss the Department of 
Justice's work in the United States and in Mexico to combat drug cartel 
violence. Mr. Chairman, I followed with interest your last hearing on 
the Mexican war against the drug cartels. Your commitment to these 
issues--and these hearings--comes at a critical time for both Mexico 
and the United States. Just last month, Attorney General Holder 
participated in a U.S./Mexico High Level Meeting, hosted by Secretary 
Clinton at the State Department, where leaders from Mexico's Law 
Enforcement, Security, and Diplomatic agencies met with their U.S. 
counterparts to discuss the progress achieved under the Merida 
Initiative and to set out next steps and commitments for the joint work 
that lies ahead. The stakes are high for both countries. The safety and 
well-being of the public in Mexico and the United States depend on our 
joint work on investigations and prosecutions and advancing the rule of 
law. These efforts will help defeat the drug trafficking organizations 
that threaten the safety of all our citizens.
I. Mexican Drug Trafficking Organizations Remain a Critical Threat to 
        U.S. and Mexican Security
    This committee needs no reminding of the critical importance of 
Mexico to the security of the United States. The National Drug 
Intelligence Center's 2010 National Drug Threat Assessment indicates 
that Mexican Drug Trafficking Organizations (DTOs) ``continue to 
represent the single greatest drug trafficking threat to the United 
States.'' The influence of the Mexican DTOs is felt in every region of 
the United States and in at least 230 U.S. cities, up from about 50 
cities in 2006. Although historically the Colombian cartels posed the 
more significant threat, there is increasing evidence that as the 
United States and Colombian governments successfully dismantle the 
Colombian cartels, the Mexican cartels have become more powerful and 
active.
    In Mexico, in recent years, there has been a marked increase in 
violent crime, particularly as a result of desperate drug cartels 
battling for turf. Murder rates have risen significantly in some major 
cities located on or near the border. Kidnapping remains a serious 
threat in that country. Moreover, DTOs have engaged in increasingly 
brazen behavior within Mexico including: (a) The creation of 
unauthorized checkpoints where they have killed motorists who have not 
stopped; (b) the use of automatic weapons and grenades in 
confrontations with the Mexican army and police; and (c) the use of 
full or partial police or military uniforms and vehicles. The violence 
in Ciudad Juarez, just across the border from El Paso, Texas, makes it 
one of the most dangerous cities in the world, outside of a war zone. 
Large firefights have taken place in towns and cities in many parts of 
Mexico, often in broad daylight on streets and in public.
    The violence in Mexico has impacted U.S. citizens and U.S. 
Government employees who live, work, and travel in Mexico. Indeed, U.S. 
citizens and U.S. law enforcement officers have been the victims of 
violent crime in Mexico, including kidnapping and murder. In the wake 
of the deteriorating security situation in Mexico, the United States 
Government has curtailed the movement of U.S. Government personnel; 
prohibiting U.S. personnel from driving from the U.S.-Mexico border to 
the interior of Mexico or Central America; advising U.S. Embassy 
employees to defer travel to parts of the State of San Luis Potosi, 
including the entire stretch of Highway 57D; and prohibiting Embassy 
personnel from hailing taxis off the street in Mexico City because of 
frequent kidnappings and robberies. In September 2010, the U.S. 
Consulate in Monterrey became a partially unaccompanied post, with no 
minor dependents of U.S. Government employees permitted in response to 
changes in the security situation. The current State Department Travel 
Warning urges U.S. citizens to defer unnecessary travel to Michoacan 
and Tamaulipas, and to parts of Chihuahua, Sinaloa, Durango, and 
Coahuila, and advises U.S. citizens residing or traveling in those 
areas to exercise extreme caution.
    Of course, the impact on U.S. citizens and U.S. Government 
personnel is dwarfed by the tremendous and tragic violence experienced 
by Mexican civilians, law enforcement, journalists, and politicians who 
have suffered at the hands of the cartels. Although the vast majority 
of the victims of the violence are believed to be affiliated with the 
cartels, there are far too many innocent bystanders who are often 
tragically caught in the cross-fire. We have not seen a significant 
spike in crime on the U.S. side of the Southwest border, but the fact 
remains that the instability and violence in certain cities along the 
border such as Ciudad Juarez raise concerns about the safety and 
security of communities along both sides of the border as the cartels 
become more desperate to secure distribution routes into the United 
States.
II. The Department of Justice's Two-Pronged Strategy for Addressing 
        Drugs and Violence on the Southwest Border
    The dismantling and disabling of the Mexican DTOs is a priority for 
this administration. To target these DTOs, members of the Executive 
Branch are coordinating their efforts as never before. The prosecutors 
of the Criminal Division and the U.S. Attorneys' Offices work with all 
of the law enforcement agencies of the United States, including the 
Department of Justice's Drug Enforcement Administration, Federal Bureau 
of Investigation, U.S. Marshals Service, and the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives, and the Department of Homeland 
Security's Immigration and Customs Enforcement and Customs and Border 
Protection.
    Our strategy is two-pronged: First, to intensify our investigative 
and prosecutorial efforts through coordinated, intelligence-driven 
operations; and second, to strengthen the Mexican government's own 
capacity to dismantle the DTOs. Both aspects of this strategy are 
essential. Transnational organized crime knows no borders--and without 
strong, stable, and trustworthy foreign law enforcement partners, we 
cannot hope to defeat organized criminal groups.
            A. Prong One: Increasing and Intensifying Our Law 
                    Enforcement Efforts in the United States
    The first prong of the Department of Justice's strategy for 
addressing drugs and violence on the Southwest border is through our 
own investigative and prosecutorial efforts as detailed in our Strategy 
for Combating the Mexican Cartels, promulgated by the Attorney General 
on January 5, 2010. The Strategy uses intelligence to coordinate long-
term, extensive investigations to identify all the tentacles of a 
particular organization. Through the Special Operations Division (SOD), 
we are able to execute multi-jurisdictional enforcement actions, 
arresting as many high-level members of the organization as possible, 
disrupting and dismantling the domestic transportation and distribution 
cells of the organization, and seizing as many of the organization's 
assets as possible, whether those assets be in the form of bank 
accounts, real property, cash, drugs, or weapons. Finally, we prosecute 
the leaders of the cartels and their principal facilitators, locating, 
arresting, and extraditing them from abroad as necessary. In this 
effort, we coordinate closely with our Mexican counterparts to achieve 
the goal: Destruction or weakening of the drug cartels to the point 
that they no longer pose a viable threat to U.S. interests and can be 
dealt with by Mexican law enforcement in conjunction with a 
strengthened judicial system and an improved legal framework for 
fighting organized crime.
    This ``whole-of-government'' approach has led to a number of 
remarkable successes. Some recent examples of such SOD-coordinated 
investigations involving multiple Organized Crime Drug Enforcement Task 
Forces (OCDETF) and other task forces include:
  <bullet> Operation Bombardier.--Announced in 2011, this disruption 
        operation was a multi-agency coordinated response to the murder 
        of one U.S. agent and wounding of another by members of Los 
        Zetas Cartel. Operation Bombardier was a rapid response strike 
        targeting all Mexico DTOs including cartel members, associates, 
        infrastructure, and activity operating in the United States 
        regardless of specific cartel affiliation and resulted in 676 
        arrests;
  <bullet> Project Deliverance.--Announced in 2010, this 22-month 
        multi-agency investigation targeted all Mexican DTO 
        transportation and distribution infrastructure along the 
        Southwest border and elsewhere in the United States, resulting 
        in more than 2,200 arrests;
  <bullet> Project Coronado.--Announced in 2009, this 44-month multi-
        agency operation targeted the La Familia Michoacana Cartel's 
        distribution networks within the United States. It was the 
        largest ever undertaken against a Mexican drug cartel and 
        resulted in 1,186 arrests;
  <bullet> Operation Xcellerator.--Announced in 2009, this 21-month 
        multi-agency operation targeted the Sinaloa cartel and resulted 
        in the arrest of more than 750 individuals; and
  <bullet> Project Reckoning.--Announced in 2008, this 18-month multi-
        agency operation targeted the then-combined Gulf and Los Zetas 
        Cartels and resulted in 621 arrests.
Combined, these five Department of Justice-led SOD and OCDETF 
investigations over the past 3 years resulted in more than 5,500 
arrests and the seizure of more than $300,000,000 in U.S. Currency; 
260,000 pounds of marijuana; 36,000 kilograms of cocaine; 1,450 pounds 
of heroin; 6,500 pounds of methamphetamine; and 1,500 weapons.
    The Department is also committed to combating violent and organized 
crime through aggressive use of our asset forfeiture and anti-money 
laundering laws. The key to the vitality of drug trafficking and other 
criminal organizations is their continued access to enormous sums of 
money. Disrupting that flow of money is a top priority for the 
Department. Wherever possible and particularly in our multi-
jurisdictional investigations, U.S. Attorney's Offices and the Criminal 
Division are adding forfeiture counts to indictments, not as an 
afterthought, but as part of a deliberate and targeted strategy.
    As a measure of how seriously the Department takes this 
responsibility, the Asset Forfeiture and Money Laundering Section 
(AFMLS) of the Criminal Division has created a new Money Laundering and 
Bank Integrity Unit and a Mexican Drug Cartel Team devoted to 
investigating and prosecuting complex criminal cases involving 
financial institutions and the individual criminal facilitators who 
hide and obfuscate the financial flows that enable the cartels to 
operate. The Team will aggressively use all of the tools at their 
disposal to develop domestic and international forfeiture cases 
targeting the criminal proceeds and operating assets of the Mexican 
drug cartels, and all those who support their operations. To achieve 
this objective, the team is partnering with countries throughout the 
Central American region.
    Similarly, the Department is aggressively seeking the extradition 
of high-level traffickers to the United States. The Criminal Division's 
Office of International Affairs, working with the full collaboration of 
the Mexican government, and our embassies and foreign counterparts, has 
sought and secured the extradition of major Mexican traffickers to face 
criminal prosecution in the United States. In the past 2 years, we have 
secured the extradition from Mexico of over 200 drug traffickers and 
violent criminals, more than in any other 2-year period. Just last 
month, Mexico extradited Benjamin Arellano Felix, the former head of 
the Tijuana Cartel, to face racketeering and drug conspiracy charges 
resulting from a long-running OCDETF investigation in San Diego. And 
our work in Mexico has led to the apprehension and extradition of other 
high-value targets, such as Mario Villanueva Madrid, the former 
governor of the Mexican state of Quintana Roo charged with money 
laundering conspiracy, bribery, and narcotics conspiracy offenses for 
his support of the Juarez cartel; Vicente Zambada Niebla, son of Ismael 
Zambada Garcia, one of two Sinaloa cartel leaders; Oscar Arriola 
Marquez, designated as a Foreign Narcotics Kingpin under the Kingpin 
Designation Act, and CPOT (Consolidated Priority Organization Target) 
Oscar Nava Valencia, charged with drug conspiracy offenses in the 
Southern District of Texas. We hope to build and expand upon these 
successes in the coming year as we work more closely than ever with the 
Mexican Attorney General's Office and the Foreign Ministry in this 
critical area of cooperation. However, while extraditions are an 
important tool in our joint efforts against the cartels and the 
violence, we are also determined to assist our counterparts with long-
term measures to reform and strengthen institutions that the public can 
trust and in which they can have confidence.
            B. Prong Two: Increasing the Capacity of the Government of 
                    Mexico to Investigate and Prosecute Cases in Mexico
    We and our Mexican counterparts recognize that we cannot rely on 
criminal investigations and prosecutions in the United States alone if 
we are to defeat the DTOs. Instead, we must ensure that Mexico has the 
capacity to investigate and prosecute these and other criminals in 
legal systems that are transparent and efficient, and that are seen to 
be so by their populations. Mexico has committed itself to significant 
legal reforms to accomplish this goal, and we are strongly supporting 
the Mexican efforts.
    The Department of Justice's primary rule of law work is undertaken 
pursuant to the Merida Initiative, a multi-year program that aims to 
improve law enforcement capabilities to identify, disrupt, and 
dismantle transnational DTOs and organized criminal enterprises. With 
funding from the State Department and U.S. Agency for International 
Development (USAID), we currently have three senior Federal prosecutors 
stationed in Mexico City under the auspices of the Criminal Division's 
Office of Overseas Prosecutorial Development, Assistance, and Training 
to work on rule of law issues with their Mexican counterparts. Our rule 
of law work in Mexico runs the gamut from high-level advice on criminal 
code reform--as Mexico moves forward on its own decision to create a 
more adversarial system--to practical training on investigations and 
prosecutions. To assist the Mexican transition to the accusatory 
system, expert-to-expert exchanges, seminars, and workshops and 
training programs are underway. To date, working with U.S. Federal law 
enforcement agencies and the Department of State, the Justice 
Department has trained over 10,657 individuals at all levels and in the 
Executive and Judicial branches.
    We are also partnering with law enforcement agencies and 
prosecutors in Colombia, and have sent Mexican members of congress, 
prosecutors, and law enforcement officers to train in tandem with their 
U.S.-trained Colombian counterparts on code reform, strengthening 
internal affairs and corruption investigations, and creating effective 
witness protection programs.
    But our training and mentoring extends beyond the classroom to 
partnering on investigations and prosecutions. First, the DEA has 
provided counsel to several vetted units of highly trained 
investigators from the SSP, the Mexican Federal Police. These vetted 
units have achieved tremendous success, including the apprehension of 
significant leaders of the drug cartels such as Antonio Arcos-Martinez. 
This past year, the Criminal Division, working jointly with DEA, began 
training prosecutors of the PGR, the Mexican Attorney General's Office, 
to join the SSP investigators to work as part of a task force. As part 
of this project, Assistant U.S. Attorneys and Criminal Division 
prosecutors are mentoring and partnering with their Mexican 
counterparts as they begin to use the task force model. For the first 
time, we are seeing PGR prosecutors and SSP investigators truly sharing 
their expertise and intelligence.
    Additionally, as of December 2010, prosecutors and investigators 
from the Departments of Justice, Homeland Security, and Treasury are 
collaborating with our counterparts in the Mexican government to work 
on several money laundering cases together.
    Finally, our Southwest border U.S. Attorneys are forging 
relationships with their counterparts in the PGR so that they can more 
effectively share leads on cases and fight crime on both sides of the 
border. These essential relationships have resulted in the coordination 
of prosecutorial efforts and strategies to fight crimes along and on 
both sides of the border and better protect our own citizens.
III. A Meaningful and Robust Partnership With Congress is Crucial to 
        Our Success
    While we have made great strides against the Mexican drug cartels 
in recent years, we cannot achieve success without the support and 
input from Members of our Congress. There are several ways Congress has 
already, and can in the future, play a meaningful role in this fight.
            A. Investing in the Southwest Border
    First and foremost, we are grateful to Congress for its investment 
in our efforts along the Southwest border. The supplemental funding 
from last summer's Southwest Border Initiative, of which the Department 
received $196 million, has been crucial to our strategy along the 
border and in Mexico. Much of that money went to our law enforcement 
agencies to expand their successful investigative efforts, but we also 
invested a significant amount in shoring up our ability to prosecute 
the cartel members whose drug trade is the root cause of violence in 
that region. We hired more prosecutors, bolstered Mexican fugitive 
apprehension, enhanced capacity at the multi-agency SOD and OCDETF 
Fusion Center, and provided additional funding for OCDETF Strike Forces 
along the Southwest border. As a result, our five Southwest border 
districts have increased the overall number of felony prosecutions, 
particularly prosecutions of narcotics, firearms, and public corruption 
offenses.
    Within the Department's Criminal Division, we have explicitly 
dedicated a number of our resources to Mexico and the Southwest border. 
The supplemental funding allowed the Criminal Division to deploy 
another attache to Mexico City to work with AUSAs around the country to 
build cases against the cartels. In addition to AFMLS's new Mexican 
Drug Cartel Team discussed above, we created a new Mexico cartel unit 
in the Criminal Division's Narcotics and Dangerous Drug Section that is 
dedicated to the prosecution of these Mexican drug cartels. We also 
have added prosecutors in the Division's Organized Crime and Gang 
Sections to investigate and prosecute the gangs that do the bidding of 
the drug cartels, using statutes such as RICO. The recently announced 
indictment against 35 members of the Barrio Azteca international gang 
for violations of RICO, including the murders of a U.S. Consulate 
employee and two family members, is a direct result of Congress' 
investment. The Department is working through the administration to 
identify areas where additional tools and resources will strengthen our 
anti-money-laundering and forfeiture efforts. We would welcome the 
opportunity to work with Congress should we identify any such areas.
            B. A Sustained Commitment is Crucial
    Finally, we appreciate Congress' recognition that our efforts in 
Mexico must be consistent and sustained. It was over a period of 10 
years that Plan Colombia achieved the success we now see today. Plan 
Colombia was preceded by years of work by the U.S. Government. Our 
experience teaches us that we will not see quick fixes to a problem as 
complex as the Mexican drug cartels. But we are in this struggle for 
the long haul. And through a long-term, cooperative partnership with 
our neighbors in Mexico, we will weaken the influence of organized 
crime on Mexican society, thereby better protecting our citizens.
                               conclusion
    In sum, working with Mexico to fight the drug cartels and the 
violence associated with them both in our country and in Mexico is a 
top priority of the Department of Justice. I thank you for the 
opportunity to discuss our efforts, which make the citizens of both our 
countries safer, and we look forward to partnering with you to ensure 
that we are doing all we can to curtail the reach of these organized 
crime rings.
    I will be happy to answer any questions you may have.

    Mr. McCaul. Thank you, Ms. Pope.
    The Chairman now recognizes himself for questions.
    My first question is, I realize--first of all, let me 
commend both of you for a job well done in what you do every 
day. I realize there have been more resources put down on the 
border than probably ever before. Yet, the violence and the 
danger, in my view, it has never been more violent or 
dangerous.
    So, when the Secretary of Homeland Security says that the 
border has never been more secure, and the President just the 
other day in El Paso said that we strengthened border security 
beyond what many believe possible, do you agree with that 
assessment?
    Mr. Williams. I guess I will take a stab at that.
    Yes, I do agree with that assessment, Congressman. I 
believe the Secretary and the President are speaking to the 
violence that we see on this side of the border.
    While some of it can be attributed to drug dealing in our 
communities and drug trafficking, we are not seeing the level 
and the overall viciousness of violence that you see in 
Mexico--the beheadings, the, you know, constant shooting of 
police officers and military personnel. We are not seeing that 
on this side of the border.
    Mr. McCaul. In terms of spillover crime, though, you know, 
I demonstrated in the opening statement, you know they are 
here. The drug cartels are present in the United States.
    At what point do we have cartel-on-cartel violence in the 
United States like we are seeing in Mexico?
    Mr. Williams. That, I do not have exact stats or 
information on, you know, the violence that we are seeing 
between actual, identified cartel members versus other cartel 
members.
    There is--you know, with drug trafficking and drug 
dealing--there is violence as far as New York City, you know, 
dating back to the 1980s, dating back to when I was a DEA agent 
working undercover, working drug cases. So, drug trafficking 
has an inherent violent streak to it, because people are in 
competition against each other.
    But again, the level of violence that we see in Mexico is 
not being seen----
    Mr. McCaul. Let me follow up with Ms. Pope on that point, 
because, you know, the FBI Uniform Crime Report has been used 
to say that that violence is not here in the United States. 
Yet, that definition and the definitions used by the Southwest 
Border Task Force in September, in testimony from DEA, both 
these definitions they use exclude crimes such as home 
invasions, kidnappings, extortions, and trafficker-on-
trafficker violence.
    So, if you are excluding all these crimes, how can this be 
an accurate assessment of the violence present in the United 
States?
    Ms. Pope. It is true, Mr. Chairman, that the FBI UCR does 
exclude those particular crimes. But that does not mean that we 
are not very concerned about any amount of crime. One 
kidnapping is too many. One murder is too many.
    To the extent that there is drug trafficker-on-trafficker 
violence, we are investigating it and prosecuting it.
    I will tell you----
    Mr. McCaul. But does it not count if a cartel member kills 
another cartel member in the United States? That does not count 
as a violent crime?
    Ms. Pope. It does count as violent crime.
    Mr. McCaul. But it is excluded under the definition.
    Ms. Pope. I can tell you there is no Executive branch 
definition of spillover violence.
    Mr. McCaul. But the UCR--the FBI Uniform Crime Report--
excludes that. That is my point.
    I am just trying to get to the truth here. That is the 
purpose of this hearing.
    People are going to spin this thing politically both ways. 
But it seems to me, if you are going to record crime 
statistics, you ought to be recording the things that they do 
best.
    They kill each other. They kidnap, they extort. Yet, all 
that is removed from the definition of spillover violence.
    So, I do not think we are getting an accurate--just my 
opinion--I do not think we are getting an accurate assessment 
here.
    Ms. Pope. What I can tell you is that there are problems 
with the reporting of trafficker-on-trafficker violence, for 
the sole reason that if a person is already involved in drug 
trafficking violence, they are far less likely to go to the 
police. Or if it is an undocumented person, they are far less 
likely to report the crime.
    So, there may be kidnappings. There may be violent crime as 
a result of drug traffickers targeting someone who has upset 
them in some way. That information is not getting reported.
    But to the extent that----
    Mr. McCaul. Why shouldn't it? I mean, Ms. Hartley's husband 
was killed and murdered, and she is here today. That is not 
counted. That does not count under the FBI's definition.
    Ms. Pope. The FBI has multiple definitions of crime. For 
example, I know that the FBI tracks the amount of crime along 
the Southwest border through the HIDTA task forces. Those 
numbers are consistent that the crime is----
    Mr. McCaul. You know, all I am saying is, Congress, we have 
an oversight role. That is probably what we do best. I just 
want an accurate assessment of what is the level of crime.
    When you have a definition that excludes all these things 
that the cartel members do, I do not think that the American 
people are getting a clear picture of what the rate of violence 
really is.
    I would be very interested to get that kind of data, if 
that is possible. I am sure DOJ has that kind of data. I would 
be very much willing to work with you on that.
    On that, just a last point, and my time has expired, but 
you talked a lot about asset forfeiture.
    Ms. Pope. Yes.
    Mr. McCaul. I think that is great news.
    I think Mr. Cuellar and I have talked about enhancing the 
best team operations to confiscate the southbound flow to 
interdict that cash and guns going south. It is going to be one 
of the best ways to choke their lifeblood and to disarm them. I 
hope we can ramp up those efforts, as well.
    Finally, I do not know how much of this asset forfeiture 
money is actually going back into border security operations, 
but I would certainly like to see a large percentage--and the 
Ranking Member of the full committee, I think we could work 
together to make sure that as much of that money as possible 
goes back into, to pay for these border security operations.
    Ms. Pope. Thank you, Mr. Chairman. I think that is an 
important point that you are making.
    What I can tell you is, what we have learned about the 
illicit finances of the cartels is that it is not just that it 
is going across the border. They are concentrating large 
amounts of money through cities throughout the United States in 
places like Atlanta and Chicago.
    So, our goal is to find where that money is being collected 
and to target the people who handle the money long before it 
gets to the border and it is disbursed into smaller amounts and 
secreted into compartments.
    Once it gets to that point, our job is much harder----
    Mr. McCaul. Of course, if they are categorized as a foreign 
terrorist organization, you can seize their bank assets in the 
United States, as we did with the FARC in the 1990s, with that 
designation.
    Ms. Pope. We are also able to do that through the Kingpin 
Act.
    Mr. McCaul. That goes to the kingpin, the head, but not the 
body of the drug cartel.
    My time has expired, though, and I appreciate everybody's 
patience.
    With that, I yield to the Ranking Member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    By all accounts Mexico is our largest supplier of drugs. 
While the United States is the largest supplier of weapons in 
Mexico.
    Mr. Williams, in particular, it has been reported that the 
guns that are seized and that guns that were used, that 90 
percent of them come from the United States. What steps are 
being taken on the outward supply of U.S. guns used to 
facilitate drug-related violence in Mexico?
    I mean, given your experience in New York City, Boston, I 
noticed, I am curious as to what steps and how successful we 
are in trying to deal away with the really greatest supplier of 
drugs--I mean, of guns, rather--for Mexico? What are we doing 
in particular? No one from ATF is here, but I am just curious 
from your experience.
    Mr. Williams. Well, that is a very good question. I know 
that Customs and Border Protection, they have changed their 
focus. They still, obviously, focus on people coming into the 
country. But in light of money and weapons going out of the 
country and south into Mexico, there is greater emphasis placed 
on outbound or southbound flow.
    So, as I believe you mentioned in your opening statement, 
we are doing 100 percent rail inspections, utilizing special 
equipment to do that. Customs and Border Protection officers at 
the ports of entry now have outbound entry exit areas where 
they are doing more work.
    They do what we call ``pulse and surge.'' So, they will 
take an area and they will, in essence, check the pulse of that 
area for a couple of hours, maybe a couple of days, to see what 
their efforts are as far as outbound flow.
    If they get a lot of contraband going out, then they will 
do a surge to that area. If they do not see that kind of 
activity, then they will move to another area and do a pulse 
there to see what the outbound flow is like.
    I know that both Immigration and Customs Enforcement and 
ATF are working cooperatively together to take a look at the 
weapons flow from the United States into Mexico. But also, in 
concert with the Mexican government, they are also going to 
work closely with them to look at weapons flow into Mexico from 
their other border areas, from Central America, you know, 
north.
    Mr. Keating. I am curious, too. How successful are we, Ms. 
Pope, in terms of domestic prosecution for gun trafficking in 
the area? What is your experience for that?
    Ms. Pope. What I can tell you is that this Department of 
Justice has been more aggressive than ever before at targeting 
the flow of guns into Mexico. We are using every resource at 
our disposal. We are using wiretaps, we are using surveillance, 
we are using confidential informants to build a case.
    Our goal is not just to get the straw purchasers, the 
people who buy the guns legally. But our goal is to get to the 
heads of the organizations.
    So, we are building cases against the organization itself. 
That is our goal. That is what we are doing every day.
    I can also tell you that, in line with our strategy, we 
have our investigative efforts here in the United States. We 
also have what we are doing in Mexico. We are partnering with 
our Mexican counterparts as never before.
    Recently, Mexico has gotten access to something called 
Spanish e-Trace, which allows them to trace firearms that are 
originating in the United States, and share that information 
with law enforcement in the United States.
    Mexico just announced within the past 2 weeks that they are 
going to expand access of Spanish e-Trace to other law 
enforcement in Mexico, which is key to our ability to target 
where those guns are coming from.
    Mr. Keating. I just had one question, too. You mentioned 
that we are able to track gun purchasing--often legal gun 
purchasing--in the United States. That has been helpful to do, 
because we had a vote in the House earlier in this session that 
did away with the reporting of multiple gun purchasing.
    Now, that kind of change, should it be implemented, 
wouldn't that hurt our ability to go and track the guns, see 
where the legal purchases come from?
    I was concerned, particularly on border issues, that if 
there is that change in the law, so we are not doing--
contacting Justice, telling them about these multiple 
purchasing effort--and if that is done away with, wouldn't that 
hurt?
    Ms. Pope. From a law enforcement point of view, it is 
important for us to know where the guns are coming from. I can 
tell you, in past investigations, that we have seen certain 
dealers with very, very high numbers of guns that end up later 
in Mexico. That is a tip to law enforcement to look at what is 
happening in----
    Mr. Keating. So, you would be hurt if that change occurred 
where multiple gun purchases were not reported to Justice.
    Ms. Pope. We prefer to have more access to information 
wherever possible.
    Mr. Keating. Thank you.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the gentleman from Missouri, 
Mr. Long.
    Mr. Long. Thank you. Thank you, Mr. Chairman.
    Mr. Williams, in January of this year, Secretary Napolitano 
stated that any incursion of drug war violence in the United 
States would face overwhelming response. Is DHS and its 
components prepared to assist in providing such a response?
    Mr. Williams. Yes, we are. We have a few operational plans 
with Customs and Border Protection in the event something like 
that was to happen.
    But quite frankly, I would rather, you know, talk off-line 
with you about the actual plans, or get personnel from CBP. But 
we do have plans that we have set up.
    Mr. Long. Okay. That probably takes out my second part of 
that question, then. I will talk to you after this.
    Ms. Pope, how have you been able to overcome any pre-
existing turf battles to coordinate our efforts?
    Ms. Pope. I can tell you that the agencies of the Federal 
Government are working together as never before. We are working 
together through interagency groups here in Washington.
    We are working together through EPIC at the border. We are 
coordinating our law enforcement efforts. We are aware of what 
DHS is doing in terms of strategy. We are, on our side of the 
issue, trying to engage in complementary efforts.
    For example, DHS plays an important role at intercepting 
drugs, guns, money. But you have to have prosecutors on the 
other side to bring those cases and to prosecute the 
defendants. We are working together to make sure that we are 
all walking in lockstep to focus on drug cartel violence.
    Mr. Long. Okay. What was that tracing program? What did you 
call that?
    Ms. Pope. It is called e-Trace. It is called Spanish----
    Mr. Long. Called what?
    Ms. Pope [continuing]. E-Trace.
    Mr. Long. I thought you said Spanish something.
    Ms. Pope. Spanish e-Trace. So, we have made e-Trace 
available in Spanish to the Mexican government, so that they, 
too, as they find firearms, can trace them back to their 
source.
    Mr. Long. But that is strictly from the United States.
    Ms. Pope. Right.
    Mr. Long. Okay.
    Mr. Chairman, I yield back.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson, for 5 minutes.
    Mr. Thompson. Thank you very much. I would like to 
associate myself to the line of questioning the Ranking Member 
of the subcommittee raised with respect to guns.
    I am an avid outdoorsman. I hunt all the time. Fact about 
it, I helped defeat the Republican Members of the House 
yesterday in the Sportsman Caucus.
    [Laughter.]
    Mr. Thompson. But I think the point I am trying to make is, 
all the guns I own are legal. I buy them through the normal 
channels prescribed by law.
    Now, as I understand it, owning a gun in Mexico is illegal. 
Am I correct?
    This is to Ms. Pope. I am sorry.
    Ms. Pope. Yes, sir.
    Mr. Thompson. So, if 90 percent of those guns that we have 
identified with some aspect of violence in Mexico, we have 
traced back to their point of origin in the United States, I 
think it would be a reasonable assumption that we need to close 
that loophole.
    Has Justice looked at how we close that loophole?
    Ms. Pope. What the Department of Justice has done is focus 
on the illegal transfer of guns. That is where we have made 
real efforts.
    So, for example, increasing the sentences for straw 
purchasers, who may legally buy a gun, but then illegally 
transfer it with the intention for it to go down into Mexico--
that is where our efforts are focused.
    Mr. Thompson. So, how successful are you with that?
    Ms. Pope. Frankly, we need to have tough penalties to focus 
on people who are illegally reselling guns, because our goal is 
not ultimately just get the person sells illegally. We want to 
get to the head of the trafficking organization. That is 
where----
    Mr. Thompson. So, what other legislation or penalties do 
you need?
    Ms. Pope. I would be happy to get back to you and as we 
work through it within the Department of Justice to figure out 
ways that we can partner to stop the illegal transfer of guns 
into Mexico.
    Mr. Thompson. So, do we need to talk to somebody else? Are 
you the person? I am just--are you the person?
    Ms. Pope. The Department of Justice does not have any 
particular, clear legislative proposals on how to stop the 
trafficking--legislative proposals on arms trafficking. But we 
would certainly be interested in talking to you about how to do 
that.
    Mr. Thompson. Okay. Thank you.
    Mr. Williams, according to your testimony, $600 million 
that the Department received in supplemental monies allowed the 
Department to add technology, manpower, and infrastructure. If 
under H.R. 1, if that money is not available to the Department, 
what impact would it have on border security efforts?
    Mr. Williams. I believe it would have a great impact. I 
believe that the plans that we have in place to utilize more 
technology, to utilize the 1,200 National Guardsmen that we 
have on post today, would be affected by that.
    Mr. Thompson. So, your testimony is, rather than having 
less resources to fight crime and violence along the border, we 
should have more resources.
    Mr. Williams. It would be my testimony that the resources 
given to us should be utilized to fight that crime and 
violence, that, you know, a reduction would affect us. Of 
course, you know, in law enforcement we always have a history 
of doing more with less, and we would continue the fight no 
matter what.
    Mr. Thompson. Ms. Pope, explain to the committee how DOJ 
fights the drug trafficking organizations with respect to their 
financial operations. What do you do?
    Ms. Pope. There are a number of ways. First, wherever 
possible, we are bringing forfeiture counts so that we could 
forfeit the assets of the drug cartel operations.
    At one point, forfeiture was seen more as an afterthought 
to a drug conspiracy charge. Now we are leading with forfeiture 
charges wherever possible.
    Second, the Criminal Division, with the money that Congress 
invested in the Southwest border, has now set up a Mexico 
cartel team in our Asset Forfeiture Section. The sole purpose 
of that team is to target the finances of the cartels through 
our investigative efforts here, through bringing cases here 
against individuals and against banks, and through working with 
our partners in Mexico, so that they can get the information, 
share the information, bring the cases in Mexico and with our 
other partners in Central America.
    Mr. Thompson. Thank you. Can you provide the committee with 
the statistics on the asset forfeiture program so far?
    Ms. Pope. Yes, absolutely.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. McCaul. Thank you.
    Let me just clarify. If, say, a gun dealer provides a 
weapon to a--provides material support to a terrorist, that 
would have an enhancement on top of the underlying offense, 
correct, a 15-year enhancement?
    Ms. Pope. The material support provision, yes, if a gun 
dealer were convicted of providing material support.
    Mr. McCaul. So, if they were designated as foreign 
terrorist organizations, that would have a 15-year enhancement 
on top of the underlying weapons trafficking offense.
    Ms. Pope. The problem in these cases, as I am sure you are 
aware, is that we need to prove that the gun dealer was 
providing support. That is the problem with our law now.
    But, yes, if we can make that connection, if we can prove 
that the gun dealer knew that he was providing material 
support, the answer is yes.
    Mr. McCaul. We could seize their bank assets, and we could 
deport them, even if they are here illegally.
    With that, I recognize the gentleman from South Carolina, 
Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    I just want to commend the Chairman--the gentleman from 
Mississippi--for shooting well yesterday. I enjoyed shooting 
with you.
    Like you, I am an avid shooter. I own a number of firearms. 
I saw you bust a lot of clays yesterday, but I would almost be 
willing to guarantee that none of his guns and none of my guns 
have ever, ever killed another person.
    So, I think that we need to be cognizant that it is not the 
firearm that kills. It is the person behind the firearm.
    Gun purchases in the United States that make their way into 
Mexico point clearly that we do have a porous southern border, 
that humans and weapons travel both ways, back and forth. I 
think we have got to get back to focus on our border.
    I notice in the Chairman's opening remarks he talked about 
the gun cache that was found in Mexico, and the number of 
weapons that were there. I remember hearing anti-tank weapons 
and anti-aircraft weapons and grenades, and a number of other 
things, as well as fully automatic AK-47s, that you cannot buy 
legally in the United States.
    Those weapons are coming from somewhere. It is doubtful 
they are coming from Texas. It is doubtful they are coming from 
Arizona. It is doubtful they are coming from South Carolina, 
because they are illegal to purchase in this country.
    They are coming from somewhere. I think we need to know 
that.
    On March 31, this committee held a hearing on the U.S. 
Homeland Security role in the Mexican war against drug cartels, 
and I listed a plethora of examples that cited evidence of the 
terrorist organization Hezbollah's influence on the Southern 
border.
    I asked the panelists then if a possible relationship 
between Hezbollah and the Mexican drug cartels merited any 
further investigation. I received no response, no 
acknowledgment of the problem, no plan to investigate the 
situation further and no strategy to protect the safety and 
security of our country.
    Since that time, the ``San Diego News'' reported on May 4 
that Hezbollah is blending into Shia Muslim communities in 
Mexico, including Tijuana, and cited testimony from a former 
U.S. intelligence agent that Hezbollah is partnering with drug 
organizations.
    The article stated that Hezbollah has been setting up shop 
in Mexico for 15 to 20 years. On May 9, Reuters reported the 
U.S. Border Patrol agents found a sophisticated tunnel fitted 
with lights, water pumps, ventilation systems running 250 feet 
from an abandoned building in Nogales, Mexico, to Nogales, 
Arizona, at a depth of 15 feet.
    One of my staffers went and looked at one in the San Diego 
area that was 25 feet deep, very sophisticated.
    We know that Hezbollah is a master of tunneling, and the 
Washington Times reported on March 31 that the Israeli military 
has released a map of nearly 1,000 underground bunkers, weapons 
storage facilities, and monitoring sites built by Hezbollah.
    So, it is very clear that we do have a terrorist 
organization, a known terrorist organization, Mr. Chairman, not 
one that we would like to identify as a terrorist organization 
with the drug cartels operating in Mexico.
    It concerns me. It concerns the folks back home.
    So, Mr. Williams and Ms. Pope, are you aware of this 
problem?
    Ms. Pope. Mr. Duncan, I cannot say that I am aware of the 
influence of Hezbollah in particular. What I can say is that we 
are very cognizant of the need to protect our Southwest border, 
because of the kinds of threats that you are identifying.
    It is for that reason that we have so many agents who are 
working on the border. It is for that reason that the FBI has 
now stood up eight hybrid task forces on the Southwest border 
and why they are so focused on border corruption.
    We must secure our border, for all of the reasons that you 
have put forward. That is a top priority for this 
administration.
    Mr. Duncan. Mr. Williams.
    Mr. Williams. Yes, Mr. Duncan. The links between drug 
trafficking and terrorism is something that I have been talking 
about for several years, you know, since I was with DEA, and 
now at Homeland Security. We keep our eyes and ears open for 
that.
    I know that through the investigator side of the house--
i.e., ICE, DEA, the FBI--they look at that. There is a 
counternarcotics terrorism center, or section, at SOD, that has 
been stood up to take a look at when investigations identify 
these links between a drug trafficking organization and a 
terrorist organization.
    So, through investigations, they look to exploit that and 
develop evidence to bring that to prosecution.
    Mr. Duncan. With those links that you talked about, would 
you support the Chairman's efforts to name the drug cartel, add 
them to the list of terrorist organizations in this country?
    Mr. Williams. I think that there are enough laws in place 
to deal with drug trafficking. I mean, I can tell you right 
now, as I sit here today, there is an individual who I bought a 
kilo of cocaine from back in 1989. He is still in jail under a 
40-year sentence for a continuing criminal enterprise.
    So, from my perspective as a former Federal agent, I 
believe that we have enough laws in place to deal with these 
organizations. They are different from your regular terrorist 
organizations such as the FARC. The FARC----
    Mr. Duncan. I am out of time. I would like to get Ms. Pope 
on the record whether you support the Chairman's definition of 
naming the cartel as a terrorist.
    Ms. Pope. Frankly, Mr. Duncan, I am not sure that we need 
it. Because, as Mr. Williams has said, we have very, very 
powerful penalties here in the United States.
    The problem is extradition. If cartel members can flee 
across the border into Mexico and escape U.S. prosecution, then 
having another crime won't make a difference.
    We need to be able to extradite those people here to the 
United States, so that they can face justice, and they can face 
the tough penalties that we now have here.
    Mr. McCaul. I am sure if we extradite the killers of Agent 
Jaime Zapata here in the United States.
    But with that, I recognize the gentlelady from New York, 
Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman.
    I wanted to ask my questions of Mr. Williams.
    Mr. Williams, currently, the Department of Defense is 
funding the full cost of the National Guard deployment on the 
border.
    Is the Department expected to reimburse the Department of 
Defense for its portion of the expenses? Is the Department able 
to do so? If not, what actions must Congress take so that the 
Department can pay its share?
    Then, can you just discuss briefly, Operation Stonegarden--
its costs, benefits and any results achieved as a result of 
this program?
    Mr. Williams. Well, I would have to get back to you on the 
questions about reimbursement to the Department of Defense for 
use of National Guard personnel. I did not actually take part 
in setting that up. So, I would be glad to get back----
    Ms. Clarke. Fair enough. Fair enough.
    Mr. Williams [continuing]. To your office on that.
    As far as Operation Stonegarden, that is a grant program 
handled by FEMA for, on behalf of the Department of Homeland 
Security. It is for, obviously, you know, for equipment 
purchases by State and local law enforcement along the 
Southwest border.
    I believe, from everything I am hearing, that it is moving 
along appropriately. The funding is adequate.
    Ms. Clarke. You find it beneficial.
    Mr. Williams. Absolutely.
    Ms. Clarke. Okay.
    The National Southwest Border Counternarcotics Strategy of 
2011 report to Congress is due next month. What is the status 
of the report? Should the committee expect it to be submitted 
on time?
    Mr. Williams. Yes. I believe the committee should expect it 
to be submitted on time. That is under the purview of the White 
House Office of National Drug Control Policy. I believe all the 
edits are in, and they are just going through the clearance 
process right now.
    Ms. Clarke. Okay. Thank you very much.
    Ms. Pope, in 2009, President Obama named several different 
Mexican DTOs as suitable for prosecution under the Foreign 
Narcotics Kingpin Designation Act.
    Has DOJ been successful with prosecuting Mexican DTOs under 
this framework? Does this act provide the necessary resources 
to successfully prosecute Mexican DTOs?
    Then, secondly, a significant pillar of the Merida 
Initiative is to support judicial reform in Mexico.
    How does the Department of Justice work with its Mexican 
counterparts to improve Mexico's judiciary and system of 
justice?
    Ms. Pope. Let me take your second question first. With 
respect to the judicial reform work that we are doing in 
Mexico, it is tremendous. We have AUSAs from all around the 
country, we have agents from all around the country, who are 
going down to Mexico, who are working, not just training, but 
building relationships with our Mexican counterparts.
    The goal is that we have relationships so that, when there 
is information, information is being shared, so that we can 
naturally end up working together.
    As I said, we have trained over 10,000 members of the 
Mexican government to-date. We are partnering with them. We 
have AUSAs who are mentoring members of the PGR.
    We just had a group of Mexican legislators go to meet their 
legislative counterparts in Colombia, to talk about what 
Colombia has done to overcome drug cartel violence. We are 
facilitating that relationship in particular, because we think 
that there are a lot of commonalities between those countries, 
and they can learn from one another.
    So, I would say that the work we are doing there is really 
unprecedented. The members of our Department who are down there 
are working tirelessly around the clock, so that Mexico can 
tackle this problem in Mexico.
    With respect to the Kingpin Act, I will tell you about that 
act. There have been fairly few prosecutions under the act 
itself. The major reason is that we have other tools that we 
have been able to use to bring the cases that get to the same 
penalties.
    There are no separate sentencing guidelines for the Kingpin 
Act. So, because of that, a court is most likely to apply the 
same sentences as someone who was convicted of money 
laundering. So, tough sentences under the Kingpin Act would 
make the difference.
    Ms. Clarke. Then, just finally, you know, I come from an 
urban environment in Brooklyn, New York. As I hear this 
discussion about at what point we sort of designate the gun 
trafficking, the drug trafficking as a part of a terrorist 
organization, I can see how it becomes a bit challenging. 
Because once it hits major urban cities, and you have local 
domestic type of gang activities that end up taking lives and 
distributing drugs, where do you draw that distinction?
    I'm wondering if you could just share a bit about that, 
because the same guns are manufactured in the United States 
that end up illegally in the hands of domestic gangs. Where do 
you draw the distinction?
    Mr. Williams. Well, coming from Harlem, and having attended 
Brooklyn Technical High School in Brooklyn, I understand the 
urban environment. I think, if I hear what you are saying, it 
would be--you know, do we call gangs on the streets of Bedford-
Stuyvesant terrorists, because they engage in rival gun 
battles? I think that is what you are talking about.
    So, again, my feeling is that the laws that are on the 
books, the Federal laws--and we have taken street gangs 
Federally, and they have gotten significant jail time. Again, 
I----
    Mr. McCaul. I hate to interrupt, but we have a second panel 
of witnesses that we need to hear from, came all the way from 
the border States that deal with this kind of thing every day. 
I want to hear from them pretty soon.
    But we have a lot of Members that want to ask questions. I 
am going to keep everybody to the 5-minute rule, as much as I 
can.
    With that, I recognize the gentleman from Texas, Mr. 
Canseco.
    Mr. Canseco. Mr. Chairman, Mr. McCaul, and Ranking Member 
Keating, I appreciate very much the opportunity to come before 
this panel and ask questions of your panel. So, thank you very 
much.
    Ms. Pope and Mr. Williams, I am from a district in Texas 
that represents 780 miles of Texas-Mexico border. We have 
problems along that border.
    I am hearing it from my constituents, from ranches, from 
ranch owners, from schools, school districts, where, for a 
number of years now, there has been an infiltration by drug 
gangs into the school district, by home invasions, automobile 
thefts. The list goes on and on, and bullets flying over the 
river in El Paso, into El Paso, and threatening people there.
    There is a very serious concern about this spillover 
violence.
    When I hear Ms. Napolitano say that the border is better 
now than it ever has been, I really wonder where that is coming 
from, because many of my constituents are not.
    Now, let me start out by telling you that, first of all, I 
am in the process of finalizing a piece of legislation that 
will define cross-border spillover violence. It will instruct 
the Department of Homeland Security to measure and track the 
level of spillover violence and require the Department of 
Homeland Security to regularly report to Congress on the levels 
of spillover violence occurring along our border.
    Because I believe that accurately defining and measuring 
crossover violence will allow our local and Federal law 
enforcement officials to better execute their mission of 
keeping the United States and its citizens, especially along 
the border and into the interior of the United States, more 
secure.
    So, help me out a bit, please.
    Mr. Williams, what is your definition of--and your 
Department's definition--of spillover violence?
    Mr. Williams. Well, I know that we look at the deliberate 
plan of a cartel to attack U.S. assets or innocent civilians, 
or military and law enforcement personnel, public or private 
buildings.
    I know that there is violence in all of our communities 
throughout the United States.
    The question is: How do we find out or attribute that to 
specific drug cartels or to the drug cartels in Mexico? How do 
we link that violence?
    I would submit to you that there are gangs and, you know, 
thugs at work in our communities every day. There are thugs in 
Brooklyn, New York, just like there are thugs down on the 
Southwest border.
    Mr. Canseco. Well, let me interrupt a bit here. Let me ask 
you specifically, would you consider it being spillover 
violence if we had drug cartels whose family, friends and 
immediate family, and even themselves, have residences here in 
the United States?
    Mr. Williams. If now you are saying they live here as----
    Mr. Canseco. If that were to be the case.
    Mr. Williams. Well, I do not have any information regarding 
that. I do not know if I would consider it spillover violence. 
It depends upon what type of violence you are talking about. I 
mean----
    Mr. Canseco. What if they intimidated neighbors? What if 
they have violence among themselves? Would that be spillover 
violence?
    Mr. Williams. Well, let me just say this. It has been my 
experience that, if you had such, you know, family members of 
cartel members living here in the United States, they would 
like to probably stay under the radar screen, because if there 
is one thing that I know that these cartels, when they come to 
America, they like to stay under the radar screen, because they 
are afraid of U.S. law enforcement.
    Mr. Canseco. Would it be advisable for the Department to 
find out how many of those cartel people have families and 
themselves in this country?
    Mr. Williams. I can tell you categorically that my 
Department and the Department of Justice are trying to find 
that out through all the joint investigations that they do.
    Mr. Canseco. Thank you.
    With the limitation of time, and I am a guest here, I go to 
Ms. Pope. Would you please answer that same question?
    Ms. Pope. The Department of Justice does not have one 
definition of spillover violence. But the bottom line is that 
any violence is something that we are taking seriously. Any 
violence is too much. One kidnapping is too much. One home 
invasion is too much.
    So, we are putting unprecedented resources on the border, 
because we believe that we must stem any violence, and 
particularly as it relates to the Mexican drug cartels.
    Mr. Canseco. Would you think that it is prudent for your 
Department or Homeland Security or that the Government find out 
who is residing in the United States that is a member of that 
cartel, and who is related to that cartel in one way or the 
other?
    Ms. Pope. Absolutely. I can tell you that one of our 
priorities is to identify not just family members of cartels, 
but the facilitators.
    Who is helping to launder the money? Who is helping to get 
the guns and the drugs? Those are all investigative priorities.
    Mr. Canseco. Thank you very much, Mr. Chairman. Thank you 
for your hospitality in having me.
    Mr. McCaul. It is good to have you here. It is almost 
11:30. We have a second panel that has traveled very far to 
testify here today. I hope the Members will take that into 
consideration.
    With that, I recognize the gentleman from Illinois, Mr. 
Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Thank both of you, Mr. Williams and Ms. Pope.
    It seems to me that the cartels are seriously coordinated 
on both sides of the border. Their operations appear to be 
pretty seamless. That is, they just kind of connect up, so 
there is a tremendous amount of communication, interaction, and 
cooperative work between them.
    How much interaction or coordination is there between law 
enforcement on both sides of the border? Meaning, how do we 
work with the authorities in Mexico, and they work with the 
authorities on our side?
    Mr. Williams. Well, I will take a stab at that.
    I have been to Mexico City twice and spoken with 
representatives of the PGR and the SSP. They are extremely 
complimentary of the assistance and the help that they received 
from the United States Government--not just specifically DHS or 
DOJ, but every facet of the U.S. Government, you know, State 
Department and everything.
    We work very, very closely with our Mexican partners. As a 
matter of fact, I believe there are two border enforcement 
security teams that actually have Mexican law enforcement 
officials on them. There are Mexican law enforcement officials 
at the El Paso intelligence center working with us.
    So, we coordinate all these operations and work with our 
partners in Mexico. If there is information we can pass to them 
for them to take action on, we do it. If there is information 
they can pass to us to take action on, they do that with us.
    Mr. Davis. Ms. Pope.
    Ms. Pope. Mr. Davis, there is an incredible amount of 
cooperation going on between U.S. law enforcement and Mexican 
law enforcement.
    Much of this is due to the tremendous leadership of 
President Calderon. He has recently appointed a--the new 
attorney general has recently been confirmed, her name is 
Marisela Morales--has been an incredible partner with the 
United States.
    Just one example to share with you, DEA has a series of 
vetted units where they vetted members of the Mexican federal 
police and members of the Mexican attorney general's office. 
Those vetted units are working hand-in-hand.
    We have mentors from our U.S. attorneys' offices working. 
They have, you know, telephone connections on a daily basis, 
weekly basis, communicating information, sharing strategies, 
helping and working with our partners there.
    Mr. Davis. You do not have to answer this question, but it 
would just appear to me that the trust levels are so important, 
and that unless the trust levels are such between both entities 
that it becomes a bit difficult to have the same level of 
security and assurance as perhaps the cartels have in terms of 
their trust levels with each other.
    You do not have to answer or respond to that. But it just 
seems to me that that is part of the problem.
    I do not have any other questions, Mr. Chairman, so I yield 
back.
    Mr. McCaul. The Chairman now recognizes Mr. Cuellar from 
Texas.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Thank you to the Ranking Member.
    Mr. Chairman, I ask for unanimous consent from you to 
distribute graphs to the Members dealing with the crime rate in 
border and other areas. I think we are going to have that in 
the charts also.
    Mr. McCaul. Without objection, so ordered.
    Mr. Cuellar. Thank you, Mr. Chairman.
    First of all, I want to thank both Mr. Williams and Ms. 
Pope for the work that they do, and all the men and women that 
work with you. We really appreciate it.
    Also, my good friend, Steve McCraw, thank you for 
everything you do at DPS. As you know, my brother is a sheriff, 
a border sheriff, and he got trained with DPS. Thank you for 
all the great work that you have provided. Thank the Governor 
also.
    Sigi Gonzalez, one of my constituents, also is a sheriff. 
Thank you very, very much for being here. Chief Victor 
Rodriguez, another constituent of mine from McAllen.
    Thank you for allowing all my constituents to be here 
today.
    Of course, to the attorney general also, thank you very 
much for being here with us.
    Mr. Chairman, first of all, the only thing I would ask is, 
you know, I am with you, I have worked with you on many issues 
before. The only thing I ask, that we do not confuse what 
happens in Mexico and what is happening in the United States.
    In fact, I just got an e-mail from my Laredo folks, border 
business people, who are worried about this type of hearing. We 
have got to be measured on how we provide border security 
without creating hysteria about the work that, you know, there, 
because it does affect our border businesses down there.
    The only thing I do ask, for example, I met with the Zapata 
family, the mom, the dad, the brothers. Today they send me the 
best. Thank you, Mr. Chairman. They asked me to personally 
thank you for all the work.
    Agent Zapata was killed in Mexico. Tiffany Hartley, who is 
also present here, also--we have got to also keep in mind that 
her husband got killed, I believe it was 2\1/2\ miles inside 
Mexican territory, and not in the United States. So, we have 
got to be careful that we do not use that to say this happened 
on the U.S. side.
    Let me give you a couple of rankings a little bit, and ask 
you to just take a look at it. Murders, this is 2010 crime 
ranking. I would ask you to look at El Paso. This is, again, 
murders per 100,000 population.
    El Paso has the lowest, 1.9 murders per 100,000. 
Brownsville has 2.2; Yuma has 2.2 per 100,000; McAllen, three 
per 100,000; San Diego, 3.1; Laredo, 7.1. Chicago has 16.1 per 
100,000; Philadelphia, 19.5; Memphis, 19.8; Washington, DC, has 
23.8. Baltimore has 37.3 per 100,000. Detroit has 40.2 murders 
per 100,000.
    So, again, the figures show that we are looking at the 
border areas, at least the murder rates are lower there, 
regardless of how we come up with a definition.
    I would ask you also to look at the next chart also, Mr. 
Chairman, Members. These are cities, 400 cities ranked per 
rates of crime. This includes murder, rape, robbery, aggravated 
assault, other ones.
    You see the lowest, Brownsville, at 97, ranked out of 497; 
McAllen, 110; El Paso, 126; San Diego, 180; Yuma, 197; your 
home town, 198, which means it is higher. Then you have 
Houston, which is also part of the area that is represented by 
some of the Members.
    Again, it shows that the lowest rankings are on the border 
area itself, also.
    I have got other rankings also, Mr. Chairman. I do not have 
time to go into this.
    The only thing I ask as we approach that, that we do this 
in a measured way. I am with you. I support what we are doing 
with Plan Merida as part of what Homeland, the Department of 
Justice are doing. We have just got to do it in a measured way, 
because it does affect us.
    My family lives in Laredo. I represent Laredo. Just like 
Mr. Canseco, who is originally from Laredo and now represents 
San Antonio also, our families are there.
    Right now, I think the border folks--State, Federal, 
local--are doing a great job. I am just asking that we do this 
in a measured way without crying that, you know, the sky is 
falling. I would just ask that we just work on this. I really 
want to thank our State, Federal, and local folks.
    I would ask only the Federal folks, because I have about 27 
seconds left, I would only ask that you work with DPS, work 
with the local sheriffs and the police, because they are a 
great source. I know you are doing that. But I would ask you to 
just continue working with them.
    Mr. Chairman, I have no questions. I just wanted to do a 
commentary today. Again, I look forward to continue working 
with you. Heading off to Mexico very soon to talk to the 
president.
    Mr. McCaul. Let me say, I appreciate your concerns on that 
issue. All I want is the truth, because if we are excluding 
extortions, kidnappings, and cartel-on-cartel violence, or 
trafficking-on-trafficking violence, I do not think we are 
getting, you know, an accurate picture here. The stats are not 
being honest.
    I am not doing this for any other reason than to try to get 
to the truth as to what is really happening.
    Who is to say, in Austin or in Houston, the numbers you 
showed? I do not know how much of that, what the cartel-on-
cartel violence is. I would have to say, it is probably pretty 
big.
    Mr. Cuellar. Mr. Chairman, if I could----
    Mr. McCaul. Defining the definition.
    Mr. Cuellar. Yes, and I am not--you noted, but I consider 
you my best friend here in Congress.
    Mr. McCaul. You are on record saying that.
    Mr. Cuellar. Yes, I am on record, a Democrat saying that to 
a Republican, my best friend here.
    The only thing is, I am just trying to put a little 
caution, that we put a little measured----
    Mr. McCaul. Sure.
    Mr. Cuellar [continuing]. On how we do it, because we can 
go to the extreme left and right. I am just saying----
    Mr. McCaul. Yes.
    Mr. Cuellar [continuing]. Let us do it measured. I am not 
questioning your motives, Mr. Chairman. You are my best buddy. 
But I just want to just put that out for the committee.
    Mr. McCaul. Thanks for saying that twice.
    But in my----
    Mr. Cuellar. Make it three times. Best buddy.
    [Laughter.]
    Mr. McCaul. You know, my intent is to help Mexico. As I 
said in my opening statement, that is the intent I have behind 
this.
    But I do think we have to have an accurate picture of what 
is happening on both sides. So, with that, I yield to my good 
friend, Mr. Green, from Texas.
    Mr. Green. Thank you, Mr. Chairman. Please note, Mr. 
Chairman, that he said best friend in Congress.
    [Laughter.]
    Mr. Green. Thank you, Mr. Chairman. I thank the Ranking 
Member for the privilege to be a part of this august body. I am 
honored that you would allow me to be an interloper, and to 
also have the opportunity to pose some questions.
    It has been my experience that persons who work with the 
Department of Justice and Homeland Security, generally 
speaking, are persons who do not work based upon a political 
philosophy. You do not get too caught up into some of the 
things that we, on this side, get caught up in.
    Usually, your career people. As such, you tend to pass 
through various administrations.
    But, Mr. Williams, how long have you been in law 
enforcement?
    Mr. Williams. I did 7 years with the Yale University Police 
Department, and then I did 23 years with the Drug Enforcement 
Administration as a special agent.
    Mr. Green. Do you consider yourself a person who is trying 
to make a career of this?
    Mr. Williams. Yes.
    [Laughter.]
    Mr. Green. Ms. Pope, how long, please?
    Ms. Pope. Oh, I have been with the Department of Justice in 
some capacity for 9 years.
    Mr. Green. Are you a person who seeks to make this a 
career?
    Ms. Pope. This has been my career. I have worked only in 
the public service.
    Mr. Green. Let me commend both of you, and all of the 
persons who support you, because too often, I think the 
appearance is given that you may have a political bias. It has 
been my experience that the people who work in these 
departments really do their best to try to enforce the law and 
make sure that the American people are protected.
    I thank you for what you do.
    Let us talk very briefly about two things. One, the 
empirical evidence--the empirical evidence associated with how 
the guns actually leave the United States and get to Mexico.
    What does the empirical evidence reveal in terms of how it 
occurs? We use esoteric terms like gun shows, and we talk about 
how they are legally purchased, and somehow they get to Mexico. 
But we do not actually trace it and give the chain of events.
    Can you start with the lawful sale of a weapon, and then 
give us the empirical evidence that you have gathered that 
shows how it actually gets into the hands of some cartel member 
in Mexico?
    Ms. Pope. The evidence that we have seen today--and before 
I answer the question, I want to thank you for your 
acknowledgment, not just of our service, but of all of the men 
and women who are working within the Government, State, and 
local. I know there are many people who work tirelessly on an 
issue that really is bipartisan. I am grateful for your 
support.
    On the question of how guns get into Mexico, what we have 
seen so far is that a person who is legally qualified to 
purchase a gun will do so. That----
    Mr. Green. But where would that purchase take place, 
usually?
    Ms. Pope. It frankly takes place at a number of different 
places. It can take place from a licensed firearms dealer. It 
can take place at gun shows. There are a number of ways that a 
person can legally purchase the guns.
    What happens next, though, is where the criminal conduct 
starts, is when a person who has legally purchased a gun then 
gives it or sells it to someone who is prohibited under Federal 
law from having that gun, whatever, and that person taking the 
gun across the border into----
    Mr. Green. What is the crime at that point, when the person 
who has lawfully purchased sells to a person unlawfully to take 
it to Mexico? What is the offense at--what is the punishment?
    Ms. Pope. The crime is the crime of straw purchasing. The 
punishment is low.
    I will tell you, one of our priorities within the 
Department has been to advocate for tougher penalties for folks 
who sell guns with the intent that they travel across the 
border.
    Mr. Green. I do not mean to interrupt you, but can you--you 
said ``low.'' Do you have any--perhaps I caught you----
    Ms. Pope. Often less than a year.
    Mr. Green. Of incarceration?
    Ms. Pope. Right.
    Mr. Green. Do most persons receive time in terms of 
incarceration? Or do they get probation? What specifically 
happens with these first offenders?
    Ms. Pope. I would want to get more information so that I 
could speak more accurately to you. But I can tell you that 
these folks are not facing tough penalties. That has been one 
of the struggles we have had in terms of building the cases.
    If someone is not facing a stiff penalty, that person is 
less likely to give up the information that we are seeking. 
That person is less likely to cooperate with law enforcement. 
So, that makes our job even tougher. So, we have to use far 
more--we need to be very aggressive in our approach to this----
    Mr. Green. One more question quickly.
    Do you have what I call fast-track authority when you have 
a person that has been identified as promoting this kind of 
activity? Do we still have the same rules that apply to a 
typical enforcement action in terms of speedy trial, in terms 
of discovery? Or is there a means by which these cases can be 
fast-tracked, and not violate the Constitution, of course?
    Ms. Pope. I am not aware of fast-tracking any straw 
purchasing cases. But I will go back, and I will confirm that. 
If I am wrong about that, I will let you know.
    Mr. Green. Thank you.
    Thank you, Mr. Chairman.
    Mr. McCaul. Thank you.
    We have yet another Member who wants to ask questions. Let 
me caution you, though, that we have flights to catch. They 
have flown a long ways at their own expense to testify before 
this committee. I want that to happen soon.
    With that, I yield to Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for your 
courtesy. I was looking for my nameplate to be placed here for 
the appropriate protocol.
    Mr. Chairman, let me thank you very much for your kindness. 
We are in a hearing in Judiciary on the PATRIOT Act, which 
somewhat overlaps. I will be pointed in my questions.
    But I do want to acknowledge Steve McCraw from the State of 
Texas, and to thank him for the leadership that he has given 
and the many times that we have worked together on any number 
of disaster issues and, of course, the work that we have done 
together, even on finding missing senior citizens.
    So, I am grateful for your men and women who serve not only 
the State, but the Nation. Thank you very much.
    To the witnesses on the second panel, as well, Sheriff 
Gonzalez and Chief Rodriguez, welcome.
    Of course, let me indicate that Mr. Horne, the attorney 
general, is certainly welcome.
    But I have to make a statement of my absolute opposition to 
the line of legislation that has been passed in Arizona. I find 
it detrimental and undermining the Federal system of 
immigration and security.
    But I do want to just a pose question to Mr. Williams and 
Ms. Pope. It will be to both of you, so if you would. I am 
cognizant that, if your answers could be pointed.
    I was with the president yesterday, and also went to the 
border and Paso del Norte, saw the great work that is being 
done, the new technology and new construction, the biometric 
cards that are used by Mexican nationals getting them, allowing 
them a 10-year visitation.
    They looked like they were very much in charge. We are 
talking now about terrorism. I can tell you, I have no comfort 
or love of drug cartels and violence.
    But give us what you are doing, both of you, under your 
responsibilities, and how well you can do it under the present 
laws, and what you are missing. Those are succinct, one, two.
    The last one is: Does a terrorist indication--or 
designation, excuse me--enhance your ability to fight drug and 
gun violence?
    You will have to be succinct, I know, because I do want to 
finish. That is my last question. Thank you.
    Mr. Williams. Well, very quickly, at the Department of 
Homeland Security, we are putting all our uniformed assets, 
air, our CBP officers at the ports of entry, our Border Patrol 
agents between the ports of entry, out there with the 
assistance of the National Guard, as eyes and ears to vector 
Border Patrol agents and to look at suspicious activity between 
the ports of entry.
    With our investigative components, Immigration and Customs 
Enforcement, we are working with our State and local 
counterparts, as well as the Mexican government----
    Ms. Jackson Lee. But you could take more resources in that 
area.
    Mr. Williams. True.
    Ms. Jackson Lee. All right. Anything dealing with the 
designation, would that help you?
    Mr. Williams. The designation I do not think would help us. 
I think we have laws on the books that we need to apply and 
have worked with us, you know, for several years during my 
career.
    Ms. Jackson Lee. Thank you.
    Ms. Pope, I am very well aware of the task forces that you 
have put in certain cities, one in Houston on the gun-running 
and otherwise. The same thing. Do you need more resources? Or 
how are you working to protect the American people? Would the 
designation help you?
    Ms. Pope. We are working to protect the American people, as 
I said, a number of different ways through these coordinated, 
across-jurisdictional boundaries, investigations, and 
prosecutions. We are very grateful to Congress' investment in 
the Southwest border strategy from last summer.
    Ms. Jackson Lee. Do you need more resources?
    Ms. Pope. That is critical. I mean, frankly, we have hired 
up as never before. We want to make sure those people can 
continue to do their jobs, and so that we can all continue----
    Ms. Jackson Lee. Can we close the gun show loopholes that 
seem to allow drugs to pass back and forth? That would be 
helpful to you as well.
    Ms. Pope. I think the administration does not have a 
position on that in particular. But we look forward to working 
with you on----
    Ms. Jackson Lee. What about the designation?
    Ms. Pope. Frankly, as Mr. Williams said, we have very tough 
laws here already in the United States.
    I am not sure it gets us more, unless we can get defendants 
extradited back to the United States, so that they are facing 
the very tough penalties that we now have in our U.S. courts.
    Ms. Jackson Lee. Well, I want to work with my Chairman. I 
think he has good intentions, and there may be some 
compromising opportunities to go through this.
    Mr. Chairman, I would just say publicly to the 
administration, to the committee, we need to have a position on 
gun show loopholes.
    This is a gun-running country, unfortunately. A lot of it 
passes through my own city of Houston, and that is fueling the 
fire of drug cartels and violence with guns.
    So, there are a lot of ways that we can work together to 
protect the American people.
    I thank both of you for your public service.
    Mr. Chairman, I yield back. Thank you for your courtesy.
    Mr. McCaul. All right. Thank you, Ms. Jackson Lee.
    This panel is dismissed. Thank you so much for being here 
and testifying. Given the time, let us move very rapidly to our 
next panel. Again, thanks for being here.
    Ms. Pope. Thank you, Mr. Chairman.
    Mr. Williams. Thank you.
    Mr. McCaul. Let me thank this panel for your patience. I 
had attempted to have one panel, and the Department of Justice 
objected to doing that, because they did not feel it was 
appropriate for them to appear with State and locals.
    I just want to state that on the record.
    With that, let me thank you all for being here. Let me 
introduce the panel.
    Mr. Tom Horne was elected Arizona attorney general in 2010. 
Prior to being attorney general, he was a litigation attorney 
in private practice for more than 30 years, during which time 
he served on the school board of Arizona's third-largest school 
district for 24 years, and 10 as its president. He also served 
in the Arizona legislature, was a member of the judiciary 
committee and chairman of academic accountability committee.
    Next, my good friend, Mr. Steve McCraw, who I worked with 
when I was at the Justice Department. He worked for the FBI. He 
is the director of the Texas Department of Public Safety. 
Previously, Mr. McCraw was the director of Texas Homeland 
Security in the Governor's Office. Before that, Mr. McCraw had 
a 21-year career with the FBI.
    He worked as the director of the Foreign Terrorism Tracking 
Task Force after 9/11, assistant director of the Office of 
Intelligence, and Inspector Division here in Washington.
    Next we have Sheriff Sigifredo Gonzalez, or better known as 
what? We just call you Sigi?
    He has been the sheriff of Zapata County since 1994. 
Sheriff Gonzalez has twice been named as director of the 
Sheriffs' Association of Texas, and has been a member of the 
Legislative Committee since 1996. Recently, he was appointed to 
the Governor's Office of Homeland Security, Texas Intelligence 
Council. He has been in law enforcement for 34 years.
    Chief Victor Rodriguez has held the position of chief of 
police for the City of McAllen, Texas, since 2001. He has 
previously been the chief of police for the Cities of 
Brownsville and Harlingen, both in Texas. He has also served as 
the director of the Parole Division for the Texas Department of 
Criminal Justice.
    I see we are a little bit out of order with my format, but 
I am going to go ahead and, going left to right, first 
recognize Director Steve McCraw for his testimony.

 STATEMENT OF STEVEN C. MCCRAW, DIRECTOR, TEXAS DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. McCraw. Thank you, Mr. Chairman, and Members. I 
apologize to the Department of Justice for not being worthy to 
sit at the same table, but I will get over it.
    I will say, though, I do want to commend our Federal 
partners. In fact, we work seamlessly with the great men and 
women of the Border Patrol, the Office of Field Operations, 
ICE, FBI, ATF. We love our Federal partners. They work with us 
every day.
    I will say that border unsecurity is not something recent. 
It is a 30-year under-investment by the Federal Government. 
There are consequences when you do not secure a border.
    In fact, some of the consequences, for example, is you have 
proliferation of organized crime cartels. I say organized 
crime, because they are no longer involved in drugs. They are 
involved in kidnappings, extortions, murders. They have 
butchered 36,000 Mexican nationals and some American citizens 
on the other side of the border.
    So, I think that there is no question of the depravity, 
there is no question of the impact. They threaten domestic 
security of the Government of Mexico.
    As noted by this distinguished committee, is that they are 
our third-leading trading partner, our third-leading exporter 
of oil to our Nation. Culturally, we have always been very 
close to Mexico, and they are very important to us. So, their 
security is our security.
    Yet, when we have an unsecure border, we enable the cartels 
to expand, become powerful and with this--and use the billions 
of dollars to undermine the government of Mexico.
    Not only has an unsecured border impacted Mexico, but, 
clearly, you can talk about spillover violence and spillover 
this, spillover that, or pour-over crime or flow of a crime.
    The bottom line is that, without question, as a result of 
an unsecure border, there has been a proliferation of organized 
crime in Texas. Not just Texas, but I think you will find from 
talking to the attorney general of the other border States, as 
well.
    That does not just affect the border region of Texas or 
Texas itself, but it affects the entire Nation. There are 
consequences, because when I talk about organized crime 
activity, it does not show up on a UCR report. It does not show 
up as an index crime.
    It does not count kidnappings, extortions. It does not 
count the recruitment of our children in high school and 
schools to conduct operations to support cartel members--not 
just counter-surveillance, but to conduct, you know, murders, 
assassinations, hits on both sides of the border. It does not 
count that.
    Clearly, the numbers I submitted in my written testimony 
are accurate--18.9 percent referral rate for drug felonies, and 
we have 9.4 percent of the population in our border region.
    It does not count the corruption of our U.S. law 
enforcement officials. Today, that is the business model for 
the Mexican cartels. Corruption is king.
    They did not stop at the Rio Grande River. They are 
utilizing our ports of entry and between the ports of entry.
    We had two sheriffs go down. We have had 80 Border Patrol 
agents knocked off for corruption, as a result of Federal 
corruption investigations, and hundreds more under 
investigation, because they have got billions of dollars.
    So, there is an insidious aspect of it that is not 
reflected on index crimes that go back to 2009.
    You have got to be careful. I was just talking to the chief 
over here about index crimes. They are always, you know, 2 
years late, a year-and-a-half late. You know, in talking with 
our latest update from El Paso, there is a 1,200 percent 
increase in murders in El Paso.
    Now, does that mean something dramatically happened? No, it 
just means that some things have happened, and that it shows up 
dramatically on that report.
    But make no mistake about it. We are not happy with the 
fact that our border is not secure, because we know it can be 
secure, if the Federal Government commits sufficient resources 
to do it. This is not rocket science.
    If you put sufficient men, equipment, and apply training, 
boats, aircraft, aviation--Congressman, you talked about 
technology--you can do it. This is doable.
    There is no question the Federal Government can do this. 
When it is not done, there are consequences.
    I have not talked to a counterterrorism expert--and, Mr. 
Chairman, you have dealt in this before--who is not mortified 
every time they look at the numbers of foreign nationals from 
countries with a known al-Qaeda presence, or Hezbollah or 
Hamas, that crossed the border, the Texas-Mexico border, that 
are detected and arrested.
    We talk about performance measures, and how do you view 
success? Hey, it is great to have indictments, convictions, 
arrests. Seizures goes up. Hey, you know, our seizures are up 
124 percent, and marijuana 168 percent, and cash.
    All that proves is that the border is not secure. At the 
end of the day, the only performance measure that matters is 
that the border is secure, plain and simple.
    That is not difficult to define. It means that, you know, 
from the Texas standpoint, or a lowly State standpoint--and I 
will try to throw something together here.
    But, you know, it means, when an individual or individuals 
and contraband cross the border--either direction--and 
illegally, and are not, first, detected and, secondly, 
interdicted--plain and simple. It is not hard to do.
    Because as one of the Congressmen had mentioned earlier, is 
that they do not do it for ideological reasons. They do it for 
profit.
    Though I will say to your point, you know, Mr. Chairman, I 
was thinking about it when you were talking about the 
international terrorists and using a designation, is that it is 
interesting to observe that, you know, international terrorists 
engage in organized crime to support their terrorist 
activities. Whereas the Mexican cartels are now engaging in 
terrorist activities to support their criminal enterprises and 
organized crime activities.
    The barbarism? Al-Qaeda has nothing on these Mexican 
cartels.
    We see, you know, four of our gangs that are operating 
directly with the cartels and supporting their hit squads. And 
oh, by the way, there are hit squad members of the cartels 
living in Texas. When we see that, we are obviously concerned.
    When they expand in the past year from 4 to 18, when they 
grow three-fold, it is a dramatic increase, and we are very 
concerned.
    The last thing I will say about, for example, last night. I 
did say Texas is a law-and-order State. Did I not make that 
clear? All right. We do not like people trespassing and 
vandalizing and breaking into homes on our farms, just because 
they happen to be on the border. We take offense to that.
    We take enough offense to it, like last night, 11:50 p.m., 
Central time, which is the time that matters, we had two Border 
Patrol agents fired upon when all they tried to do--they are on 
the river, they are marine Border Patrol agents trying to 
interdict drug traffickers coming on boats. When they did, we 
had an individual. Three shots were fired. They looked up. 
Someone pointing a gun at them, and they returned fire.
    On September 10 and 11--and we ought to be concerned--
Border Patrol agents were fired upon. Same scenario on the 
river, Rio Grande River. This would be in Hidalgo County.
    So, to say that there is not violence or concern, or that 
we have not had 58 high-speed chases, and, oh, by the way, the 
cartels are throwing out spikes, using chase vehicles and 
blocking vehicles to thwart law enforcement operations, to get 
these splash-downs. Then we have got retrieval teams of cartels 
on our side of the river to take the dope and the subject back 
over, and confront us.
    That is unacceptable by Texas standards. I think that is 
unacceptable by American standards, as well.
    Thank you.
    [The statement of Mr. McCraw follows:]
                 Prepared Statement of Steven C. McCraw
                              May 11, 2011
    Chairman McCaul and committee Members, on behalf of the men and 
women of the Texas Department of Public Safety, I would like to thank 
you for the opportunity to appear before you today to discuss a vitally 
important public safety and National security issue, our unsecure 
border with Mexico.
    Mexican Drug Trafficking Organizations have exploited weaknesses in 
our border defenses for many years in an effort to exert their 
dominance over the highly lucrative U.S. drug and human smuggling 
market and they have evolved into powerful and vicious organized crime 
cartels that now threaten the domestic security of Mexico. They battle 
each other and the Government of Mexico to maintain and/or increase 
their share of the multi-billions of dollars derived from the smuggling 
of drugs and humans into the United States, and bulk cash, high-value 
merchandise, stolen vehicles, and weapons into Mexico.
    They use military and terrorist tactics and weaponry killing over 
36,000 people since 2006 and there is no limit to their depravity. They 
employ horrific tactics to intimidate their adversaries and the public 
such as decapitations, acid baths, skinning people alive, torture, and 
Improvised Explosive Devices and they have expanded their criminal 
operations to profit from kidnappings, robberies, human trafficking, 
extortions, and theft. During the past several months we have seen 
reports of mass graves and self-censorship of the Mexican press. The 
Mexican Cartels work closely with Texas-based and transnational gangs 
to support their criminal operations on both sides of the border. We 
continually see multi-ton drug loads seized throughout Texas.
    The Mexican Cartels use a mature decision-making process that 
incorporates reconnaissance networks, techniques, and capabilities 
normally associated with military organizations such as communication 
intercepts, interrogations, trend analysis, secure communications, 
coordinated military-style tactical operations, GPS, thermal imagery, 
and military armaments including fully automatic weapons, rocket-
propelled grenades, and hand grenades. They are very adept at 
corrupting government officials and entire institutions to support 
their criminal operations undermining the ability of Mexico to address 
this threat. Recent reports reveal that Mexico has only a 2% criminal 
conviction rate.
    The 2011 GAO Report confirmed what we already knew in Texas, there 
are insufficient Federal resources to secure the Texas/Mexico border 
with as much as 70% to 90% of the 1,250 miles of border in Texas is 
only being monitored as opposed to managed or operationally controlled. 
It is important to note that the men and women of the Customs and 
Border Protection Service are dedicated professionals and do an 
exceptional job with the limited resources they possess. However, there 
has been a substantial underinvestment in border security for several 
decades to the benefit of the Mexican Cartels and the detriment of 
public safety and homeland security.
    Texas is a law-and-order State and there is a high expectation by 
our citizens that Sheriffs, Chiefs of Police, and the Texas Department 
of Public Safety will work closely together with our Federal partners 
to proactively protect Texas from all criminal and terrorist threats 
regardless of their origin. When Texas landowners are overwhelmed by 
drug and human smugglers trespassing and vandalizing their property, 
they expect a timely law enforcement response and do not want to hear 
from Sheriffs and the State of Texas that it is not their job. The 
State of Texas has already invested over $250 million to enhance border 
security efforts recognizing long ago its importance to the safety of 
all Texans.
    The State adopted a unified command structure to centralize local, 
State, and Federal border-related intelligence across 53 Texas border 
counties and over a hundred local, State, and Federal agencies to 
support unified patrol operations on the ground, in the air, and on the 
water. Combining efforts is a force multiplier and provides a more 
accurate understanding of the current and future border-related 
threats.
    It has also been necessary to increase the State's tactical 
capability on the border. The Cartels have become increasing 
confrontational using blocking and chase cars, caltrops to disable 
patrol cars during high speed pursuits and Cartel boat teams that 
confront U.S. law enforcement on the U.S. side of the Rio Grande River 
while they retrieve the drugs from vehicles that have been driven into 
the Rio Grande River to avoid capture. In ONE instance, Cartel members 
threw a Molotov cocktail at Texas Rangers in an attempt to avoid 
capture and on at least two occasions, Border Patrol Agents were fired 
upon from Mexico while patrolling the Rio Grande River. The State of 
Texas established Texas Ranger Recon Teams augmented with DPS SWAT 
resources, Texas Military Forces personnel, DPS Aviation and Trooper 
Strike Teams who work closely with local law enforcement and the Border 
Patrol to confront the Cartels in high-threat areas.
    The committee requested that I provide an assessment of the impact 
of Cartel-related crime in the Texas border region. To accurately 
assess the overall criminal impact of an unsecure border on Texas 
requires the syntheses of several different variables within and 
outside the border region. For example, if we were to use only Index 
Crimes as reported through the FBI's Uniform Crime Reporting (UCR) 
system, it would not include essential variables such as extortions, 
kidnappings, smuggling incidents, corruption, smuggling-related 
trespassing and vandalism, arrests of aliens from countries with strong 
terrorist networks, seizures of Cartel drugs, weapons, and bulk cash on 
the 10 major smuggling corridors throughout Texas, Cartel command and 
control networks operating in Texas, increases in Cartel-related gang 
activity, death squad members living in Texas, Cartel-related killings 
of U.S. citizens in Mexico, Cartel-related violence along the border 
directed at U.S. law enforcement and the recruitment of Texas children 
in our border region to support Cartel operations on both sides of the 
border. These indicators reflect what the Texas Department of Public 
Safety refers to as ``spillover crime'' and are discussed below:
  <bullet> Over the last 18 months, six of the seven Mexican Cartels 
        have established command-and-control networks in Texas cities. 
        This is a three-fold increase.
  <bullet> Within the last year the number of Texas prison gangs who 
        work directly with the Mexican Cartels have increased from four 
        to twelve. This is significant because 62% of prison gang 
        members are incarcerated for violent crimes in Texas and as 
        much as 60% of the criminal activity in some Texas communities 
        is carried out by gangs.
  <bullet> Since January 2010, DPS has identified in Texas 22 murders, 
        24 assaults, 15 shootings and five kidnappings directly related 
        to the Mexican Cartels.
  <bullet> The Mexican Cartels are recruiting Texas school age children 
        to support Cartel operations. The border region constitutes 
        9.4% of the State's population and now has over 18.9% of the 
        juvenile felony drug and gang referrals.
  <bullet> The Mexican Cartels are actively recruiting U.S. law 
        enforcement officers to support their smuggling operations. Two 
        South Texas Sheriffs were convicted for Cartel-related 
        corruption and over 70 CBP Agents have been arrested for 
        corruption along the southwest border.
  <bullet> The Mexican Cartels and Texas gangs who support them smuggle 
        and traffic in humans. There have been 480 human trafficking 
        victims over the last 4 years, 77% were children. Approximately 
        10% of the calls to the National Human Trafficking Hotline come 
        from Texas, more than any other State.
  <bullet> The FBI in San Antonio reported that there have been 266 
        kidnappings since 2004, 14 reported in 2004, and 58 in 2009. 
        Kidnappings include Americans kidnapped in Mexico, victims 
        abducted in Texas and taken to Mexico and victims kidnapped in 
        Texas by subjects from Mexico.
  <bullet> Virtual kidnappings and extortions are increasing in Texas. 
        There were 23 reports of attempted extortion in El Paso between 
        August 2009 and September 2010.
  <bullet> The amount of drug and human smuggling and trafficking that 
        occurs in Texas is an essential indicator of the crime impact 
        on the State. A senior DHS official has reported that only 6.5% 
        of the drugs and humans smuggled into the United States from 
        Mexico are interdicted. The Department of Public Safety is not 
        in a position to confirm the percentage cited but it does track 
        interdictions within the border region and seizures beyond the 
        check points.
  <bullet> The 2009 UCR data for the El Paso Police Department shows a 
        reduction in murders; however, the 2011 data from the El Paso 
        Police Department currently shows a 1,200% increase in murders 
        from 2010 to 2011. The Department of Public Safety considers 
        UCR data as only one indicator because of the delay in 
        reporting and the limited incidents it captures.
  <bullet> CBP Agents and Officers continue to arrest illegal aliens 
        along the U.S./Mexico border from countries with a known 
        terrorism presence and 74% of those arrests have occurred in 
        Texas.
  <bullet> A recent Federal investigation in Texas underscores the 
        seriousness of this homeland security threat. Between 2006-
        2008, Dhakane smuggled 300 Somali illegal aliens, moving them 
        through Brazil-Guatemala-Mexico-Texas and California. Dhakane 
        eventually admitted that not only had he worked for many years 
        for the designated terrorist groups AL-ITTIHAD-AL-ISLAMI (AIAI, 
        or Islamic Union Courts/closely affiliated with al-Shabaab) and 
        the AL-BARRAKAT, he moved at least seven committed Jihadists, 
        most of them over the U.S. Southwestern border.
  <bullet> Total amount of Operation Border Star seizures from 2006 to 
        present have an estimated street value of $7,939,824,739.23 
        (see Exhibit 1).
  <bullet> The Texas Department of Public Safety has seen an increase 
        in Cartel-related seizures occurring beyond the check points 
        and along the ten major corridors in Texas.
    <bullet> Cocaine--28% increase;
    <bullet> Marijuana--124% increase;
    <bullet> Heroin--2,493% increase;
    <bullet> Methamphetamine--135% increase;
    <bullet> Bulk Cash--168% increase;
    <bullet> Weapons--155% increase.
    When the U.S./Mexico border is finally secured the Mexican Cartels 
will no longer have access to the billions of dollars they use to 
undermine the domestic security of Mexico and the safety and security 
of the citizens of Texas and the Nation. Border security can be 
accomplished with the sufficient will and resources of the Federal 
Government working as a team with local and State law enforcement 
agencies.
                               EXHIBIT 1

                                           TOTAL OB FROM 2006-PRESENT
----------------------------------------------------------------------------------------------------------------
                 Seizures                                          Street Value
----------------------------------------------------------------------------------------------------------------
Marijuana (lbs)..........................       5,957,250  Marijuana...................        $5,242,380,403.39
Methamphetamine (lbs)....................           4,813  Methamphetamine.............          $191,673,350.06
Cocaine (lbs)............................          66,858  Cocaine.....................        $2,238,596,134.72
Heroin (lbs).............................           1,485  Heroin......................          $119,703,650.54
Cash ($).................................     147,471,201  Cash ($)....................          $147,471,200.52
                                                           Value of Seizures...........        $7,939,824,739.23
                                                           Value of Drugs Only, no cash        $7,792,353,538.71
----------------------------------------------------------------------------------------------------------------


    Mr. McCaul. Thank you, Mr. McCraw. Let me say, as a fellow 
Texan, thank you for your service to our State and the country.
    It is refreshing to hear--the reason for calling the second 
panel is to get people who are on the ground, down on the 
border, who understand it and have seen it up close and 
personal. I think you have got a different story than political 
appointees in Washington perhaps have.
    So, thank you for that.
    Mr. Horne.
    Mr. Horne. [Off mic.]
    Mr. McCaul. You want to turn the mic on?
    Yes.

   STATEMENT OF THOMAS C. HORNE, ATTORNEY GENERAL, STATE OF 
                            ARIZONA

    Mr. Horne. It is on. Do I need to get closer?
    It is not made for us tall guys, I am afraid.
    Can I be heard now?
    Yes, thank you, Mr. Chairman and Members. I certainly do 
agree with the Chairman's bill to designate cartels as 
terrorist organizations.
    Mr. Chairman and Members, I have sued the Obama 
administration for negligence on the border with Mexico. The 
Obama administration had previously sued Arizona to prevent 
Arizona from helping to fight illegal immigration through 
Arizona's Senate Bill 1070.
    I filed a counter-claim, asking for a court declaration 
that, among other things, the administration has failed to 
achieve and maintain operational control for the Arizona-
Mexican border as required by Congress in the Secure Fence Act 
of 2006, and the Appropriations Act of 2008.
    Some may question whether it is possible to get operational 
control. I argue that it is for the following reasons.
    The Arizona border is divided into the Yuma Sector and the 
Tucson Sector. In 2006, the Bush administration put substantial 
resources into the Yuma Sector, which had been one of the most 
difficult sectors. As a result, apprehensions decreased 96 
percent--96 percent--from 134,000 in 2005, to 7,200 last year.
    Substantial operational control was obtained in the Yuma 
Sector. But in the Tucson Sector, last year, well over 400,000 
people crossed illegally into the United States in this sector. 
That is the equivalent of an invasion from various countries of 
20 divisions, 400,000 people.
    The criminal element increased from 8 percent in 2005 to 17 
percent, more than doubling. Criminal enterprises based in 
Mexico are bringing a degree of brutality to crime in the 
United States that we have never experienced before.
    They are bringing techniques they have used in Mexico, 
where attacks on police headquarters, assassinations of high 
government officials, murders of journalists, mass jail breaks 
and ultimatums, stating that the criminal enterprise will 
unleash terrorist acts unless the government gives its members 
amnesty for their crimes. All signify assertion of power 
unchecked by the rule of law.
    The Drug Enforcement Administration has confirmed Mexican 
drug organization presence in 230 U.S. cities and towns. They 
are expanding from drug smuggling to all kinds of criminal 
activity. This presence in 230 U.S. towns and cities comes 
mostly through the Tucson sector.
    The United States and Mexico's mutual economic future faces 
catastrophe, because Mexican drug cartels, fueled by the 
American appetite for drugs, are becoming entrenched as 
criminal enterprises that affect Mexican commerce, and whose 
method of intimidation is ruthless violence.
    Mexico is the United States' second-largest trading 
partner, and the two countries must work together to be sure 
their commerce is not destroyed by criminal enterprises.
    In October, the Phoenix area experienced its first 
beheading, where someone walked into a Chandler apartment and 
found a head in one part of the room and a body in the other.
    Two months ago in Casa Grande, midway between Phoenix and 
Tucson, 15 cartel members had a firefight with bandits in an 
attempt to steal their drugs. Just a few weeks ago, one of my 
special agents in the attorney general's office was shot by a 
suspected cartel operative in the Phoenix area.
    In the United States it is widely understood that 
marijuana, cocaine, and methamphetamine come largely from or 
through Mexico. It is also common knowledge that Mexican drug 
organizations are engaging in atrocities, murders, and 
widespread corruption.
    In Pinal County, as an example, the number of pounds of 
marijuana seized has more than doubled in the last 2 years, 
from 20,000 pounds to 45,000 pounds.
    The extent to which these criminal enterprises have 
expanded beyond smuggling to other kinds of crimes is not 
widely known. In addition to the massive invasion of illegal 
aliens and the extremely serious problem of criminal 
enterprises invading through the Tucson Sector, there is the 
problem of terrorism from the Middle East.
    A terrorist seeking to enter the United States to do mass 
destruction could get through Mexico and blend in among the 
400,000 people crossing illegally every year through the Tucson 
Sector.
    The Border Patrol has caught over 600 people from Middle 
Eastern countries to-date. We can only imagine how many have 
gotten through in addition to that 600.
    The Obama administration could do in the Tucson Sector what 
the Bush administration did in the Yuma Sector, but it has 
chosen not to do so.
    In the beginning of World War II, the French discovered 
that a chain is no stronger than its weakest link. When German 
troops poured through an unguarded section of the Maginot Line, 
and the whole Maginot Line proved to be useless.
    All of the work the United States has done to control 
illegal immigration in California, Texas, New Mexico and in the 
Yuma Sector are useless, if it simply increases the number of 
illegal aliens pouring in through the Tucson Sector.
    The best plan that I know of to achieve control over the 
Tucson Sector is the 18-point plan prepared by the Arizona 
Cattle Growers Association. It includes additional technology 
and infrastructure, an additional 3,000 patrol field agents in 
Arizona, and forward operating bases immediately adjacent to 
the U.S. border with Mexico, approximately 1 every 12 miles.
    Some of the Arizona Cattle Growers Association provisions 
are included in the McCain-Kyl bill currently before Congress.
    Most immediately, the National Guard should be increased. 
There are 560 in Arizona now. There were 2,400 in Arizona in 
2006, when the Bush administration obtained control over the 
Yuma Sector.
    Mr. Chairman and Members, there are people in the United 
States and Mexico living in fear. They are victims of our 
Nation's appetite for drugs, victims of the Mexican cartels' 
thirst for power fueled by innocent blood, and they are victims 
of negligence by the Federal Government at the border.
    This must end. I am doing my best in the courts. But 
sometimes courts decline to enter into what they view as 
political issues that need to be dealt with by Congress.
    I ask you to please deal with this issue that is so crucial 
to our country. Thank you.
    [The statement of Mr. Horne follows:]
                 Prepared Statement of Thomas C. Horne
                              May 11, 2011
                              introduction
    I have sued the Obama administration for negligence on the border 
with Mexico. The Obama administration had previously sued Arizona to 
prevent Arizona from helping to fight illegal immigration through 
Arizona Senate Bill 1070. I filed a counterclaim asking for a court 
declaration that, among other things, the administration has failed to 
achieve and maintain operational control for the Arizona-Mexican 
border, as required by the Congress in the Secure Fence Act of 2006 and 
the Appropriations Act of 2008. Some may question whether it is 
possible to do so. I argue that it is for the following reasons:
    The Arizona border is divided into the Yuma Sector and the Tucson 
Sector. In 2006, the Bush administration put substantial resources into 
the Yuma Sector, which had been one of the difficult sectors. As a 
result, apprehensions decreased 96 percent from 134,000 in 2005 to 
7,200 last year. Substantial operational control was obtained in the 
Yuma Sector. But in the Tucson Sector, since 2009, well over 400,000 
people have crossed illegally into the United States in this sector. 
That is the equivalent of an invasion, from various countries, of 20 
divisions.
                 background of the criminal enterprises
    The criminal element increased from 8 percent in 2005 to 17 
percent. Criminal enterprises based in Mexico are bringing a degree of 
brutality to crime in the United States that we have never experienced 
before. They are bringing techniques they have used in Mexico, where 
attacks on police headquarters, assassinations of high governmental 
anti-organized crime law enforcement officials, murders of journalists, 
mass jail breaks, and ultimatums stating that a criminal enterprise 
will unleash terrorists acts unless the government gives its members 
amnesty for their crimes, all signify assertion of power unchecked by 
the rule of law. The Drug Enforcement Administration has confirmed 
Mexican drug organization presence in 230 U.S. cities and towns. They 
are expanding from drug smuggling to all kinds of criminal activity. 
The United States and Mexico's mutual economic future faces catastrophe 
because Mexican drug cartels, fueled by the American appetite for 
drugs, are becoming entrenched as criminal enterprises that affect 
Mexican commerce from petroleum to groceries, and whose method of 
intimidation is ruthless violence. Mexico is the United States' second-
largest trading partner and the two countries must work together to be 
sure their commerce is not destroyed by the criminal enterprises.
    In October, the Phoenix area experienced its first beheading, where 
someone walked into a Chandler apartment and found a head in one part 
of the room and the body in another. Two months ago, in Casa Grande, 
midway between Phoenix and Tucson, 15 cartel members had a fire fight 
with bandits in an attempt to steal their drugs. Just a few weeks ago, 
one of my Special Agents in the Attorney General's Office was shot by a 
suspected cartel operative in the Phoenix area. In the United States, 
it is widely understood that marijuana, cocaine, and methamphetamine 
come largely from or through Mexico. It is also common knowledge that 
Mexican drug organizations are engaging in atrocities, murders, and 
wide-spread corruption.
    In Pinal County, as an example, the number of pounds of marijuana 
seized has more than doubled in the last 2 years from 20,000 pounds to 
45,000 pounds.
    The extent to which these criminal enterprises have expanded beyond 
smuggling to other kinds of crimes is not as widely known.
    While familial drug smuggling organizations have thrived near the 
border for generations, their present successor Mexican criminal 
enterprises now present a new and different threat to North American 
well-being. Although they are sometimes called drug cartels, they are 
not primarily cooperative price-setting entities and they are not just 
about drugs--they are primarily opportunistic, generally--and sometimes 
fiercely--competitive multi-crime criminal enterprises. This discussion 
uses the term ``criminal enterprises'' (``CEs'') because this term is 
used in Federal and State racketeering statutes.
    There are many sources of the CEs' increased power. A few of them 
include:
    (1) Immigration into the United States brought Mexican criminals to 
        U.S. cities in large numbers in the 1990s. DEA has confirmed 
        Mexican drug organization presence in 230 U.S. cities and 
        towns. Larger Mexican criminal populations allow Mexican drug 
        organizations to rely on extended affinity to vertically 
        integrate their distribution networks. Simultaneous law 
        enforcement pressure on rival groups, such as the Colombians 
        and their air smuggling methods, further permitted Mexican CEs 
        to vertically integrate the drug distribution chain.
    (2) The Mexican CEs have incorporated influences from the 
        ``Zetas,'' former members of an elite military unit originally 
        recruited by a drug organization as mercenaries in inter-
        enterprise warfare. The Zetas brought with them greater 
        eagerness to diversify into criminal opportunities other than 
        drug smuggling. The Zetas also brought a culture of 
        ruthlessness and intimidation, with huge economic power 
        implications.
    (3) Expendable mercenaries are more available to the CEs. 
        Maquiladoras, and other opportunities such as preparing to 
        illegally cross the border into the United States, brought many 
        unemployed young men to northern Mexico. The sharp decline of 
        the economies of the United States and Mexico in 2008 swelled 
        this available pool of mercenaries. With many young strangers 
        available as gunmen, CE leaders are not as constrained about 
        violent confrontations with rival gangs or with government 
        authorities as they had been. When the casualties will be 
        replaceable strangers, aggression and brutality become more 
        acceptable.
    (4) The availability of high-powered weapons has armed the gunmen 
        as never before. While the exact amounts and percentages of 
        U.S.-sourced weapons that are being used by the CEs are the 
        subject of some debate, it is beyond dispute that the CE gunmen 
        have no shortage of weaponry and that U.S. sources account for 
        some portion of these arms. Any weapons in this context are too 
        many.
    (5) In the United States, it is widely understood that marijuana, 
        cocaine, and methamphetamine come largely from or through 
        Mexico. It is also common knowledge that Mexican drug 
        organizations are engaging in atrocities, murders, and wide-
        spread corruption. Nevertheless, it does not appear to be 
        widely understood that continued consumption of Mexico-sourced 
        drugs is the direct root cause of the erosion of the free 
        democracy in Mexico and ultimately of the economy of North 
        America. Our young people are acutely aware of the indirect 
        consequences of their consumer decisions. Yet they continue to 
        buy Mexico-sourced drugs as if there were no consequences for 
        these decisions. This can only be explained by a lack of 
        knowledge of the linkage between these particular consumer 
        choices and the long term effects of those choices.
    In Mexico, popular support for the representative government's 
desperate efforts to control the growing power of the CEs appears to be 
flagging as the death toll and violence mounts. The misunderstanding 
that these are simply drug or human smuggling organizations persists 
despite the general knowledge that the CEs are also engaged in many 
non-drug, non-human smuggling criminal activities. As in the United 
States, it appears that the populace in Mexico is not aware that the 
uncontrolled rise in the power of the CEs foreshadows the potential 
failure of the Mexican economy.
the danger to commerce presented by criminal enterprise diversification
    The CEs are increasingly engaging in diversified organized criminal 
activity, such as diverting petroleum products, agricultural crop 
theft, hijacking truck and train cargo, extorting major businesses, 
import/export fraud, intellectual property theft, and targeted 
intelligence-driven kidnappings of business and societal leaders. They 
are uniquely situated for attacks on trade because most of them grew 
out of smuggling organizations, so they can exploit their deep roots on 
the key trade routes between the United States and Mexico. Apart from 
the direct injury to the immediate victims, these diversified criminal 
activities are strategically significant in two ways. Most obviously, 
they are sources of income and therefore sources of power to the CEs. 
Most important, these crimes allow the CEs to infiltrate, burden, and 
ultimately destroy trade-related activity and investment.
    The diversified CEs are fundamentally different from their 
predecessor smuggling-based organizations. The former passive bribery-
for-amnesty stance of the smuggling organizations is now largely a 
thing of the past. The CEs are shifting to an aggressive stance, 
actively asserting primacy over the elected representative government 
in their respective geographic areas. Attacks on police headquarters, 
assassinations of high governmental anti-organized crime law 
enforcement officials, murders of journalists, mass jail breaks, and 
ultimatums stating that a CE will unleash terrorist acts unless the 
government gives its members amnesty for their crimes, all signify 
assertion of power unchecked by the rule of law.
    Taking advantage of non-smuggling criminal opportunities requires 
immunity of a fundamentally different kind than that accorded to 
smuggling organizations in the past. Past impunity was for smuggling, 
which is regarded as mostly victimless from the Mexican point of view. 
Present crimes are far from victimless. So immunity cannot be bought, 
and therefore must be coerced. Diversification necessarily requires and 
encourages intimidation. Because the crimes are not victimless, law 
enforcement and the populace at large must be discouraged from taking 
action by means other than mere bribery. In this context, open and 
notorious cruelty and inhuman atrocities serve an economic purpose. 
They terrorize the general public with two complementary messages: (1) 
The CE will show horrible cruelty to any who stand against them (such 
as by having the wife who thought she was bringing ransom money to 
rescue her husband forced to watch as his head is cut off); and (2) the 
representative government is powerless to do anything effective about 
it. This is one explanation for the apparent escalation in the level of 
atrocity. Murders escalated to beheadings and mutilation. Beheadings 
became commonplace, so killers are now skinning the victim and ripping 
the heart from the chest, leaving the corpse so grotesque that 
responders can barely stand to look at the remains. The diversification 
of the criminal activity and the decline of representative government 
authority are complementary--one escalates as the other declines. As 
organized criminal activity succeeds--success defined as being 
accomplished at a profit without countervailing consequences for the 
perpetrators--it is repeated and expanded. The diversification means 
that all economic activity in the particular area is increasingly at 
risk of victimization.
    The societal impact of the CEs' campaign of terror is well 
encapsulated in the presence of .50 caliber machine guns mounted in CE 
SUVs patrolling the streets of Mexican border cities. This weapon, in 
the hands of a CE, is a brazen assassination about to happen.
    The mere existence of such CE war wagons speaks volumes. Most 
significant for strategic purposes, such weapons signify the 
vulnerability of legitimate business because no business can stand 
against extortion and victimization when the perpetrators are this 
cruel, have this kind of firepower, and have the impunity to display 
it. The war wagon is a rolling advertisement that business must 
capitulate--or else--and that investment in Mexico includes the 
associated risks.
             searching for alternatives to economic crisis
Internal Limiters Within CEs
    If the Mexican CEs could be relied upon to recognize the economic 
consequences of their depredations and desist before it is too late, 
then the potential strangulation of commerce would not be an inevitable 
consequence of the growth and evolution of diversified CEs.
    Organized crime leaders operate in a treacherous high-risk 
environment in their daily lives. They stay in charge by inspiring, 
fostering, and demanding the loyalty of an immediate inner circle. 
Keeping a loyal inner circle involves several strategies, the most 
important of which is making financial opportunities available to the 
most loyal. If the dominant figure turns away apparent economic 
opportunities for his CE, and therefore for his inner circle, he 
invites that inner circle to look to another contender for leadership. 
There is always another contender waiting in the wings for a shot at 
the top spots. When traditional U.S. Mafia dons balked at trafficking 
in narcotics, they were replaced by leaders who would condone it 
because the profits were high. Whenever criminal opportunities are 
identified and prove successful, leaders must exploit them or risk 
being replaced (which often involves their death).
    This analysis applies to the potential for strangulation of U.S./
Mexico commerce. The CEs continue to exploit and expand their ability 
to engage in criminal opportunities because there is no internal 
limiter. The CEs may not intend to strangle commerce. Indeed, they may 
have no thought that this could happen and no desire for this result. 
But a pack of wolves may decimate a deer population without a thought 
about what that may mean to future wolves years hence. They act like 
wolves because that is their nature. CEs act like CEs because that is 
their nature. They will continue to escalate their parasitic criminal 
conduct without regard to whether their crimes will ultimately kill the 
host. They will continue unless and until they are stopped. So the 
diversification of the Mexican CEs' criminal conduct will continue as 
long as the economic opportunities are there and will take whatever 
advantage of those opportunities that they can get away with.
Governmental Retreat
    If the capitulation of the Mexican government would end the 
bloodshed, perhaps the threat to commerce would abate. Some observers 
of the present violence have written that President Calderon's decision 
to call in the military was the initial cause of the present violence. 
This is worth mentioning only because if that was the cause, then 
reversal of the decision could be seen as a possible way to end the 
violence. However, the rise of the newly aggressive and power-acquiring 
CEs was not caused by Calderon's administration, and in any event, to 
the extent that increased law enforcement has some violent 
repercussions, the Mexican government cannot reverse that course of 
action.
    The Zetas arrived on the scene in the late 1990s, bringing their 
military tactics and new ruthlessness and opportunism. For example, 
drug violence in Nuevo Laredo increased dramatically in 2004 and over 
100 people died in Nuevo Laredo alone in January-August 2005. This was 
long before Calderon's inauguration.
    The frequent references to the number of murders in Mexico since 
the start of the Calderon administration in late 2006 create the 
unfounded and unfair impression that the violence began with his 
administration. This is not true. They also create the incorrect 
impression that his policies are a cause of the violence. Since the 
violence began before his administration, this is patently false.
    The CEs' tactics are rooted in the CEs' diversification and their 
need to avoid prosecution for crimes beyond drug and human smuggling. 
The violent tactics have the effect of undermining representative 
government by instilling lack of confidence and fear in the Mexican 
people. These outrages to civil life include murders of reporters, 
murders of mayors and a gubernatorial candidate, postings of murder 
threats and actual videos of murders (including beheadings) on the 
internet, ads for criminal gang recruitment in the newspapers, murders 
of and death threats to clergy, ``taxation'' (extortion) of city 
residents, car bombings, and horrific mutilations. While torture has 
always been a part of criminals' intelligence gathering, torture for 
the purpose of getting information is different than wanton mutilation 
of the already-dead bodies and the public desecration of their remains, 
such as by hanging mutilated bodies in public, skinning corpses, or 
delivering severed heads with messages. These are not responses to law 
enforcement. If they were responses to law enforcement, they would be 
done in the United States by the representatives of these same CEs in 
U.S. cities in response to even more effective law enforcement. They 
are not done in the United States for the simple reasons that the CEs 
are not presently contending for control of cities or areas of the 
United States, as they are in Mexico, and they do not believe they 
could avoid prosecution for such crimes in the United States, as they 
do in Mexico. Erroneous attribution of the violence to the law 
enforcement efforts to control the CEs and the resulting erroneous 
understanding of the reasons for the CEs' tactics leads to the 
erroneous idea that law enforcement accommodation would end the 
escalation of CEs' criminal power.
    In any event, in the present circumstances, it is not really 
possible for the Mexican government to back down. Mexican smugglers 
have operated with relative amnesty, but that was in the context of the 
crimes of drug and human smuggling. The crimes have changed. They now 
include diversion of petroleum (owned by the government and therefore 
by the people), hijacking cargo, kidnapping business people, extorting 
insurance companies, extorting whole cities, and atrocious murders, 
including of clergy, journalists, and political leaders. No government 
can look the other way in connection with such conduct, no matter what 
bribe is offered, so there is no ``back down'' solution.
    Nor would the CEs accept a return to the former order, even if 
could be offered. The scenario suggested by some is that with a new 
president and new administration, the CEs could return to the prior 
order, agree to limit criminal activities to drug and human smuggling, 
perhaps consolidate to a more manageable smaller set of CEs with agreed 
territories, and pay bribes for peace with the government. This 
scenario rests on three unsupported foundations.
    First, as explained above, once the CE has enjoyed the criminal 
benefits of operating with impunity in a governmentally-challenged area 
by exploiting new criminal opportunities, and parceled out those 
additional income streams to the inner circle, its nature does not 
permit unforced retreat. A leader who proposed to his inner circle that 
the group henceforth limit itself to drug and human smuggling and 
abandon the other criminal opportunities would not remain the leader 
for long. The evolution of the drug smuggling organizations into 
diversified organized criminal enterprises was an evolution, not a 
simple temporary switch of one set of tactics for another.
    Second, there is no reason that the present CEs would accept the 
limited role suggested by this scenario. Mexican law enforcement and 
military efforts have so far proven inadequate to slow the diversified 
criminal conduct. They have had some success at lopping off top 
participants and at making some activities more difficult, particularly 
drug activities, and a great many gunmen have been eliminated by the 
authorities or by each other, but there is no evidence that the CEs' 
combined net income has declined. Because there is no existing credible 
threat of appropriate consequences, the hypothetical government 
suggestion of peace terms would offer nothing to the CEs that the CEs 
don't already have.
    Third, this scenario supposes tight control throughout the ranks of 
the CEs, such that an order from top CE leadership to forego income 
from non-drug, non-human smuggling activities would be effective. The 
CEs have recruited many young guns, and many of those recruits are now 
forever changed by having adopted the macho high-risk, high-spending 
values of their peers. They are unlikely to accept any such order. 
Faced with their own gunmen's desire to continue to engage in 
profitable crimes, a cartel leader who had given such an order would 
have no incentive to spend the lives and resources necessary to enforce 
the order, even if the leader had the power to do so.
Legalization of Drugs
    Some argue that the legalization of drugs may be a panacea by which 
the violence could be stopped and the strength of Mexico's 
representative government restored, deflecting the threat to the 
economy. This is simply not possible. The fulcrum is economics, not 
politics. Please consider the economics of, say, a hypothetical 
``National Cocaine Corp.'' (``NCC''), a new business formed to sell 
hypothetically recently legalized cocaine in the United States. As the 
first order of business, NCC must undertake the expense of getting an 
FDA permit after showing the purity of the product and the conditions 
of its manufacture in a clean plant under closely monitored conditions, 
under the watchful eyes of various doctors, chemists, and quality 
control experts. Next, NCC must pay for insurance against the 
inevitable lawsuits a la the massive suits against Big Tobacco. Next, 
NCC must set its prices based on its payment of enormous taxes, like 
alcohol and tobacco, but undoubtedly much higher. But the Mexican CEs 
won't have any of these expenses. In addition, legalization will no 
doubt deem some young people; say those under 21, too young to use the 
drugs legally, again like alcohol and tobacco. This market would not be 
available to NCC, but the CEs would keep selling to this market. Bottom 
line: There is no legal product that can match the price of smuggled 
drugs. So the Mexican CEs would stay in business and would continue 
smuggling the same products, but for a larger market because the 
products are approved by the government as ``legal [sic.]
Sealing the Border
    Taking this suggestion at even its most perfect vision, sealing the 
border cannot resolve the threat to commerce. Assuming for the sake of 
this discussion that the United States could somehow erect a perfect, 
miraculous wall through which no illegal drugs, aliens, guns, or money 
could flow, this would not stop the CEs in Mexico from operating. They 
would continue to develop diversified criminal activities, in addition 
to selling more drugs in Mexico. They would complete the escalation of 
their dominance over the representative government, strangling U.S./
Mexico trade from the south side of the perfect wall. They would still 
cause economic collapse. The collapsed Mexican representative 
government would then have little control of the growth of the CEs. The 
CEs would turn their attention to penetrating the United States with 
diversified criminal activities, using the collapsed northern Mexican 
areas as staging grounds. After economic ruin, Mexico would become a 
staging area for CE diversified criminal attacks on the United States.
Abandonment of Mexico
    It is also tempting to some to suggest that the United States hide 
behind Mexico's sovereignty to continue our role. But this is not an 
option. Certainly sovereignty is an issue that the United States must 
deal with in true partnership against our common enemy, but abandonment 
of our neighbor and trading partner is not a proper way to recognize 
and honor its sovereignty. Nor would it be effective to avert economic 
catastrophe.
            The Hard Reality
    In addition to the massive invasion of illegal aliens, and the 
extremely serious problem of criminal enterprises invading through the 
Tucson Sector and the rest of the border and spreading throughout the 
United States, there is the problem of terrorism from the Middle East. 
A terrorist seeking to enter the United States to do mass destruction 
could get to Mexico and blend in among the 400,000 people crossing 
illegally every year through the Tucson Sector.
    The Obama administration could do in the Tucson Sector what the 
Bush administration did in the Yuma Sector, but it has chosen not to do 
so.
    In the beginning of World War II, the French discovered that a 
chain is no stronger than its weakest link, when German troops poured 
through an unguarded section of the Maginot Line, and the whole Maginot 
Line proved to be useless. All of the work the United States has done 
to control illegal immigration in California, Texas, and New Mexico, 
and in the Yuma Sector, are useless, if it simply increases the number 
of illegal aliens pouring through the Tucson Sector.
    The best plan that I know of to achieve control over the Tucson 
Sector is the 18-point plan prepared by the Arizona Cattle Growers 
Association. It includes additional technology and infrastructure, an 
additional 3,000 Border Patrol Field Agents in Arizona, and forward 
operating bases immediately adjacent to the U.S. border with Mexico, 
approximately one every 12 miles. Some of the Arizona Cattle Growers 
Association provisions are included in the McCain Kyl Bill currently 
before Congress.
    Most immediately, the National Guard should be increased, not 
removed, as currently planned by the administration. There are 500 
there now, and there were 6,000 there in 2006 when the Bush 
administration obtained control over the Yuma Sector. Removing the 
Guard from its role on the border is the exact wrong thing to do. It 
will leave a gaping hole in law enforcement efforts, put more innocent 
lives at risk, and it sends a message--whether intentionally or not--
that the administration is not serious about border security.
    The sober truth is that the United States faces a substantial and 
immediate risk that the Mexican criminal enterprises will drive the 
United States' neighbor and second-largest trading partner into 
economic ruin in the next few years. There is no easy ``back down'' 
solution, no ``legalize drugs'' solution, and no ``seal the border'' 
solution. Mexican CEs pose a serious threat to U.S./Mexico commerce, 
which in turn poses a serious threat to the economic health of Mexico 
and therefore of North America.
    It is going to be a very difficult and costly road. It will require 
careful assessment of the options, none of which are easy or 
attractive, in an atmosphere unclouded by simplistic rhetoric relating 
to such things as hoping that organized criminals will give up 
lucrative criminal lines of business to get impunity from prosecution 
that they already have, hoping that they will show selfless patriotism, 
legalizing drugs, or sealing the border. It is time to put these 
impossible, ineffective, or irrelevant agendas aside and consider what 
must be done for the survival of North America's economic health. There 
is no easy way around it.
                               conclusion
    Mr. Chairman and Members, there are people in the United States and 
Mexico living in fear. They are victims of our Nation's appetite for 
drugs; victims of the Mexican cartels' thirst for power fueled by 
innocent blood; and they are victims of negligence by the Federal 
Government at the border. This must end. I am doing my best in the 
courts, but sometimes courts decline to enter into what they view as 
political issues that need to be dealt with by Congress. I ask you to 
please deal with this issue that is so crucial to our country.
                                APPENDIX
 countermeasures exhibit: the fundamental change in the essential goal 
                  requires fundamental strategy shifts
    The escalating power of the CEs in Mexico and the resulting threat 
to North America's economic stability are the core concern. This is 
because without adequate defense of commerce all sub-agendas fail--
judicial and government corruption reforms, social and labor programs, 
suppressing violence, drug and weapon interdiction, illegal 
immigration--all require viable representative government.
Containment No Longer Central
    Recognizing that the keystone of all other agendas is defense of 
legitimate commerce requires fundamental reconsideration of how we 
evaluate potential strategies. U.S. strategy relating to smuggling 
organizations has long been evaluated by measuring its effectiveness in 
terms of interdiction of drugs arriving in the United States. Policy 
considerations have been fundamentally a balance of the amount of 
resources required to get an acceptable interdiction result. 
Adjustments relating to domestic activities have been made in the 
relative share of resources devoted to interdiction, preventive 
education, and treatment, but the worst-case scenario has been 
marginally more drug use. That has changed. That containment model no 
longer applies because containment cannot avoid the emerging threat. 
The present core threat--the potential for economic collapse--can occur 
if drug interdiction remains constant or even if drug interdiction 
improves. The diversification of the CEs' criminal activities means 
that there could be a collapse that is not solely caused by drug 
smuggling. The most essential goal is no longer preventing prohibited 
imports--it is finding ways to preserve legitimate commerce. We simply 
cannot prevail by playing goalie--keeping the other side from getting 
smuggled drugs or humans past our border defense--so no matter how good 
we may get at playing goalie, it will not be good enough.
U.S. No Longer the Key Theater
    In the past, the U.S. efforts to control drug and human smuggling 
have been staged almost entirely in the United States with some 
relatively minor activities in Mexico. The present threat to commerce 
will be won or lost in Mexico. As discussed above, even sealing the 
border, if it were possible, would not save the North American economy 
from the CEs and it would not prevent the CEs from becoming entrenched 
in a collapsed Mexican state immediately south of our border.
U.S. Success No Longer Possible Without Mexican Success
    As a corollary of the above, the United States is no longer solely 
in control of the outcome. It must depend on Mexican action because if 
the Mexican government loses the battle for control of the trade 
routes, the United States and Mexican economies will be devastated 
without regard to U.S. efforts that take place exclusively in the 
United States. Quite simply, the United States cannot prevail in this 
struggle unless the Mexicans prevail. Geography is not optional--so we 
must succeed with the neighbor we have.
Much Strategic Thinking No Longer Appropriate
    Strategists in this field generally have drug-fighting backgrounds. 
They have observed and understand the devastating effect drug use has 
on the quality of life. They tend to focus on the flow of illegal 
drugs. Of course the flow of illegal drugs is a major concern, and the 
anti-drug efforts must continue. However, relegating the deeper and 
more significant threat to the general North American economy to the 
margins of strategic analysis leads to an allocation of resources that 
marginalizes the commercial threat. The threat to commerce is the key 
because economic collapse forecloses all other government efforts, 
including drug interdiction.
    Other strategists have international intelligence backgrounds. They 
tend to focus on the intramural ebb and flow of the fortunes of the 
various CEs. This focus has some positive effects, such as illuminating 
the fact that the CEs are not a monolith--an important circumstance 
that is generally absent in media accounts. CEs are quite different and 
behave differently in important ways. As examples, the Zetas are not 
derived from smuggling family roots, La Familia Michoacana fronts a 
social and pseudo-political agenda, asserting in effect a divine 
mission to murder and torture its drug-dealing rivals, the Gulf Cartel 
has substantially older leadership than others, and fragmentation of 
CEs presents significant law enforcement opportunities in addition to 
increasing CE casualties through inter-CE violence. While all of these 
differences are important because they indicate different tactical 
approaches against the respective enterprises, all of the CEs are 
arrayed against the rule of law and all of them together present the 
threat of economic strangulation, so focusing on the ebb and flow of 
their internal power struggles and shifting alliances as though they 
were competing soccer franchises distracts from addressing their 
collective threat to the economy. It also has the effect of placing too 
much emphasis on the importance of individual leaders, the removal of 
which is indeed important but is not the key to ultimate success.
    Consideration of just the raw total numbers in connection with the 
murder rate may also misdirect resources. The level of organized crime-
related murders in Mexico is staggering--now set by State Department 
sources at some 36,000 since the end of 2006, and rising sharply year 
after year, with over 15,000 in 2010 alone. However, identification of 
the reduction of this entire figure as a primary goal would not serve 
the preservation of U.S./Mexico commerce. Much less than half of these 
casualties involve police, military, and other non-drug-related members 
of society, such as kidnapping victims, journalists, clergy, and 
bystanders. It is this minority of murders that is directly related to 
economic concerns because it is these murders that undermine popular 
trust in government institutions and investment in Mexico. 
Investigation and prosecution of these crimes directly supports 
stability, investment in resources, and commerce. In contrast, the 
remainder of the death toll represents the fall-out from turf battles 
and internal strife among CEs. This part of the death rate rises when 
inter- and intra-CE competition rises, which often happens after the 
arrest or removal of a dominant CE figure, whether by government action 
or by internal action. So this portion of the death figure actually 
serves as a rough barometer of the government's success in stirring the 
CEs up by taking successful action against them and breaking them into 
warring fragments. Therefore, the fact that this part of the total 
figure was very high in 2010 and is climbing in 2011 is bad news 
primarily for the deceased, but not bad news for the survival of the 
economy.
Drug Consumption Decisions No Longer Just Personal
    Americans generally see drug involvement as an individual choice 
between avoiding illegal drug use and suffering jail, treatment, or 
marginal/stunted lives. Americans often view the actors as choosing 
their own course but not so much choosing consequences to others 
outside their immediate family and social circle--like choosing a 
career or a level of commitment to a healthy lifestyle. The stakes are 
now vastly different for those not directly involved in these 
decisions. Americans who choose involvement with Mexico-sourced drugs 
are choosing economic devastation for the rest of North America and 
political disenfranchisement for Mexican citizens. Mexicans who choose 
allegiance to the CEs in Mexico are making a similar choice. So success 
depends on elevating social consciousness to a degree that has not been 
necessary at any previous time on the drug issue. The level of 
collective social commitment to avoid Mexico-sourced drugs must be very 
high to overcome the reluctance of drug users to give up some of their 
sources or choices. No national cause has required this level of joint 
commitment of Americans on any issue since World War II.
                            countermeasures
    We--the United States and Mexico acting together--must act 
decisively now. It will require a close partnership with, and often 
following the leadership of, the Mexican government. The alternative is 
the catastrophic consequences of a destabilized Mexico.
Strategic Considerations Today
    Strategically, we first acknowledge that the most pressing threat 
is strangulation of U.S.-Mexico trade. This differs from the 
conventional wisdom of some strategists described above. Importation of 
illegal drugs and illegal aliens are of course enormous and multi-
faceted concerns. In addition to the harm these activities do to the 
United States, they also fuel the CEs. But the significance of these 
harms is overshadowed by the fact that if the Mexican economy fails, 
all efforts to control these CE activities will also fail because 
Mexican government resistance will disintegrate. The CEs will then have 
ready access to multiple alternative sources of income from the 
diversified criminal activities within Mexico and will have protected 
bases in northern Mexico from which to extend criminal operations into 
the United States. Our two countries have labored under high levels of 
drug and alien smuggling for many years. Therefore, we can continue to 
do so at least until the CEs are broken. But we cannot afford a failed 
Mexico. Defending U.S.-Mexico commerce and investment is therefore our 
most pressing focus.
    Strategic allocation of resources and priorities generally involves 
identifying the essential components of a criminal group or industry, 
focusing on those components that are most essential to the criminal 
activity and most vulnerable to governmental action, and attempting to 
bring specific remedies to bear on those pressure points on the 
criminal organism. As an example, movement of money from undocumented 
immigrants' sponsors to coyote organizations through an immediate 
payment mechanism such as Western Union is an essential element of the 
coyote business model in the Southwest. The coyote money arriving in 
Phoenix was a root cause of substantial violence--home invasions, 
kidnappings (i.e., theft of human cargo by rival coyotes), and inter-
coyote assaults and murders. The wire transfers are subject to law 
enforcement interference. So focusing on those transactions was a very 
effective strategy to combat coyote violence in Arizona in the 2001-
2009 time frame.
    Applying this strategic process to Mexican CEs points to focusing 
on their interaction with legitimate businesses, such as interaction to 
accomplish money laundering and interaction with business suppliers of 
necessary services and materiel, such as money movement, communication 
equipment, weapons, or vehicles. This presents challenges when applied 
to the Mexican CEs' diversified criminal activities. The expanded list 
of Mexican criminal enterprises' criminal activities includes petroleum 
theft, agricultural crop theft, product counterfeiting, cargo 
hijacking, business kidnapping, business extortion, and import/export 
fraud. These all require substantial business-directed infiltration, 
subversion, and corruption in the target industries. But U.S. law 
enforcement is generally ill-prepared and woefully understaffed to 
counter such attacks. Moreover, these activities are much more centered 
in Mexico than drug and human smuggling. U.S. law enforcement is 
particularly ill-prepared to conduct business-directed financial 
investigations in connection with businesses operating in Mexico.
    Ultimately, success or failure will pivot on two key fulcrums: The 
U.S. public's recognition that use of Mexico-sourced drugs is killing 
North America economically and the Mexican people's continuing support 
of their government's efforts to maintain the rule of law. If either of 
these fails, Mexico will likely descend into economic ruin and 
political instability, and large parts of the U.S. economy, 
particularly in the Southwest, will sink with it.
                     immediate term countermeasures
    In the immediate term, focusing on preserving U.S.-Mexico commerce 
points to several parallel goals:
    (1) Focusing U.S. and Mexican investigation and prosecution on the 
        CEs' incursions into commercial activities, with the 
        investigations centered in Mexico and the prosecutions in the 
        United States;
    (2) Cutting off CEs from sources of income, services, and materiel 
        that the United States has direct influence over, specifically 
        money laundering, including the payments for illegal drugs and 
        aliens, and the weapons flowing south from the United States; 
        and
    (3) Recasting and vastly expanding efforts to prevent and treat 
        U.S. use of Mexico-sourced drugs.
Investigations and Prosecutions
    The first of these focal points will require significant new 
approaches and resources:
            Business Outreach
    a. U.S. Government outreach to all U.S.-Mexico international 
businesses. Enlist as allies those that are in some way facilitating 
the CEs, wittingly or unwittingly. As examples, money transmitters and 
stored value program operators are used by CEs to transfer value from 
the United States to Mexico without the risk and expense of smuggling 
bulk cash. Hundreds of millions of illicit dollars pass through these 
systems annually. Review anti-money laundering programs and industry 
contribution of data relating to these transactions and gather industry 
insights into how the illicit money flows and how industry members 
could prevent or report it. ICE began similar efforts with its Trade 
Transparency Unit in 2009.
            Industry Teams and Strategies
    b. Recruit and train Federal and State investigators and 
prosecutors in the United States and Mexico to address specific 
criminal industries, to include petroleum theft, cargo hijacking, 
import-export fraud, kidnapping/extortion, and intellectual property 
theft (i.e., product counterfeiting) aimed at international businesses. 
Enlist victim businesses to educate law enforcement and to partner with 
law enforcement in focused attacks on these diversified criminal 
activities. Expand existing Federal and State racketeering efforts to 
support bringing trade-based civil and criminal racketeering cases in 
U.S. courts.
    The strategic analysis applied by these teams, as elsewhere, would 
start by identifying the components that permit the CEs to continue and 
prosper and thereby threaten U.S.-Mexico trade. It would proceed to 
identify those components that are most essential to the CEs' 
endangerment of the U.S.-Mexico economy, and then those components 
among them that are most vulnerable to Government attack.
    An effective strategy calls for objectively quantifiable, 
meaningful goals and objectives. The amounts of drugs seized and the 
number of arrests of CE participants have served this purpose badly. 
They measure the wrong metrics, and do so ambiguously. We need to focus 
on Mexican business measures, particularly businesses involving the 
border area, and on the effective net profit of the CEs. Certainly this 
second figure is particularly difficult to estimate and will require 
some incisive research, but this is a war of attrition, and we need to 
aim at the center of the target, so we need do the work necessary to 
estimate this figure and keep it ever in front of us as our ultimate 
measure of success. A goalie measures success by the number of saves. A 
warrior measures success by the eradication of the enemy.
            Coordinated and Data-Sharing Organization
    c. Collect these investigators and prosecutors in multi-agency 
collocated task forces modeled on the High Intensity Drug Trafficking 
Area (HIDTA) or Border Enforcement Security Taskforce (BEST) task 
forces. HIDTAs and BESTs presently dot the Southwest Border in 
strategic locations on the U.S. side. One BEST team already exists in 
Mexico City. These investigative operations would involve Mexican and 
U.S. investigators and focus on some specific areas of organized 
criminal conduct that directly attack commerce. The leaders on this 
list include petroleum thefts, truck and train cargo hijackings, 
extortion, kidnapping, and import-export fraud, but the list also 
includes financial industry segment. These particularly include the 
money transmitter and prepaid industries, which have both indicated 
willingness to work constructively with law enforcement.
    This kind of operation is not new to law enforcement. As an 
organizational model, the HIDTA example of multi-agency cooperation 
effectively crosses jurisdictional boundaries and cuts across different 
levels of government, and it can also be applied to multi-national 
cooperation and industry partners operating in an appropriate capacity.
    These groups would solicit industry participants' knowledge of 
their industry's vulnerabilities to penetration and victimization and 
acquire detailed understanding of the particular circumstances of CE 
attacks on that industry. Law enforcement would in turn pass on 
knowledge about the criminal organizations' activities and trends to 
industry to enable industry to assess threats and harden defenses. 
These groups would jointly encourage industries' coordination within 
and among themselves to alter practices to make victimization more 
difficult. They could also serve as bridges between industry and law 
enforcement and non-governmental organizations engaged in social 
programs, such as programs addressing the roots of gang recruitment, 
for example Todos Somos Juarez, created a year ago in the wake of the 
massacre of 15 non-gang-affiliated young people in Juarez by drug 
gunmen.
    These task forces would be located in both the United States and 
Mexico, particularly in commercial centers such as Monterrey, 
Hermosillo, Tijuana, Juarez, and Saltillo. They would be administered 
to accommodate Mexican leadership of these operations in Mexico and 
still allow them to bring the resulting criminal prosecutions and civil 
RICO cases in U.S. courts using U.S. statutes. Like the U.S. HIDTAs, 
they would depend heavily on non-Federal officers and prosecutors. 
Because the conviction rate in Mexico is under 5%, the United States 
and Mexico must rely on continued extradition support from Mexico, 
which is now extraditing record numbers of defendants, until the 
Mexican statutes and judicial system are prepared to assume full 
partnership in the prosecutions.
    One major impediment to the development of such coordinated trade 
preservation expertise is the lack of data connectivity among the law 
enforcement agencies most available to develop such cases. In 
particular, while each HIDTA is now independent, has its own way of 
doing business, and its own unique mix of law enforcement initiatives, 
they lack effective data connectivity in the Southwest, and of course 
in Mexico. Although the information stored at one HIDTA could be 
necessary to further an investigation in another region, existing 
intelligence-sharing mechanisms are not set up to provide smooth access 
to the data in near real time. Enhanced data connectivity would move 
the HIDTAs into position to serve as the foundation for the proposed 
new groups.
    d. Expand U.S. judicial and related support resources in the 
economic centers with most direct trade and business headquarter 
connections with Mexico, such as San Diego, Los Angeles, Phoenix, San 
Antonio, Dallas, Houston, New Orleans, Miami, and New York. Substantial 
new prosecutions require substantial new resources.
    The second of the focal points is money laundering, including bulk 
cash flow into Mexico. The strategic analysis described above 
identifies money laundering as an essential CE activity, one that 
directly leverages the CEs' infiltration of commerce and threat to 
trade, and one that is vulnerable to government action. Anti-money 
laundering enforcement has the triple advantages of attacking the 
economic incentive to engage in crime, making conducting a CE harder by 
interfering with the flow of money that CEs need to maintain their 
operations, and pointing investigations and prosecutions to dominant or 
corrupt participants and to specific CE operations by following the 
money trail back to them. Investments of CE proceeds in the United 
States are vulnerable to forfeiture and prosecution. The existing 
substantial efforts to locate and seize illicit money in transit should 
be expanded and better unified through intelligence sharing and 
resource coordination. Technologies such as tracking devices and 
license plate readers should be fully integrated into this intelligence 
coordination. Additional research into alternative means of value 
movement should cover black market peso exchange money laundering, 
other trade-based money laundering, and stored value devices.
    Regarding the flow of weapons, cross-border multi-jurisdictional 
task forces similar to those described above must focus on the 
reduction of the flow of weapons into Mexico. These prosecutions would 
include racketeering actions against U.S. gun sellers who are aware 
that their sales are facilitating Mexican CEs. Racketeering 
prosecutions could also be used to vindicate civil liability for 
providing substantial assistance to CEs in connection with the shooting 
deaths of Mexican police officers with weapons traced to those selected 
complicit U.S. sellers.
    These efforts should be supported by National legislation 
controlling movement of weapons into Mexico, such as requiring 
reporting of multiple sales of high-risk long guns (e.g., AK-47-style 
assault rifles) and large ammunition sales, and banning certain assault 
rifles and high-caliber weapons (e.g. .50 cal. weapons).
    The money and gun interdiction efforts will take place largely in 
the United States. Law enforcement resources for these efforts are now 
made possible in part by the presence of the National Guard, which 
contributes directly to these efforts and also makes resources 
available that would otherwise be required to do things that the Guard 
does. Keeping the National Guard on the border is therefore an 
important objective.
    The third of the focal points, preventing and treating use of 
Mexico-sourced drugs, will require, above all else, broad recognition 
of the consequences of funding the Mexican CEs by using Mexican-sourced 
drugs. A massive public education effort would get the truth to 
potential consumers, who, once aware of the consequences, will do the 
right thing. U.S. consumers have dramatically changed attitudes toward 
drunken driving and smoking once made aware of the consequences. They 
will also do so with regard to the threat to the economic survival of 
Mexico, the extreme violence, and the erosion of the quality of life in 
Mexico that are the consequences of Mexico-sourced drug use in the 
United States. U.S. consumers have not done so because they do not know 
the facts. The Merida Initiative contained an explicit commitment to 
invest more resources in demand reduction. The administration has not 
adequately funded such efforts, although it has acknowledged the role 
of U.S. consumers in the CEs' rise. We can't continue to make empty 
promises. Nor can we fail to inform the public of the threat when 
informing the public is the best way to reduce that threat.
                            the time factor
    The above immediate term goals would have been timely if begun 4 
years ago when President Calderon began his initiative. Experience with 
new or rapidly expanding government operations counsels that these 
operations will take significant time to get into effective motion, but 
time is now very short. This time factor calls for some action that 
could buy breathing space to allow these initiatives to gain momentum.
    This is a war of attrition in which the enemy is receiving vast 
amounts of income. At the same time, the enemy is not frugal, and is 
not saving its income. On the contrary, the gunmen who are responsible 
for the violence are living life day-to-day, spending freely in the 
shadow of a consciously or subconsciously held (and well-founded) 
belief that they will probably die an early death. A sudden and 
substantial loss of criminal income would create a cash flow crisis and 
massive disruption of operations, disloyalty, and internal strife, 
particularly among the young guns for whom the allure of sudden wealth 
makes their high-risk, high-adrenalin life glorious in their eyes.
    The United States and Mexico, working together, probably have the 
capacity to create a short-term (6 to 18 months) cash flow crisis by 
moving decisively to cut off southbound cash and guns and, 
incidentally, northbound smuggled goods--drugs and humans. This would 
be a fully bi-national program, as with all of these proposals, 
involving Mexican support in the form of extraditions and access to 
defectors, in addition to mirroring U.S. efforts on the south side of 
the border. The particulars of such an operation are beyond the scope 
of this discussion. The obstacles are daunting. Moving investigators or 
officers to the border or to off-border theaters with direct effect on 
the border is complex and can be prohibitively costly in short terms. 
Identifying precise efforts that could be ramped up in a short time and 
that will have surgical effects on CE income is obviously difficult. 
Nevertheless, a concerted and coordinated effort to create a cash-flow 
crisis has not been done before. If successful, it would buy time to 
effectuate other longer-term countermeasures. It is worth the effort 
for the appropriate U.S. and Mexican representatives to attempt to work 
out the particulars of such an effort and assess its potential.
                            long-term goals
    Focusing on preserving U.S.-Mexico commerce points to other long-
term goals, including:
    1. Expand support of Mexico's on-going reforms of its judicial 
        system to make it more transparent, more resistant to 
        corruption, and therefore more credible in its results;
    2. Support of freedom of the Mexican press by assisting with 
        investigations of intimidation and assassination of journalists 
        and other media representatives;
    3. Form joint anti-corruption initiatives partnering with U.S./
        Mexico international businesses to address corruption that 
        affects U.S./Mexico trade;
    4. Support of on-going Mexican reforms of the Federal and State 
        police by offering training and technical support of Mexican 
        law enforcement agencies and the Mexican military;
    5. Promote more effective Mexican statutes adapting concepts from 
        U.S. forfeiture, racketeering, and terrorism statutes to the 
        Mexican legal framework;
    6. Reduce the availability of young gunmen in northern Mexico by 
        restructuring manufacturing opportunities, perhaps by 
        encouraging plants to move from population centers, improving 
        working conditions, and matching job supply and local demand 
        for jobs more effectively to minimize excess labor supply.
    7. The joint investigation and prosecution efforts described as 
        immediate-term objectives and the training, statutory, and 
        labor-related objectives described above imply a final set of 
        objectives aimed at cross-border communication and cooperation. 
        In addition to training, the United States and Mexico must fund 
        and revitalize joint legislative and executive groups such as 
        trade groups, border governors, border attorneys general, 
        judicial conferences, and other similar non-governmental groups 
        that serve to break down barriers to joint law enforcement and 
        judicial cooperation.
                               conclusion
    Although the situation is dire, it is not hopeless. Mexico has 
indicated its will to survive by enacting sweeping judicial and anti-
money laundering reforms. It is in the process of effecting fundamental 
anti-corruption measures. It is using military and newly created law 
enforcement capabilities and it is working with U.S. law enforcement 
more closely than at any time in memory. By acting now and working 
together we can still defeat this common enemy.

    Mr. McCaul. Thank you, Mr. Horne. I would go on to say that 
it is a Constitutional obligation, not a political obligation, 
to protect the border. We have failed the States, the Federal 
Government has.
    Mr. Horne. That is correct.
    Mr. McCaul. Sheriff Gonzalez.

   STATEMENT OF SIGIFREDO GONZALEZ, JR., ZAPATA COUNTY, TEXAS

    Sheriff Gonzalez. Thank you very much. Mr. Chairman, good 
morning and thank you for the invitation to appear before you. 
Ranking Member Keating, also thank you, sir, and, of course, my 
Congressman, Dr. Cuellar.
    Mr. Chairman, we formed in 2005 a coalition of sheriffs, 
because we were frustrated with our Government's inability to 
preserve and protect the border. We were seeing many, many 
things that were happening, especially the criminal element 
coming into the country, that we were very, very concerned 
about the murderers, people that have tried to kill police 
officers, child rapists who were coming back into our country. 
We were, of course, very, very much concerned with that.
    We formed a coalition in 2005 and 2006. The sheriffs in 
Arizona, New Mexico, and California joined us in our efforts to 
speak with one voice to see if maybe then our Government, our 
Federal Government, would listen to us and provide some type of 
assistance to us.
    Mr. Chairman, I define domestic terrorism based on the 
Federal Government's definition under 28 CFR, Section 0.85. 
That being, sir, and for the last seven words of this 
definition, citizens living along the Southwest border, would 
very much apply under the terrorism statutes.
    That is, sir, ``the unlawful use of force and violence 
against persons or property to intimidate or coerce a 
government, the civilian population, or any segment thereof''--
for the exception of this last seven words--``in furtherance of 
political or social objectives,'' we would have definitely 
domestic terrorism along the border, if not for the political 
and social objectives.
    Again, many people in our jurisdictions are very much 
afraid of what is happening in Mexico, yes. However, there is a 
very, very, as far as I am concerned, spillover violence 
towards our country.
    People perhaps claim that, if you are not involved in 
narcotics trafficking, you have nothing to worry about. Well, I 
differ with that, because there are many people that have 
gotten caught at the wrong place at the wrong time.
    We have seen, Mr. Chairman--and I have attached to my 
written testimony some photographs as attachments--we have seen 
armed individuals coming into our country. We no longer see 
individuals, or we still see some, but we now see also 
individuals coming into our country that are being escorted by 
armed individuals--individuals with machine guns on them, 
individuals that have been given instructions by the drug 
trafficking cartels in Mexico to shoot it out with law 
enforcement officers. Otherwise, they are going to have to pay, 
or they lose their load.
    In my situation, I have had deputy sheriffs in two 
different locations being shot at by smugglers of narcotics. I 
have also seen ``wannabes''--but fortunately, my deputy sheriff 
who got injured seriously--where these individuals are 
transporting narcotics from Mexico that are being smuggled 
through our very porous border, are ramming our vehicles, 
causing our deputy sheriffs to roll over in their vehicles.
    April last year we saw a kidnapping attempt, one of several 
that we have had in Zapata County. Fortunately, we were able to 
obtain some information and were able to stop the kidnapping 
from taking place. This did not stop the cartels in Mexico from 
trying again. Fortunately, again, we were able to spoil--or 
rather, foil--the second one also.
    Questioned, they were looking for a 34-year-old in Zapata 
County who has been missing now for almost a year. He was 
abducted in Zapata County in the United States by Mexican drug 
trafficking organizations, or ``wannabes.''
    Again, we have seen the very ruthless, brazen, and open 
behavior of these cartels. When it comes to things like that, 
we are very much outgunned, and we are very much, you know, 
out--or over-powered, rather.
    On different occasions, again, we have tried to stop these 
individuals. We have been shot at. We have also seized, in our 
jurisdiction, weapons and ammunition going to Mexico.
    Yes, I admit that they were going to Mexico. However, 
information we received from them also was that part of this 
ammunition would remain in the United States, so whenever the 
cartels would come into the United States to continue their 
operations, they would be ready on the U.S. side of the border 
with ammunition and weapons to defend themselves.
    Now, I am talking here about ammunition such as .50-caliber 
machine guns, which we, of course, do not have. I really do not 
care to have them, but these are what the cartels are using.
    In my attachments, I also have attached a photograph of 
some hand grenades that were also caught in Zapata County, 
Texas--also, perhaps, destined for Mexico. Information again is 
that they were going to be--part of them were going to be left 
in Zapata County, or in the United States, for whenever this 
individual would come into the country.
    Again, we have seen on an almost daily basis what I define 
as spillover violence. We have defined it this way. We have 
defined spillover violence as, if there is a reaction by U.S. 
law enforcement for an action that occurs in Mexico or in the 
United States. That is the definition of our coalitions.
    We see it on an almost-daily basis along the border. The 
carjackings, the kidnappings, home invasions, the extortions, 
the shooting at officers from Mexico into the United States, or 
the individuals escorting loads. We see members of drug 
trafficking organizations going to police officers' homes in 
the United States to threaten the families.
    We have, of course, seen the prison gangs and street gangs 
working with Mexican drug trafficking organizations, for all of 
this, again.
    Some of them are politicians. When I say politicians, I 
consider myself a public servant. But politicians will disagree 
with me about spillover violence. We do have spillover 
violence.
    Yes, like Mr. Cuellar mentioned, Congressman Cuellar, it is 
relatively safe on the U.S. side of the border. It is. However, 
we still have those worries about things that do happen.
    We see, of course, individuals such as a single mother in 
Starr County, Texas, that every time there is gunfire in 
Mexico, right across the border, she has to jump under her bed 
along with her three daughters, because bullets hit her home in 
Starr County, Texas.
    We see that in El Paso. We have seen it in Brownsville, 
Texas, where colleges have had to be, you know, they have had 
to be awoken and evacuated, because of shootings. Ranchers in 
our jurisdictions are getting tired of people going through 
their property.
    We are seeing also, of course, what we saw last year, a 
rancher, Robert Krentz in Cochise County, Arizona, get 
murdered. Right before that we saw two Border Patrol agents in 
California get murdered, repeatedly run over by cartels--on the 
U.S. side of the border--shot 10 times, once between the eyes 
as a message to law enforcement.
    We all saw the shooting of another Border Patrol agent in 
Arizona not even a year ago.
    We have seen also what happens, for example, in Falcon 
Lake, the best bass-fishing lake in the Nation. That is in 
Zapata County, Texas.
    Mr. Chairman, you mentioned Ms. Hartley is present, and she 
has had an opportunity, of course, and I have had opportunity 
to talk to her on many occasions.
    Yes, her husband was killed in Mexico. However, the cartels 
in Mexico were warned that they were going over there, by spies 
that they have on the United States side of the border.
    We saw just what happened this last weekend, 13 individuals 
killed by drug trafficking organizations.
    Now, our problem there, Mr. Chairman, is that we were never 
warned by the Mexican government or our own Government about 
what is happening in Mexico, and for us to be cautioned--have 
cautioned us what happened.
    Some of these cartels stole boats in Mexico and came over 
to the United States side of the border. We were not aware of 
it.
    There has been many other things that have happened, Mr. 
Chairman, and I know that I am running out of time. However, 
Mr. Chairman, the National Drug Intelligence Center has given 
those figures of 286 cities in the country in 2008 that have 
had a presence of Mexican drug trafficking organizations.
    The same agency, the National Drug Intelligence Center, 
from the Department of Justice, also mentioned that in just 1 
year's difference, there was a difference of 286 cities being 
invaded by drug trafficking organizations.
    Mr. Chairman, the video I guess is showing right there, 
that is the video of cameras that we have with a grant from the 
Governor's Office. I do not know if it can be replayed from the 
beginning again.
    But very briefly, Mr. Chairman, before I conclude my 
statement to you, this is videotape taken from the United 
States side of the border with cameras that the Governor's 
Office has given us, a grant that is given us.
    We have been able to do in Texas in 3 years what SBI has 
not been able to do in billions of dollars in several years. 
This is proven technology.
    These are individuals crossing the border. Ninety-five 
percent of these cases--this is just six different clips--have 
been stopped by us, by Border Patrol, by local law 
enforcement--95 percent success rate.
    What you see there, Mr. Chairman, those are neighborhoods 
right by the riverbank, individuals running through 
neighborhoods with bales of marijuana.
    What you see in a little bit, you will see in thermal 
imaging a bridge. That is an international bridge. You will 
notice that the cartels were right under the bridge, right 
under our noses, are transporting their narcotics and humans 
into the United States.
    You will also notice, sir, that is a bridge right there 
that you see. You will also notice a home next to it and just a 
little bit on thermal imaging. That is an official United 
States port of entry that these individuals are going across--
feet away from the port of entry.
    So, Mr. Chairman, again, border sheriffs, we are very much 
concerned with what is happening and the very unique problems 
along the border. In almost 10 years, we have seen nothing but 
broken promises in protecting our Nation.
    September 11, 2001 was a very dark day in American history 
and the protection of a great Nation. What has changed in my 
backyard since then is very, very little.
    In Texas, Mr. Chairman, we have no choice. We have had to 
pick up the fight to save our counties.
    We did not ask for the battle of the border. However, we 
refuse to lose to criminals, Mr. Chairman. Border security is 
not a red issue. It is not a blue issue. It is a red, white, 
and blue issue. It concerns us.
    We have been fortunate to receive some funding for 
Operation Border Star, an operation from the State of Texas; 
Operation Stonegarden from our Federal Government. We wish that 
maybe our Federal Government would consider a BASI, a border 
area security initiative, such as what you have now in urban 
area security initiative, but this time include just the border 
area.
    We do have problems with information sharing. It is so 
unfortunate that our Federal partners did not want to appear in 
public with us, because that is one of the problems we have 
sometimes about sharing information.
    Again in conclusion, Mr. Chairman, thank you for the 
opportunity. As I have always stated, sir, there cannot be 
homeland security without border security.
    Thank you, Mr. Chairman, for what you do for our country. I 
appreciate everything you do, sir, and I would be more than 
glad to answer any questions that you may have.
    [The statement of Mr. Gonzalez follows:]
             Prepared Statement of Sigifredo Gonzalez, Jr.
                              May 11, 2011
    Chairman McCaul, Ranking Member Keating, Members of the committee, 
it is an honor and a privilege to be invited to appear before your 
committee to discuss Border Security and Homeland Security issues from 
the view of local law enforcement.
                              introduction
    Because of frustration in knowing that our Government was doing 
little to nothing in protecting our international border, Texas 
sheriffs along the Texas-Mexico border formed the Texas Border 
Sheriff's Coalition in May 2005. Subsequently, in March 2006, and for 
the same reason, border sheriffs from New Mexico, Arizona, and 
California joined our efforts and we formed the Southwestern Border 
Sheriff's Coalition. We felt then, and still do, that the 2,000-mile 
border with the Republic of Mexico is very much unprotected, wide-open, 
and extremely porous.
    The first and foremost priority of our coalitions is protecting all 
residents of this country against a terrorist act without regard to 
race, sex, color, or ethnic origin. We continue to believe that many 
persons have entered our country with intentions of harming us. We 
continue to believe that terrorists have expressed an interest and a 
desire to exploit the existing vulnerabilities in our border security 
to enter or attack the United States of America.
                         border vulnerabilities
    Domestic Terrorism--Defined--Code of Federal Regulations: `` . . . 
the unlawful use of force and violence against persons or property to 
intimidate or coerce a government, the civilian population, or any 
segment thereof, in furtherance of political or social objectives.''\1\ 
For the exception of the last seven words of this definition, people 
living along the Southwest border, as well as other areas of our 
Nation, have experienced and/or are presently experiencing some form of 
``domestic terrorism''.
---------------------------------------------------------------------------
    \1\ 28 C.F.R. Section 0.85.
---------------------------------------------------------------------------
    There have been many instances where individuals coming into the 
United States, some armed with firearms, have been reported by 
landowners. Some of these landowners set up game cameras on their land. 
Some of these cameras have photographed armed individuals crossing 
their land. These individuals were probably drug or human smugglers 
that were armed while escorting, or ``protecting'', whatever it was 
that they were tasked to protect. Figure 1 on the attachments shows 
these individuals. These smugglers will not hesitate to engage law 
enforcement in the United States.
    In many counties along the border, police receive reports from 
informants of kidnappings in their respective counties. Individuals are 
kidnapped and taken to Mexico for ransom. Family members seldom file 
official reports due to fear of retaliation. In Zapata County, as well 
as in other counties along the border, we receive reports from 
informants of kidnappings in our counties.
    On April 2, 2010, a kidnapping was thwarted in Zapata County, 
Texas. Enforcers of the Zeta Cartel were sent to Zapata County to 
kidnap and take to Mexico an individual who they thought had provided 
information to the Zapata County Sheriff's Office regarding a marijuana 
transaction. They were to kidnap the Zapata resident and take him to 
Mexico where they were to kill him, videotaping the killing. Four of 
the six involved are from the Mexican state of Durango, another from 
Zapata, and yet another from Roma, Texas. Information was obtained 
about the kidnapping, surveillance was conducted, and arrests were 
subsequently made. The cartel kept trying. Another attempt was recently 
foiled by law enforcement.
    The FBI's Assistant Agent-in-Charge of the McAllen, Texas, office, 
John Johnson, now retired, testified before a joint hearing of the 
Border and Intergovernmental Affairs Committee and the Public Safety 
Committee of the Texas House of Representatives that kidnappings had 
almost doubled between October 2008 and September 2009. He stated that 
most were connected to the drug trade. He was quoted as saying that 
``Fiscal Year 2009 was off the charts.''\2\
---------------------------------------------------------------------------
    \2\ Texas House of Representatives joint meeting of the Border & 
Intergovernmental Affairs Committee and the Public Safety Committee, 
April 29, 2010.
---------------------------------------------------------------------------
    Abductions are also very common along the United States side of the 
border of South Texas. I am still searching for a missing 34-year-old 
Zapata resident. This resident was tricked and subsequently abducted in 
Zapata County by Mexican cartel wannabes. It is believed that he was 
killed somewhere either in Zapata County or Mexico. This case is still 
under investigation.
                             border threats
    Through intelligence information we have learned that several 
murders along the Texas-Mexico border, have been orchestrated by 
members of drug cartels operating on both sides of the Rio Grande 
River. These drug cartel enforcers cross the Rio Grande River, some 
illegally in areas other than a designated port of entry, commit their 
murders, or other crimes in the United States, then go back to Mexico, 
again, via the Rio Grande River. They are very well-armed and are 
determined to accomplish their goal.
    Prison and street gangs in the United States have formed 
partnerships with Mexican Drug Trafficking Organizations (DTOs) and are 
their enforcers in the United States.
    More and more, law enforcement is seeing, and citizens are 
reporting, armed individuals entering the country via the Southwest 
border through areas other than a port of entry. It is a matter of time 
before a shootout will occur between law enforcement and armed drug/
human smugglers. In the unfortunate event of a shootout, Federal, 
State, and local officers along the Southwest border, seeing the 
weapons used by the cartels (Attachments Figures 2 and 3), are not 
adequately armed. Compared to the ruthless, brazen, and open behavior 
of these cartels, law enforcement is certainly outmanned and outgunned.
    On two different occasions within the last year, deputy sheriffs 
were shot at while they were trying to apprehend individuals who had 
absconded when they were stopped for a traffic violation. Drug 
smugglers are also ramming law enforcement vehicles during pursuits. I 
recently lost one brand new vehicle when a drug smuggler rammed our 
vehicle while trying to elude us. As a result of the ramming, the 
vehicle rolled over and was a total loss. Luckily, the deputy sheriff 
driving it was not seriously injured.
    In Zapata County, Texas, during one operation, deputy sheriffs 
seized several rounds of .50 caliber cartridges during a traffic stop. 
The ammunition was seized from individuals that were working for the 
Zeta Cartel. The ammunition, along with camouflage netting and night 
vision equipment, was believed to be headed towards Mexico (Figure 4 in 
the Attachment Section). Speculation was that if the ammunition was not 
to be taken to Mexico, it was going to be stockpiled along the border 
in the event the war in Mexico would end up in Texas. More of these 
types of seizures have occurred in many areas of the Texas-Mexico 
border. On December 16, 2010, a reported gang member was arrested in 
Zapata County after 30 hand grenades were discovered hidden under the 
spare tire of the vehicle he was driving (Attachment Section Figure 5).
    In confirming the above, the National Drug Intelligence Center has 
stated that ``drug traffickers in the South Texas High Intensity Drug 
Trafficking Area (HIDTA) region use sophisticated surveillance, 
counter-surveillance, and communication techniques to aid their 
trafficking operations. Mexican DTOs maintain cells that monitor law 
enforcement activities and the smuggling operations of rival 
traffickers.''\3\
---------------------------------------------------------------------------
    \3\ National Drug Intelligence Center, U.S. Department Of Justice, 
Drug Market Analysis, South Texas High Intensity Drug Trafficking Area, 
2008.
---------------------------------------------------------------------------
    According to a 2008 report of the National Drug Intelligence Center 
(NDIC), U.S. Department of Justice, drug traffickers and gang members 
involved in drug smuggling frequently commit assault, automobile theft, 
burglary, extortion, and murder throughout the United States, 
specifically the South Texas border area to facilitate smuggling 
activities and to protect their operations from rival trafficking 
organizations and gangs.
    This same agency, in a Situation Report published on April 11, 
2008, illustrate that Mexican Drug Trafficking Organizations are the 
most pervasive organizational threat to the United States. The DTOs are 
active in every region of the country and dominate the illicit drug 
trade in every area of our Nation. Federal, State, and local law 
enforcement reporting reveals that Mexican DTOs operate in at least 195 
cities throughout the United States.\4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Justice, National Drug Intelligence Center, 
Situation Report, April 11, 2008.
---------------------------------------------------------------------------
    A similar report published by the NDIC in April 2010, revealed that 
in 2009, Mexican DTOs operated in 1,286 cities. The report indicates 
that the NDIC assessed this information with high confidence. It should 
also be noted that in the same report there is a caveat that the 
increase does not necessarily represent an increase in Mexican DTO 
activity but the difference could simply reflect a significant change 
in the information collection methodology.\5\ I tend to disagree with 
the explanation of the NDIC. From speaking to law enforcement officers 
from other parts of the Nation, Mexican DTOs are in fact very active in 
cities all across the United States.
---------------------------------------------------------------------------
    \5\ U.S. Department of Justice, National Drug Intelligence Center, 
Situation Report, April 2010.
---------------------------------------------------------------------------
    Information has been received by law enforcement that there have 
been times that rogue members or ``wannabes'' of Mexican DTOs have 
contemplated killing a police officer on the U.S. side of the border. 
It is believed that Mexican DTO higher-ups have never approved of such 
killing as this would draw many law enforcement officers and military 
personnel to the border area, thus, halting their smuggling operations. 
Two Federal agents (Border Patrol) have been killed at the California/
Mexico border, and one at the Arizona/Mexico border. Our U.S. 
Government basically continues to fail to acknowledge these senseless 
killings by young punks.
                           spillover violence
    Although many persons would disagree with me on the definition of 
spillover violence, there is a constant threat to counties along the 
Southwest border of our country of spillover violence from Mexico. Some 
of the threats law enforcement and residents along the border deal with 
on an almost-daily basis include, but are not limited to, the 
following:
  <bullet> kidnappings,
  <bullet> carjackings,
  <bullet> home invasions,
  <bullet> extortions,
  <bullet> shooting from Mexico at U.S. law enforcement officers, 
        local, State, and Federal,
  <bullet> armed individuals escorting drug and human loads into the 
        United States,
  <bullet> members of Mexican DTO's visiting the homes of U.S. officers 
        to threaten them and their families,
  <bullet> drug/prison/gang members working for Mexican DTO's,
  <bullet> undocumented/deported criminals re-entering the United 
        States, including murderers and child sex molesters, and,
  <bullet> auto theft (vehicles are used for smuggling of humans and 
        drugs).
    Even though some of our politicians will negate the existence of 
spillover violence from Mexico, the above criminal violations are 
spillover violence as far as I am concerned. When people in the United 
States fear the cartels in Mexico, even if they are not involved in 
drug trafficking, but are afraid to be at the wrong place at the wrong 
time in their own country, this is terrorism which to me is the fear of 
spillover violence.
    Shootings in Mexico along the U.S.-Mexico border are very common 
across the border in the South Texas and the El Paso areas. On many 
occasions bullets from gun battles in Mexico have landed or hit 
structures on the U.S. side of the border. A police chief in South 
Texas who lives alongside the Rio Grande River hears the gunshots and 
sees the plumes of smoke and the flashes of grenades going off just 
yards from his residence. He wonders if his home will have any bullet 
holes when he awakens the next day. This happens often. Federal agents 
have documented these same incidents.
    A single mother living in Starr County, Texas, has to hide under 
her bed, along with her young daughters, every time she hears gunshots 
in Mexico. Bullets from gun battles in Mexico have struck her home. 
Figure 7 on the attachment shows the bullet indentations to her home.
    It is also known that bullets from gun fights in Mexico have also 
struck colleges/universities in El Paso and Brownsville, Texas. The 
City Hall in El Paso was also struck. The college dorms in Brownsville, 
Texas, have been evacuated in the middle of the night due to gun 
battles in Matamoros, Tamaulipas, Mexico.
    An elementary school in San Ygnacio, Texas, in Zapata County, was 
placed on ``lockdown'' last year due to someone hearing a gunshot 
across the river in that small community. San Ygnacio sits on the banks 
of the Rio Grande River. Children, ages 4 to 12, had to lie on the 
floor at their school for several hours until the threat was over. 
Parents frantically went looking for their children at the school only 
to be told they could not release any of the children because of the 
lockdown.
    Often, residents in our communities call upon local law enforcement 
every time there is a gunfight in Mexico. Residents of the United 
States are afraid that bullets from .50 caliber guns, or cartel 
members, will end up in their bedrooms. Most of America does not 
realize that these gunfights are just yards away from homes along the 
riverbank in the United States. The last incident regarding threats of 
bullets hitting a home in Zapata County was on April 13, 2011. Across 
the river in Starr County, Texas, gunfights happen on an almost daily 
basis.
    Federal officials at one of the international bridges in Laredo had 
to call the local police department for assistance after the threat of 
gunfire on the streets of Nuevo Laredo, Mexico, by the international 
bridge. Emergency calls are often made by bridge Federal officers to 
the Laredo Police Department requesting assistance.\6\
---------------------------------------------------------------------------
    \6\ Recording of 9-1-1 call to Laredo Police Department requesting 
assistance after a gun battle in Nuevo Laredo, Mexico www.pro8news.com/
news/local/87295207.html (last visited May 7, 2011).
---------------------------------------------------------------------------
    Hired escorts of illegal aliens and narcotics, known as coyotes of 
years ago, are very different today. Due to the openness and brazen 
behavior of these new coyotes, or cartels, these individuals are now 
armed and make demands of residents living along the riverbank. Many 
landowners constantly complain about their fences being cut by human 
and drug smugglers. The repairing of landowners' fences becomes very 
expensive. Some of these landowners decide not to repair their fences 
since it is very costly for them. They complain to local officers about 
the trash left on their properties. Some of the trash is eaten by their 
livestock, causing their livestock to die.
    In other counties along the border, residents are now scared with 
the big influx of immigrants coming across their property. These 
immigrants are not the same as what we saw 2-3 years ago. Many of the 
immigrants have tattoos across their chest or back advertising what 
gang they belong to and demand from the residents living along the 
border to use their phone or other necessities. They no longer ask for 
things but rather they demand. These landowners, who have lived on 
their farms for decades, choose to move away from their properties. 
Farmers along the border have reported to sheriffs that they have fear 
when working their fields. They report having their homes surrounded by 
drug or human smugglers until they are forced to leave. They report, 
with a lot of fear, when their homes get invaded by persons coming 
across the border and hide in their garages. Many residents living 
along the river live in fear.
    In a newspaper article appearing in the San Antonio (Texas) 
Express-News newspaper, the former county judge of Kleberg County, 
Texas, Judge Pete de la Garza, was quoted as saying, ``I do not go to 
the back of my ranch after dark,'' after discussing the different types 
of individuals coming across his ranch. The article mentions that Judge 
de la Garza runs cattle on about 500 acres and that undocumented 
immigrants in the area used to be harmless and poor Mexicans looking 
for work, whom his family would help with food and water as they passed 
through, but that now he and his family are personally taunted on his 
own property in recent years.\7\
---------------------------------------------------------------------------
    \7\ San Antonio Express-News, posted on the web on 10/13/2006. 
Article written by Jesse Bogan, Rio Grande Valley Bureau.
---------------------------------------------------------------------------
    Like Judge de la Garza, many landowners from San Diego, CA, to 
Brownsville, TX, have complained to county sheriffs that they fear 
living on their farms or ranches, or of going to their property after 
dusk. Some have chosen to sell their land or to move to towns and 
cities instead of living the comfortable and quiet lives on their own 
property. Farmers along the border have reported to sheriffs that they 
have fear when working their fields.
    On March 27, 2010, Cochise County, Arizona, rancher Robert Krentz 
was killed while on his ranch. It was very well known that Mr. Krentz, 
just like Judge de la Garza and his family would always help illegal 
immigrants coming through his property. He would do this in order to 
prevent these illegal aliens from destroying things on his property. It 
is believed that Mr. Krentz was killed by a drug smuggler who was 
discovered in the act of smuggling narcotics.
    In the small community of Kinney County, in April 2010, four 
suspects forced entry into a residence, beat the homeowner, and stole 
cell phones, a vehicle and cash. The homeowner stated that the invaders 
carried backpacks and appeared to be illegal immigrants.
    There are many areas within the 2,000-mile Southwest border that 
are used for recreational purposes, some private and some public. 
Falcon Lake, located in Zapata County, Texas, is an international lake 
and is considered by many to be the best wide-mouth bass fishing lake 
in the Nation. Falcon Lake and the Rio Grande River are used by Mexican 
fishermen for commercial fishing.
    Mexican DTOs issued a warning to commercial fishermen that anyone 
caught on Falcon Lake after dusk would be treated as a threat. They did 
this to ensure that if anyone was doing any smuggling without paying 
the tax they would be shot out of the water. Unfortunately, this also 
applied to law enforcement conducting operations on the lake or river. 
It was also reported that the drug traffickers would defend their loads 
at all costs against law enforcement.\8\ The Zeta Cartel currently 
controls the corridor along Falcon Lake, the ``plaza'' or turf, in 
Mexico that borders Falcon Lake. This cartel is well known for their 
use of extreme violence.
---------------------------------------------------------------------------
    \8\ Texas DPS, BIA, Awareness Bulletin, 11/05/08.
---------------------------------------------------------------------------
    On May 17, 2010, the Texas Department of Public Safety, in 
coordination with the Texas Parks and Wildlife Department and my 
office, put out a joint news release warning boaters on Falcon Lake to 
stay on the U.S. side of the lake and not to venture into Mexico. There 
had been at least three reported incidents of individuals getting 
robbed on the lake when in Mexican waters.\9\
---------------------------------------------------------------------------
    \9\ Texas DPS, Media Relations Office, News Release, May 17, 2010.
---------------------------------------------------------------------------
    It had been discovered several months before that, that tons of 
marijuana were being stored by the Zeta Cartel in an area across from 
Zapata, Texas, on the Mexican side of Falcon Lake, known as Arroyo 
Salado. When U.S. fishermen ventured into Arroyo Salado as they would 
always do to fish for their prized bass, they were accosted by cartel 
enforcers demanding to know who they were in order to rule out the 
possibility that these fishermen were not spies for their rival Gulf 
Drug Cartel.
    On September 30, 2010, Colorado residents David and Tiffany Hartley 
ventured into Arroyo Salado on their jet skis. They wanted to go into 
Old Guerrero (Mexico) in Arroyo Salado to take pictures of a now 
submerged church in the old town. This submerged church is a popular 
tourist attraction. David and Tiffany took their pictures and were on 
their way back to the United States when they were chased by commercial 
fishing boats while they tried to outrun them. The fishing boats were 
occupied by enforcers of the Zeta Cartel. These enforcers were shooting 
at them and a bullet hit David in the back of the head. He fell into 
the water. Tiffany headed back to the U.S. side of the lake to summon 
help after not being able to load her husband's 250-pound body on her 
jet ski. Other than contacting Mexican authorities, there was very 
little U.S. law enforcement could do to help.
    As of today's date, the body of David Hartley has not been found 
and it is believed that the body will never be recovered.
    During the Hartley investigation, it was learned that DTO's in 
Mexico were forewarned that two jet skis were headed to the Arroyo 
Salado area, the stronghold of the Zeta Cartel. The DTO's were warned 
by some of their own spies doing surveillance at the public boat ramp 
in Zapata, Texas. These DTO's have spies on the U.S. side of the border 
at every border crossing in Texas.
    I have caused to be placed two 48 signs, one each in English and 
Spanish, at each of the boat ramps in Zapata County warning U.S. 
fishermen to stay away from Mexican waters. A photograph of one of the 
signs can be found in Figure 8 of the Attachments Section of my 
testimony.
    The National Drug Intelligence Center reported that increased 
operations in the United States and Mexico may be causing slight 
disruptions to some drug smuggling operations along the U.S.-Mexico 
border in South Texas.\10\ This, I believe, is attributed to increased 
patrol by local sheriff's offices.
---------------------------------------------------------------------------
    \10\ National Drug Intelligence Center, U.S. Department of Justice, 
Drug Market Analysis, South Texas High Intensity Drug Trafficking Area, 
2008.
---------------------------------------------------------------------------
    In Laredo, Texas, a U.S. Border Patrol agent had to shoot and kill 
a suspect when he was attacked by the suspect while a marijuana load 
was being smuggled. More assaults against Federal and local agents have 
been documented.
    On February 2 of this year, two individuals believed to be Zeta 
cartel members were chased into the United States in Zapata County, 
Texas, by Mexican military forces. These individuals were taken into 
custody by U.S. Federal officials. The chasing of cartel members into 
the United States is somewhat common. Recently, a body was recovered 
from the Rio Grande River in Starr County, Texas. The body was clad in 
a military uniform. Under the uniform the body revealed street 
clothing. This individual was either killed by cartel members or the 
Mexican military thinking he was a Mexican soldier and then dumped in 
the river or in the process of escaping death in Mexico he tried to 
flee into the United States and drowned. A picture of the body has been 
included in the Attachment Section as has been marked as Figure 9. U.S. 
law enforcement has to respond to incidents such as this--known to me 
to be ``spillover violence''.
    The National Drug Intelligence Center (NDIC) issued a report in 
response to heightened interagency concern over the mounting threat 
posed to U.S. National security from increased violent activity 
associated with drug trafficking along the U.S.-Mexico border. The key 
findings of the report found that:
  <bullet> Mexican drug traffickers engage in violent offenses--
        including kidnappings--within U.S. communities along the 
        Southwest border.
  <bullet> Mexican drug cartels train enforcement groups and cell 
        members to perpetrate kidnappings in the United States and 
        Mexico. Cartel-run training camps are typically located in 
        Mexico; however, in 2008, law enforcement authorities 
        discovered a training camp in South Texas that was operated by 
        members of the Gulf Cartel's enforcement arm, Los Zetas.
  <bullet> Mexican DTOs also use U.S.-based prison and street gangs to 
        carry out enforcement-related activities, including kidnappings 
        in the Southwest Region.
  <bullet> Drug-related kidnappings are increasing in some U.S. cities 
        near the Mexico border. The actual number of kidnapping 
        incidents is most likely higher, since many drug-related 
        kidnappings are not reported because the victims are involved 
        in drug trafficking or are fearful of deportation.\11\
---------------------------------------------------------------------------
    \11\ U.S. Department of Justice, National Drug Intelligence Center, 
Situation Report, June 2009 and U.S. Department of Justice, NDIC, 
Situation Report, June 2009.
---------------------------------------------------------------------------
    Another matter that I feel threatens the security of Texas and the 
Nation is the constant incursion of Mexican military helicopters into 
Texas land. These incursions are more common now and more frequent. I 
have personally reported these incursions and have been told by my own 
Federal Government that these incursions did not exist and that there 
was no record of any such flyovers. I have attached a copy of a letter 
received from a new media outlet indicating no such incident after a 
request for information was sent to the FAA. It is included in the 
Attachment Section as Figure 11. The photographs of the Mexican 
military helicopters are marked as Figure 10. This goes to show that 
the radar system utilized by our Federal Government is not working. 
These aircrafts fly into our country at what witnesses describe 
``treetop'' level.
    Lately, we have received information that Mexican DTOs are planning 
on fighting for what they call the Medina Addition plaza (plaza means 
turf in Spanish) in Zapata County, Texas. Medina Addition is a 
subdivision of the town of Zapata, Texas, and is known for harboring 
cartel members from Mexico. This has caused many problems for my 
office. The majority of our calls for service come from this 
subdivision because people are afraid. The fighting for this plaza is 
between the Gulf Cartel and the Zeta DTO.
    I mention this plaza, or turf, fight because Mexican DTOs 
apparently do not care about law enforcement in the United States and 
it further proves that these Mexican DTOs are attempting to take over 
more cities and towns in the United States. The same applies to 
juvenile gangs in our country forming to start working for Mexican 
DTOs. Prison/jail gangs are also doing the same thing.
    What has been reported to my office now more and more is 
individuals that invade homes, or are seen getting out of vehicles and 
going into areas covered with brush, wearing hoods on their heads to 
hide their identity and carrying firearms. They are supposedly gang 
members in the United States that are hired by the Mexican DTOs to act 
as their enforcement arm in the United States. They have at times 
approached individuals that have been mistaken for the ones they are 
supposed to target.
                                summary
    Border sheriffs are very concerned with the very unique problems 
along our border. In 9 years we have seen broken promises of protecting 
our great Nation. September 11, 2001, was a dark day in American 
history and the protection of a great Nation. What has changed since 
that day along the border and in my backyard? Very little.
    In Texas, our legislature, with State monies, has funded a border 
security initiative that has literally shut down criminal enterprises 
in several Texas counties.
    We did this with State funds and working with other partners on an 
initiative that puts law enforcement in the driver's seat instead of 
the cartels, smugglers, and border crossing criminal entrepreneurs. 
This should have been done on September 12, 2001, by our Federal 
Government. The lack of Federal funding for local law enforcement to 
provide border security hasn't just failed me and my law enforcement 
comrades . . . it has failed Americans. Almost 10 years from that day 
and the border remains open to smuggling operatives, criminal 
organizations, and people aimed at destroying this Nation.
    In Texas we have no choice; we have had to pick up the fight to 
save our counties and our country. We didn't ask for this battle on the 
border . . . but we refuse to lose to criminals! Border Security is not 
a red issue or a blue issue . . . it is a red, white, and blue issue.
                                solution
    Fortunately for our constituents in Texas, the Texas Legislature 
during the 80th (2007) and 81st (2009) Legislative Sessions granted the 
request of Governor Rick Perry and appropriated several million dollars 
for border security. I honestly believe that sheriffs along the Texas-
Mexico border have used the share awarded them very prudently.
    On the Federal side, funding appropriated thru Operation 
Stonegarden has helped. It is the desire of local law enforcement 
agencies located along the Southwest border that more of this funding 
be available for purposes of hiring personnel, such as is done with the 
COPS grants.
    An initiative similar to an Urban Area Security Initiative (UASI) 
managed by DHS should be initiated and focused on making money 
available for border agencies. Said initiative could be designated as a 
Border Area Security Initiative, a BASI, where local law enforcement 
agencies within 25 miles from the Southwest border would be funded to 
perform ``border security'' operations. Sheriff's offices along the 
border with Mexico are in need of additional funding for overtime for 
employees but at the same time they are in need of augmenting their 
manpower to enhance patrolling along the border. Criminal entrepreneurs 
must stop the illegal activities and their threats against a free 
society.
    Sheriffs are the ones that respond to emergencies called in by 
their constituents. Sheriffs work in places other than paved roads. 
Local law enforcement works not only paved roads and highways, but also 
unpaved county roads, the riverbank, and other areas known to harbor 
and facilitate contraband entering illegally into the United States. 
Local officers know the area and the terrain they work at. They know 
the residents. They know the ranchers and farmers that traverse the 
various county roads. Local officers have a vested interest in their 
communities.
    Information sharing amongst Federal, State, and local law 
enforcement agencies is extremely important. Sharing of information 
among the agencies needs to be improved, especially when it is expected 
from Federal agencies.
    The Texas Border Sheriff's Coalition was awarded a grant by Texas 
Governor Rick Perry's Office to install cameras along the border. This 
project, known as Blue Servo, has been very successful. We have been 
able to do in Texas in 4 years and with $4 million what Secure Border 
Initiative (SBI) could not do in years with billions of dollars. The 
cameras can be viewed on the internet by any persons that logs in to 
www.blueservo.net. They can then become virtual deputies and assist 
Texas sheriffs in monitoring drug smuggling activity. This program has 
proven to be very successful with virtual deputies from through the 
world. It is my understanding that DHS-Border Patrol has now copied our 
system and is installing cameras next to the ones that have been put up 
by TBSC.
                               conclusion
    Committee Members, unfortunately the border with Mexico is still 
not secure and as far as local law enforcement is concerned, it has not 
changed much for the positive. There cannot be homeland security 
without border security. Our Southwest border needs immediate 
attention. Local officers answer emergency calls for assistance made by 
our constituents. We are in fact the first responders.
    I want to express my most sincere appreciation for allowing me the 
opportunity to appear before you today and thank you for the work you 
do for our Nation.
    Chairman McCaul, this concludes my statement. I will be pleased to 
answer any questions that you or Members of the committee may have.
                              Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. McCaul. Thank you, Sheriff. Let me say thank you for 
your service to the State and the country, and for the State of 
Texas standing up. The Federal Government needs to stand up 
with you.
    With that, I am going to go out of order. I apologize, 
Chief. We have a Member who has to leave in just a few minutes. 
Mr. Duncan wanted to ask the panel a question.
    I yield to the gentleman.
    Mr. Duncan. Thank you, Mr. Chairman.
    I thought it was interesting, Mr. Horne, that you mentioned 
400,000 folks. You used the word ``invasion.'' We have been 
invaded numerous times.
    I study the Constitution. Article IV, Section 4, guarantees 
every State that joins the union or a republican form of 
government would also guarantee protection against invasion. 
That is a role of the Federal Government. Invasion is a word 
that does not just mean a military invasion. So, I think that 
was spot-on.
    I am a Member of a number of committees here in Congress, 
and I am a Member of the Natural Resources Committee and 
interested in on-going environmental battles that go on, 
especially on the Southern border, environmental regulations 
that prevent Border Patrol from accessing the border.
    So, really, I want to address this to Mr. McCraw, I guess. 
In addition to serving on this committee, I mentioned I serve 
on Natural Resources. I notice in your written testimony you 
state that the State of Texas has had to devote a lot of its 
own funds and resources to border security.
    So, have you found instances where the Federal 
environmental regulations have impeded the State's ability to 
secure the border and apprehend illegal aliens?
    Mr. McCraw. Well, yes, sir. If you will talk to Border 
Patrol, they will tell you one of their--a serious threat to 
their agents, and also it diminishes their ability to locate 
individuals, drug traffickers as well as illegal aliens, is the 
Carrizo cane and the salt cedar. It is not a natural--in fact, 
it is a drought weed.
    It is growing up along the river banks, and the cartels use 
it to their advantage. You cannot see on both sides. You know, 
if someone is shooting from them, you do not know where they 
are at. Clearly, there is no reason to have it.
    So, I know Border Patrol has been working with the Federal 
Government, the EPA. I know we from the Department of Public 
Safety, you know, we have worked at the bequest of our sheriffs 
and chiefs of police to work with--and farmers and ranchers--
work with Todd Staples, who is our commissioner of agriculture. 
There is a biological that will take care of that.
    It was just that--but yet, and here we are, 3 years after 
we have identified the biological. If you go down there and 
take a look, salt cedar and the Carrizo cane is still there.
    Mr. Duncan. Sheriff Gonzalez, I noticed on the video you 
showed either with infrared vision, some of that natural cover 
is truly cover, even for heat sensors and what not. So, I think 
that is interesting.
    I found out recently that there is a lizard that is 
preventing a lot of the fencing being put up. That lizard can 
be identified by being flipped over and dissected, basically to 
find out if it is the endangered one, versus--just, you know, 
to identify.
    I put a lizard in here to crawl up that wall right there. I 
know it will crawl over a fence. I see it every day in South 
Carolina with different lizards.
    Have you seen anything, Sheriff, along those lines?
    Sheriff Gonzalez. We do have a problem with the growth, 
especially in a community called San Ignacio, where this growth 
is all the way up, you know, all the way down to the riverbank. 
We are not able to see anything or anybody coming across.
    You get into this growth, Mr. Duncan, you will notice that 
there is what we call, like, tunnels under all this growth 
where smugglers went through there all the time. We cannot see 
them, though.
    But, yes, we definitely, like Mr. McCraw stated, we need to 
get rid of some things like that. In that area, as far as I 
know, there is nothing that would prevent a lizard, like what 
you are talking about, that would prevent them from being----
    Mr. Duncan. Thank you very much.
    Mr. Chairman, I yield back, and thank you for your ability.
    Mr. McCaul. Now the Chairman recognizes Chief Rodriguez for 
his testimony.

 STATEMENT OF VICTOR RODRIGUEZ, MC ALLEN POLICE DEPARTMENT, MC 
                          ALLEN, TEXAS

    Cheif Rodriguez. Chairman McCaul, Ranking Member Keating 
and all the Members, it is an honor to be before you today. On 
behalf of the city of McAllen and the McAllen Police 
Department, I extend our thanks for the opportunity to provide 
this testimony.
    The subject of the violence in Mexico brings us together 
today. There is some, maybe a great degree, of impression that 
the violence in Mexico is limited to the U.S.-Mexico border, 
and that U.S. cities in that border area are experiencing the 
same lawlessness.
    It is true. Violence in Mexico continues unabated. Horrific 
acts of violence, gruesome killings, mass murder, and countless 
atrocities typify the violence in Mexico today.
    Whereas we tend to believe that this lawlessness occurs 
only in the border region of Mexico, there appears to be no 
part of Mexico that has been spared by such violence. Whereas 
we tend to believe that the reach of drug trafficking 
activities, whether such be drug trafficking or drug-related 
violence, is limited to our border communities, there is no 
corner of our country that has been immune from the effects of 
that reach.
    We know that people in Mexico live in constant fear, not 
just for their safety, but for their lives, the lives of their 
children, and for their personal property. Their stories are 
pure horror.
    We often listen to them. We listen to them, because they 
escape to the United States and to our communities. They come 
to our communities, because they feel safe here.
    All of them get here as fast as they can. They envy our 
ability to simply call 9-1-1 and get a police response, and 
trust the system.
    Citizens in Mexico do not have a 9-1-1 that they trust.
    Their safety, and often their lives, are at the mercy of 
what they encounter on any given day.
    All of this, however, is in Mexico. My city is a border 
city. It is, as any other U.S. city, and in many cases a 
better, safer, less crime-ridden city. I would say that such is 
the case for all of Texas' border cities.
    We are thriving communities. We are growing communities. 
All of our border cities are part of the economic engine of 
Texas.
    We get up every day. We send our kids to school, and we go 
to work every day, just like other Americans throughout our 
country.
    Nonetheless, there are important questions to explore. It 
is important to see clearly through the fog of all of this.
    There is no question that drug trafficking at the hands of 
Mexican drug trafficking organizations poses a concern for all 
of us in the United States. There is no question that the 
violence in Mexico at the hands of Mexican drug trafficking 
organizations poses a concern for all of us in the United 
States. There is no question that the apparent unreliability of 
the criminal justice system in Mexico poses a concern to all of 
us as well.
    So, the questions are: Is the violence in Mexico 
unprecedented?
    Does the violence in Mexico threaten the American criminal 
justice system?
    Does the violence in Mexico represent a public safety 
concern to us?
    I respectfully suggest that the answers are yes, no, and 
yes.
    For some time now, Mexico has suffered from an image that 
portrays corruption, drug trafficking, and drug-related crime 
and violence. The violence in Mexico today, however, is 
unprecedented.
    It is a war between drug trafficking organizations, and it 
has taken the form of direct challenges and firefights with the 
authorities in Mexico. If they, drug trafficking organizations, 
were forces from another country, Mexico could be seen as at 
war and not winning.
    Whereas these drug trafficking organizations exercise their 
will in Mexico, they cannot threaten our communities, our 
criminal justice system and our form of government in the same 
manner. This is because we have local, State, and Federal 
police officers that rise to the challenge every day.
    They are in the hunt every day. They identify, arrest, and 
prosecute bad guys every day. They seize contraband every day.
    More importantly, we have a criminal justice system behind 
these officers that is reliable, trustworthy, and it is not 
subject to be trampled on, ignored, or made irrelevant.
    These officers and this system are untiring. They never 
rest.
    I recognize, though, that we have victims of crime every 
day. However, the system they entrust for help is not 
threatened by criminals.
    Should we simply disregard all of this as something not 
occurring in our country? No. We seize thousands and thousands 
of tons of drugs that we know were trafficked by these drug 
trafficking organizations.
    Drug trafficking through Mexico spans decades. Every ounce 
of those drugs was unlawfully introduced into our country. In 
every case, drug trafficking organizations trampled on our 
borders.
    Today, multi-ton seizures are not uncommon.
    There are landowners today that fear working their lands, 
because of these constant incursions.
    To this end, we have built walls, fences, and added 
thousands of boots on the ground. It is obvious that doing less 
on this front is not acceptable.
    The violence in Mexico does not affect us--I am sorry, the 
violence in Mexico does affect us. There are acts of crime that 
reach beyond Mexico.
    Although we do not fear this violence as if it were an 
invading force at our doorstep, our watch is constant, and our 
concern is ever-present. The threat is not a visible army of 
criminals. That threat is invisible.
    That threat is drug trafficking money that creeps, 
infiltrates, and corrupts our communities. That threat is the 
crime that drug trafficking money causes. That threat is the 
criminals that drug trafficking organizations and their money 
buys.
    I would submit that it is prudent to be cognizant of the 
instabilities of our southern neighbor. It is prudent to 
contemplate worst-case scenarios. It is prudent to plan 
contingencies, and it is prudent to take measured steps.
    As we approach those steps, it is also prudent to consider 
that we are not a lawless frontier, and spillover does not mean 
an invasion.
    I suggest that the violence in Mexico is a concern that has 
brought us together. That very violence, the violence we decry 
today, occurs at the hands of U.S. weapons and ammunition 
unlawfully sold and exported to Mexico.
    Sadly, today we believe that we have lost one of our very 
own ICE agents to U.S. weapons and ammunition.
    I respectfully suggest that we study, propose, and pass 
legislation that more tightly controls the sale, resale, 
purchase, multiple purchases, possession, and transportation of 
weapons and ammunition. There is nothing right now that talks 
about ammunition in terms of laws against it.
    I respectfully suggest that we propose and pass legislation 
that more tightly controls, more severely criminalizes the 
unlawful sale, resale, purchase, multiple purchase, possession, 
transportation, and exportation of weapons and ammunition.
    I realize that these suggestions put our right to bear arms 
front and center. I do not wish to trample on that. However, I 
believe that our right to bear arms is not a right to arm a war 
in a foreign country.
    Approximately 70 percent of murders in Texas are committed 
by firearms. Few will contest that over 90 percent of the 
weapons and ammunitions in Mexico are U.S.-made.
    I believe that in addressing weapons and ammunition in this 
manner, we will make our communities safer.
    I suggest that we control our borders outbound through 
steady-state port of exit inspections similar to port of entry 
inspections.
    Please study, propose, and pass legislation that creates a 
steady-state law enforcement presence at our ports of exit. We 
need effective, efficient, southbound inspections designed to 
encourage compliance with U.S. laws and to deter exportation of 
guns, ammunition, stolen property, and fugitives.
    We have built human fences, real fences. We have built 
virtual fences. Those fences have great big holes in them--the 
ports of exit. They serve as express lanes to Mexico.
    Those ports of exit are our last defense. Whereas criminal 
activity in Mexico sometimes extends beyond Mexico and into our 
streets, it does so, because they can simply escape to their 
safe havens in Mexico.
    We must deter that mentality. If we do not, and escape to 
Mexico is merely an exercise, then the violence in Mexico will 
be ours to confront.
    Let us deter and stop the unlawful exportation of guns and 
ammunition. Let us stop the daily southbound, unimpeded flow of 
our citizens' stolen vehicles and stolen property. Let us stop 
the daily southbound, unimpeded flow of murderers, rapists, sex 
offenders, violent offenders. Steady-state southbound 
inspections will do that.
    Finally, I suggest that the underlying bases of these 
threats is illicit money. Money corrupts people and systems. 
Illicit money is the real threat. It is that invisible threat.
    Immediately following the attacks on us on September 11, we 
moved to identify and freeze financial assets. We moved in the 
direction of human intelligence and investigations. I suggest 
that the violence in Mexico and the threat it poses to Mexico 
and to our communities require a September 11-type of response 
for our country.
    Please study, propose, and pass legislation that creates a 
border financial crimes task force. Not only is this 
proposition an effective tool, but it will serve as a direct 
counter to the problem. It will serve as that line in the sand.
    We must answer this concern. We need coordinated, 
regionalized, investigative law enforcement to help identify 
and act against violent offenders and criminal organizations.
    In this context, Mr. Chairman, if you gave me a choice 
between 500 boots on the ground or 25 investigators, I would 
say 25 investigators. Let us investigate the money.
    We should move against illicit funds associated with 
criminal organizations. We owe our communities a comprehensive 
and responsible action.
    I thank you for this opportunity and hope that we have 
contributed to a better America.
    [The statement of Mr. Rodriguez follows:]
                 Prepared Statement of Victor Rodriguez
                              May 11, 2011
    Mr. Chairman, Honorable Members of the committee, it is an honor to 
be before you today.
    On behalf of the city of McAllen and the McAllen Police Department, 
I extend our thanks for the opportunity to provide this testimony.
    The subject of the violence in Mexico bring us together today.
    There is some, maybe a great degree, of impression that the 
violence in Mexico is limited to the U.S.-Mexico border and that U.S. 
cities in that border area are experiencing the same lawlessness.
    It is true, violence in Mexico continues unabated.
    Horrific acts of violence, gruesome killings, mass murder, and 
countless atrocities typify the violence in Mexico today.
    Whereas we tend to believe that this lawlessness occurs only in the 
border region of Mexico, there appears to be no part of Mexico that has 
been spared by such violence.
    And,
    Whereas we tend to believe that the reach of the drug trafficking 
cartel's activities, whether such be drug trafficking or drug-related 
violence, is limited to our border communities, there is no corner of 
our country that has been immune from the effects of that reach.
    We know that people in Mexico live in constant fear, not just for 
their safety, but for their lives, the lives of their children and for 
their personal property.
    Their stories are pure HORROR.
    We often listen to them. We listen to them, because they escape to 
the United States and to our communities. They come to our communities 
because they feel safe here. All of them get here as fast they can.
    They envy our ability to simply call 9-1-1, get a police response 
and TRUST the system. Citizens in Mexico, do not have a 9-1-1 system 
that they trust.
    Their safety and often their lives are at the MERCY of what they 
encounter on any given day.
    ALL of this however IS Mexico.
    My city is a border city. It is as any other U.S. City and in many 
cases, a better, safer, and less crime-ridden city. I would say that 
such is the case for all of Texas' border cities.
    We are thriving communities. We are growing communities. All of our 
border cities are part of the economic engine of Texas.
    We get up everyday.
    We send our kids to school and we go to work everyday just like 
other Americans throughout our country.
    Nonetheless, there are important questions to explore. It is 
important to see clearly through the FOG of all of this.
    There is no question that drug trafficking at the hands of Mexican 
Drug Trafficking Organizations poses a concern for all of us in the 
United States.
    There is no question that the violence in Mexico at the hands of 
Mexican Drug Trafficking Organizations poses a concern for all of us in 
the United States; and
    There is no question that the apparent unreliability of the 
criminal justice system in Mexico poses a concern to all of as well.
    So the questions are:
    Is the violence in Mexico unprecedented?
    Does the violence in Mexico threaten the American criminal justice 
system?
    Does the violence in Mexico represent a public safety concern to 
us?
    I respectfully suggest that the answers are YES, NO, and YES.
                  violence in mexico is unprecedented
    For some time now, Mexico has suffered from an image that portrays 
corruption, drug trafficking, and drug-related crime and violence.
    The violence in Mexico today, however, is unprecedented. It is a 
war between drug-trafficking organizations. It has taken the form of 
direct challenges and firefights with authorities in Mexico.
    If they, the drug trafficking organizations, were forces from 
another country, Mexico could be seen as being at war and NOT winning.
the violence in mexico does not threaten the american criminal justice 
                                 system
    Whereas these drug trafficking organizations exercise their will in 
Mexico, they cannot threaten our communities, our criminal justice 
system, and our form of government in the same manner.
    This is because we have local, State, and Federal police officers 
that rise to the challenge every day. They are in the hunt everyday. 
They identify, arrest, and prosecute bad guys everyday. They seize 
contraband every day.
    Most importantly, we have a criminal justice system behind these 
officers, that is reliable, trustworthy, and it is not subject to be 
trampled on, ignored, or made irrelevant.
    These officers and this system are untiring. They never rest.
    I recognize that we have victims of crime every day. However the 
system they entrust for help, is not threatened by criminals.
        the violence in mexico is a public safety concern to us
    Should we simply disregard all this as something not occurring in 
our country?
    No.
    We seize thousands and thousands of tons of drugs that we know were 
trafficked by these Drug Trafficking Organizations. Drug trafficking 
through Mexico spans decades. Every ounce of those drugs was unlawfully 
introduced into our country. In every case, Drug Trafficking 
Organizations trampled on our borders.
    Today, multi-ton seizures are not uncommon.
    There are landowners today that fear working their lands because of 
these constant incursions.
    To this end, we have built walls, virtual fences, and added 
thousands of boots on the ground. It is obvious that doing less on this 
front is not acceptable.
    The violence in Mexico does affect us. There are acts of crime that 
reach beyond Mexico.
    Although we do not fear this violence as if it were an INVADING 
FORCE at our doorstep, our watch is constant and our concern ever-
present.
    The threat is not a visible army of criminals, the threat is 
invisible.
    The threat is drug trafficking money that creeps, infiltrates, and 
corrupts our communities. The threat is the crime that drug trafficking 
money causes. The threat is the criminals that drug trafficking money 
buys.
    I would submit that it is prudent to be cognizant of the 
instabilities in our southern neighbor, it is prudent to contemplate 
worst-case scenarios, it is prudent to plan contingencies, and it is 
prudent to take measured steps.
    As we approach those steps, it is also prudent to consider that we 
are not a lawless frontier and spillover does not mean an invasion.
                         weapons and ammunition
    The violence in Mexico is the concern that has brought us together 
today. That very violence, the violence we decry today occurs at the 
hands of U.S. weapons and ammunition unlawfully sold and exported to 
Mexico.
    Sadly, today we believe that we may have lost one of our very own 
ICE agents to U.S. weapons and ammunition.
    I respectfully suggest that we study, propose, and pass legislation 
that more tightly controls the sale, resale, purchase, multiple 
purchases, possession, and transportation of weapons and ammunitions.
    I respectfully suggest that we study, propose, and pass legislation 
that more tightly controls and more severely criminalizes the unlawful 
sale, resale, purchase, multiple purchases, possession, transportation, 
and exportation of weapons and ammunition.
    I realize that these suggestions place our right to bear arms front 
and center. I do not wish to trample on that. However, I believe that 
our right to bear arms is not a right to arm a WAR in a foreign 
country.
    Approximately 70% of Murders in Texas are committed by firearms. 
Few contest that over 90% of the weapons and ammunition in Mexico are 
U.S.-made.
    I believe that in addressing weapons and ammunition in this manner, 
we will make our communities safer.
                  southbound steady-state inspections
    I respectfully suggest that we control our borders OUTBOUND through 
steady-state port of exit inspections, similar to port of entry 
inspections.
    Please study, propose, and pass legislation that creates a steady-
state law enforcement presence at our ports of exit.
    We need effective and efficient southbound inspections designed to 
encourage compliance with U.S. laws and to deter exportation of guns 
and ammunition, stolen property, and fugitives.
    We have built human fences, real fences, and we have built virtual 
fences. Those fences have great big holes in them: The ports of exit. 
They serve as express lanes to Mexico.
    Those ports of exit are our last line of defense. Whereas criminal 
activity in Mexico sometimes extends beyond Mexico and into our 
streets, it does so because they can simply escape to their safe havens 
in Mexico.
    We must deter that mentality. If we don't, and escape to Mexico is 
merely an exercise, then the violence in Mexico will be ours to 
confront.
    Let's deter and stop the unlawful exportation of guns and 
ammunition.
    Let's stop the daily southbound unimpeded flow of OUR citizen's 
stolen vehicles and stolen property.
    Let's stop the daily southbound unimpeded flow of murderers, 
rapists, sex offenders, and violent offenders.
    Steady-state south bound inspections will do that.
                   border financial crimes task force
    Finally, I suggest that the underlying basis for of these threats 
is illicit money. Money corrupts people and systems.
    Illicit money is the real threat. It is that invisible threat.
    Immediately following the attacks on us on September 11, we moved 
to identify and freeze financial assets. We moved in the direction of 
human intelligence and investigations.
    I suggest that the violence in Mexico and the threat it poses to 
Mexico and to our communities, requires a September 11 type of response 
from our country.
    Please study, propose, and pass legislation that creates a BORDER 
FINANCIAL CRIMES TASK FORCE.
    Not only is this proposition an effective tool, it will serve as a 
direct counter to the problem. It will serve as that ``line in the 
sand''. We must ANSWER the concern.
    We need coordinated, regionalized investigative law enforcement to 
help identify and to act against violent offenders and criminal 
organizations.
    In this context, if you gave me a choice between 500 boots on the 
ground or 25 investigators, I would say 25 investigators. Let's 
investigate the MONEY.
    We should move against illicit funds and assets associated with 
criminal organizations.
    We owe our communities comprehensive and responsible action.
    I respectfully thank you for this opportunity and hope that we have 
contributed to a better America.

    Mr. McCaul. Thank you, Chief. Let me say that I agree with 
you. I know Congressman Cuellar does, as well. The interdiction 
of that southbound cash, how important that is.
    I think you are right. We need a bold effort here.
    I recognize myself.
    Let me just say how--I just want to say thank you for 
showing up. I know you had to travel a long ways on an airplane 
at your own expense. Again, I apologize for the duration of the 
prior panel.
    We got the Washington response to this in the prior panel, 
and now I believe we are getting the State and local response, 
the people on the ground, where this is happening, you know, 
where the threat really is.
    It is interesting how different those points of view are. 
Many times it is different between Washington and the rest of 
the United States.
    When Secretary Napolitano, though, stated that border 
security is better now than it has ever been, and the President 
agreed with her, just recently in El Paso, I want to go one by 
one and ask whether you agree with that statement or not.
    Mr. McCraw.
    Mr. McCraw. I did not hear the statement, but I will say 
this, that we are concerned, the fear is the increasing threat, 
that the border is not secure more than it ever was.
    There has been some successes. We would love to see all the 
Federal resources. But the bottom line is, it is not secured. 
Until it is, we are not going to be happy.
    Mr. McCaul. Mr. Horne.
    Mr. Horne. I disagree with the statement. I think if she 
would meet with some ranchers on the border, as I have, she 
would get an earful as to the extent to which things are much 
worse than they were.
    She has some statistics that show some improvement. But if 
I could give an analogy, if we were to reduce her salary to 
$5,000 a year, and then the next--this is just an analogy, it 
is not a proposal--but then the next year, double it to 
$10,000, that would be a 100 percent increase. But it would 
still be inadequate in absolute terms.
    I think the same thing applies here. Even if there has been 
some improvement in numbers, the absolute situation is totally 
unacceptable. I mentioned 400,000 people a year crossing in the 
Tucson region alone. Even if that were a decrease from the 
prior year in absolute terms, it is utterly unacceptable.
    Things are going to be getting, possibly getting much 
worse, because the support for President Calderon politically 
for his heroic actions is waning. So, things could get much 
worse.
    So, to promote complacency at this time, I think is very 
dangerous and scary.
    Mr. McCaul. I agree with the President Calderon comment. I 
think the window is shutting. His time is coming to a close, 
and he is really an effective partner that we need to be 
helping more in a post-Merida operation.
    Sheriff, the same question.
    Sheriff Gonzalez. Mr. Chairman, with all due respect to 
Secretary Napolitano, I know that she has been somewhat 
responsive to our needs. We communicate often through somebody 
in her office.
    But there has not been too much change in the border, sir. 
It is not more secure than it has ever been. We still have 
problems.
    I really have not seen any change since, like my statement 
read, since September 11, 2001. It is getting more violent. The 
smugglers are getting more brazen. They are given orders to 
confront us.
    So, it is not as if it is more secure.
    Think, for example, of not taking sometimes our cases 
regarding illegal immigrants. That brings your totals down. But 
we cannot just release them back into our communities, a lot of 
times, because they are criminals. Some of them are criminals.
    Mr. McCaul. I wanted to follow up on a point you made, the 
Border Area Security Initiative Grants. We have UASI grants, 
which are urban area. But we do not have the border area grant 
funding. Would that be helpful to the border sheriffs?
    Sheriff Gonzalez. It most certainly would, Mr. Chairman. As 
I have discussed before, we are doing sometimes, unfortunately, 
the jobs of the Federal Government.
    We have to be the ones who--we are the first responders. We 
are the ones who have to respond to what happens on Falcon Lake 
and everywhere else. The Federal Government does not respond.
    So, yes, we do need the funding.
    With all due respect also, sir, there have been a lot of 
Federal agencies, specifically like, for example, Border 
Patrol. I am not speaking bad, but they now have 22,500 agents.
    How many of those agents are really going to the border, 
and how many are going to task force? How many are going to 
programs and schools? How many are going to programs at 
shopping malls?
    In other words, if you give me 10 deputy sheriffs, I am 
going to have 10 deputy sheriffs on the border, and that is 
what they are going to do, and not doing other stuff.
    Mr. McCaul. Chief Rodriguez, the question about is the 
border--more secure now than it has ever been?
    Cheif Rodriguez. Mr. Chairman, we should not rely on one, 
two, or three variables to make that call.
    I am afraid that the basis for those statements are less 
Border Patrol apprehensions and less detections of drugs 
through the Border Patrol. They have interpreted that to mean 
we are bringing this under control. That is just not reliable 
enough to make that statement, in my opinion.
    We have incursions every day. We have people that are 
afraid to go out on their property. They are afraid to go out 
on their property. That is un-American.
    So, if we rely on a set of numbers to simply make one point 
of view or the other, that will create a false picture of all 
of this. That is one of the problems that we are facing on a 
constant basis.
    Mr. McCaul. I could not agree with you more.
    I wanted to focus on the basis for this assumption. It is--
and Mr. McCraw, you worked in the FBI for many years--it is 
based on the Uniform Crime Report.
    When I heard the description of what the violence that they 
are perpetrating, it is extortions, kidnappings, cartel-on-
cartel violence. Yet, those very crimes are not part of the 
measurement under the FBI's Uniform Crime Report.
    What is your opinion in terms of that not being an accurate 
assessment when we talk about spillover violence?
    Mr. McCraw. Well, you saw our data was established with the 
process back in 1930. Over the years, it is no longer 
applicable. We are talking about index crimes. It does not 
reflect what is going on on the ground in near-real time.
    For example, smuggling, trespassing, vandalism is, one, the 
increase of organized criminal activity, corruption. As you 
noted, the non-index crimes--kidnappings, extortions, and 
recruitment of our kids, child prostitution--where is that a 
good thing?
    You know, if you cannot reflect all those factors, if you 
cannot reflect the manifestation of violence that is not just 
at the border, but ends up in our cities, reflected by the 
Texas syndicate, Mexican mafia, Hermanos Pistoleros Latinos, 
and other gangs that are working directly for these cartels, 
then you have a false understanding of what that threat is.
    You are kidding yourself, because you are not going to 
secure the border through definitions.
    Mr. McCaul. I think that is an excellent answer. I do not 
think we are getting an inaccurate picture by this report that 
the administration is relying upon. In fact, you did quote a 
statistic about El Paso, which is always touted as the safest 
city in the United States, but an increase of 1,200 percent in 
the murder rate this year.
    Mr. McCraw. Yes, sir, as reported by the El Paso Police 
Department. That is the problem when you start using the 
Uniform Crime Report statistics that are dated to try to 
reflect what is actually going on.
    Another thing is that, the activities that we talked about, 
what you heard the chief talk about, are not happening in the 
cities, because we take a very proactive law enforcement 
presence. We are not going to allow cartels and gangs to move 
up and down into our cities.
    But where the smuggling activity is occurring is between 
the ports of entry.
    Mr. McCaul. Right.
    Mr. McCraw. The latest look at the Uniform Crime Reports, 
and I think that the Secretary will find, is that, if you 
segregate what the sheriffs are having to deal with, there is 
an increase in everything except stolen vehicles.
    Mr. McCaul. Well, I would like to work with your office, 
and all offices along the border and DOJ, to get a more 
accurate assessment for what is the level of violence, because 
I do not think we are getting the right, accurate picture.
    Special interest, they do not even know that number went up 
37 percent. That is a pretty frightening number when you are 
talking about people coming from countries of interest that 
could have terrorist ties, as well.
    I think, you know, even though the numbers of apprehensions 
have gone down, that number seems to be going up. That is a 
disturbing trend.
    Mr. McCraw. Well, and Texas has 74 percent of those special 
interest aliens across Texas that are apprehended.
    You hear us talk about, well, name one case, name one case. 
Obviously, the San Antonio Federal case of the Somalian is a 
significant concern, and underscores that this is not make-
believe, that you cannot secure your borders from foreign 
nationals penetrating them undetected and uninterdicted. It 
constitutes a threat. We will always have to be mindful of 
that.
    Mr. McCaul. I know that is a concern you and I have had, 
starting with 9/11.
    One last question, and I will yield to the Ranking Member.
    Mr. Horne, you started out unsolicited by saying you 
support the designation of a foreign terrorist organization for 
the drug cartels. You are obviously a lawyer by training, 
attorney general for a border State.
    Can you explain why you support that?
    Mr. Horne. Well, among other things, it makes it an 
enhanced crime to supply aid to those organizations. That 
obviously would be a very powerful tool in fighting them.
    Mr. McCaul. Yes. My view is, we ought to call them what 
they are. Their tactics are certainly like terrorists.
    With that I yield to the Ranking Member.
    Mr. Keating. Thank you, Mr. Chairman.
    I would just like to ask all of you, do you feel that a 
$350 million cut in Federal appropriations will hinder border 
security right now?
    Mr. McCraw. You need to increase funding in border 
security, not cut it.
    Mr. Keating. Mr. Horne.
    Mr. Horne. I agree.
    Sheriff Gonzalez. If you are talking $250 million reduction 
in border security, sir, I most certainly agree. You need to 
increase that way, way up.
    Mr. Keating. Thank you.
    Chief Rodriguez.
    Cheif Rodriguez. I agree with my panel members.
    Mr. Keating. My point is that that is what the House 
majority budget is doing. So, you should be well aware of that.
    Mr. Horne. I am a Republican elected official, and I am 
happy to be bipartisan, and agree with you that it should be 
increased.
    Mr. McCaul. I agree with the Ranking Member, as well.
    Mr. Keating. Hey, we are all agreeing.
    Just, you know, we could be here a long time, but I am just 
curious. I am just going to poke a few specifics, just to try 
and get a little more information, you know, so I can learn 
more specifically.
    But, you know, we are talking about coordination between 
countries. In my experience, it is pretty tough to have 
coordination among different law enforcement entities, even in 
your own country.
    Can you share any specifics as to how we can be better 
coordinated with Federal, State, county, local? Because there 
is just, I know, just from over a decade, that that is not what 
it always should be. Maybe we can look at some areas here in 
our own country that we have some control over, how we can 
better coordinate.
    Any suggestions, specifically?
    Mr. McCraw. Well, I have to actually commend our Federal 
partners and their leadership, certainly. I started with 
Operation Linebacker in the Texas border sheriffs.
    Right now we are conducting continuous operations between 
59--the local law enforcement, police departments, and 53 
sheriffs across from Brownsville all the way to El Paso, and 
using, you know, Texas Rangers, our State troopers and State 
trooper strike teams, aviation assets, and adopting a unified 
command structure to conduct information-driven patrol 
operations.
    No one has failed to share information or be a part of 
that. As a result, it is a force multiplier.
    Mr. Keating. Is that the experience of everyone, in 
general?
    Mr. Horne. I recently did a border tour with the border 
guard in their helicopters. I was very, very impressed. You 
know, I have disagreements at the top, but among the people who 
are actually doing the work, you cannot help but be impressed 
with how hard they are working and how brave they are.
    Mr. Keating. Sheriff.
    Sheriff Gonzalez. Mr. Keating, I was at one time the team 
leader for the DEA task force. Federal agencies sometimes, or 
most of them do not speak to each other.
    In a case with us right now, we would like to share as much 
information as we can. Unfortunately, sir, it does not always 
come back.
    I see there is some jealousy among some agencies sometimes. 
Federal agencies like to do long-term investigations. We are a 
reactionary agency. But we need to have more sharing of 
information, sir.
    Mr. Keating. Chief.
    Cheif Rodriguez. Mr. Keating, this problem needs an answer. 
That is what I have suggested along the ideas of creating a 
border financial crimes task force. That would be the means and 
manner by which a lot of us will work together while answering 
the threat that we perceive these organizations cause us.
    Mr. Keating. Yes, I made a note of that. I thought that was 
an excellent suggestion.
    Also, it is encouraging to hear that the level of 
information sharing is better than maybe the norm in this 
instance. So, that is encouraging.
    The issue of asset forfeiture, how do those funds get split 
up in terms of some of the border issues? Do some of those 
funds get back to helping the enforcement itself?
    Anyone.
    Mr. McCraw. From the Department of Public Safety, yes. We 
have seized $60 million in 2010, our troopers did and CID 
agents. Working with our Federal partners and using asset 
forfeiture procedures under the Federal guidelines, we are able 
to get as much as 80 percent of that back.
    Mr. Keating. Yes, Chief.
    Cheif Rodriguez. The answer for us, as well, from a local 
level, the answer is yes. It is of great help to us.
    The way that happens is depending on your participation, 
depending on your case. If you are active or involved in a case 
and the size of the seizure, then the result is what you end up 
basically getting.
    Mr. Keating. Then, a lot of those assets are going right 
back into enhancing our border security.
    Sheriff Gonzalez. Well, we have----
    Cheif Rodriguez. The uniformed operations, yes, sir.
    Sheriff Gonzalez. But we have not, since I cannot afford, 
Mr. Keating, to have anybody assigned to Federal task forces, 
you are talking asset sharing at the Federal level, sir. I have 
gotten zero in the last maybe 8 years.
    So, I cannot afford to assign anybody to a task force. I do 
not have the personnel to do it with.
    Maybe I have assigned one person through a grant, and we 
have done some, the applications. But to-date, sir, I have zero 
funding from asset sharing.
    Mr. Keating. Well, I want to thank all of you for your 
service. I want to thank you also for your suggestions. You 
were specific in instances and certainly issues worth pursuing, 
strengthening our statutes, trying to make sure definitions, 
like ammunition, are clear.
    So, I really thank you for--you traveled a long distance, 
but, you know, I would certainly--I think I could speak for the 
whole committee, too, that these kind of specific 
recommendations are very helpful to us.
    So, I want to thank you. It was a trip well worth making, 
at least from my vantage point. Thank you.
    Mr. McCaul. Let me in closing just say that I am sorry that 
the witnesses who were here for the first panel were not here 
for this panel.
    I thought this was excellent testimony that tells the story 
like it really is. I plan to submit that testimony to them, so 
they can read it. You certainly deserve that after traveling 
all the way up here.
    I want to just touch on one last thing.
    Mr. McCraw, the joint operations center effort that you 
have in the State of Texas is probably, I think, one of the 
most advanced of any border State, doing tremendous work down 
there. If you could just briefly describe those operations.
    What more do you need from the Federal Government to help 
fund these operations that have been successful?
    Mr. McCraw. Well, first, you know, working with our local 
and State and Federal law enforcement partners. The State 
legislature did fund joint operations intelligence center. We 
do have it in Austin.
    It is with the support of the unified command, which is out 
in the field, not in Austin. We have six joint operations 
intelligence centers in each of the border security sectors, 
one in Victoria.
    Again, unified command is what it is about, centralizing 
the information, report it. Based upon what the cartels are 
doing, as they move we adjust patrol operations.
    One of the Congressmen asked about contingency plans for 
violence. We have developed with our partners, you know, con 
plans for contingency for spillover violence in each of the 
border security sectors.
    So, if you are going to address it from a border security 
standpoint, it is a team sport. There is no question that, when 
you work together, then we are able to do more and with less.
    That said, you know, the border is not secure. Additional 
resources are needed, not just for the Department, but for 
local law enforcement.
    One thing I would like to point out. There is one thing 
that DHS can do right now, is Operation Stonegarden funds, 
which came up. Sheriffs are not allowed to use that money for 
personnel. They are allowed it for overtime and equipment.
    If you would allow them to use that money--same amount of 
money--and use it for augmentees, they could increase their 
capacity, because you can only use so much of that time in 
overtime. Someone cannot work 24 and 7.
    To do that would provide them, I think, an immediate 
capability. When you arm local law enforcement along the 
border, you are enhancing and amplifying border security.
    Mr. McCaul. Again, thank you for coming up here, and thank 
you for your service. Thanks for your testimony.
    Unless the Ranking Member has anything in addition, this 
committee stands adjourned.
    [Whereupon, at 12:48 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
